<html>
<title> - THE DEPARTMENT OF HOMELAND SECURITY'S FAMILY SEPARATION POLICY: PERSPECTIVES FROM THE BORDER</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


    THE DEPARTMENT OF HOMELAND SECURITY'S FAMILY SEPARATION POLICY: 
                      PERSPECTIVES FROM THE BORDER

=======================================================================

                                 HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                     BORDER SECURITY, FACILITATION,
                             AND OPERATIONS

                                 OF THE

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 26, 2019

                               __________

                            Serial No. 116-8

                               __________

       Printed for the use of the Committee on Homeland Security
                                     

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]
                                     

        Available via the World Wide Web: http://www.govinfo.gov

                               __________
                               
                               
                  U.S. GOVERNMENT PUBLISHING OFFICE                    
36-397 PDF                  WASHINGTON : 2019                     
          
--------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="ff8f90bf9c8a8c8b979a938fd19c9092d1">[email&#160;protected]</a>                                   
                               

                     COMMITTEE ON HOMELAND SECURITY

               Bennie G. Thompson, Mississippi, Chairman
Sheila Jackson Lee, Texas            Mike Rogers, Alabama
James R. Langevin, Rhode Island      Peter T. King, New York
Cedric L. Richmond, Louisiana        Michael T. McCaul, Texas
Donald M. Payne, Jr., New Jersey     John Katko, New York
Kathleen M. Rice, New York           John Ratcliffe, Texas
J. Luis Correa, California           Mark Walker, North Carolina
Xochitl Torres Small, New Mexico     Clay Higgins, Louisiana
Max Rose, New York                   Debbie Lesko, Arizona
Lauren Underwood, Illinois           Mark Green, Tennessee
Elissa Slotkin, Michigan             Van Taylor, Texas
Emanuel Cleaver, Missouri            John Joyce, Pennsylvania
Al Green, Texas                      Dan Crenshaw, Texas
Yvette D. Clarke, New York           Michael Guest, Mississippi
Dina Titus, Nevada
Bonnie Watson Coleman, New Jersey
Nanette Diaz Barragan, California
Val Butler Demings, Florida
                       Hope Goins, Staff Director
                 Chris Vieson, Minority Staff Director
                                 
                               ------                                

            SUBCOMMITTEE ON BORDER SECURITY, FACILITATION, 
                             AND OPERATIONS

                 Kathleen M. Rice, New York, Chairwoman
Donald M. Payne, Jr., New Jersey     Clay Higgins, Louisiana, Ranking 
J. Luis Correa, California               Member
Xochitl Torres Small, New Mexico     Debbie Lesko, Arizona
Al Green, Texas                      John Joyce, Pennsylvania
Yvette D. Clarke, New York           Michael Guest, Mississippi
Bennie G. Thompson, Mississippi (ex  Mike Rogers, Alabama (ex officio)
    officio)
             Alexandra Carnes, Subcommittee Staff Director
          Emily Trapani, Minority Subcommittee Staff Director
                            
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               Statements

The Honorable Kathleen M. Rice, a Representative in Congress From 
  the State of New York, and Chairwoman, Subcommittee on Border 
  Security, Facilitation, and Operations:
  Oral Statement.................................................     1
  Prepared Statement.............................................     3
The Honorable Clay Higgins, a Representative in Congress From the 
  State of Louisiana, and Ranking Member, Subcommittee on Border 
  Security, Facilitation, and Operations:
  Oral Statement.................................................     4
  Prepared Statement.............................................     5
The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Chairman, Committee on 
  Homeland Security:
  Oral Statement.................................................     7
  Prepared Statement.............................................     8

                               Witnesses

Ms. Jennifer Podkul, Director of Policy, Kids In Need of Defense:
  Oral Statement.................................................    10
  Prepared Statement.............................................    11
Ms. Michelle Brane, Director for Migrant Rights and Justice, 
  Women's Refugee Commission:
  Oral Statement.................................................    20
  Prepared Statement.............................................    21
Ms. Julie M. Linton, Co-Chair, Immigrant Health Special Interest 
  Group, American Academy of Pediatrics:
  Oral Statement.................................................    29
  Prepared Statement.............................................    31
Mr. Tim Ballard, Founder and CEO, Operation Underground Railroad:
  Oral Statement.................................................    37
  Prepared Statement.............................................    39

                             For the Record

The Honorable Clay Higgins, a Representative in Congress From the 
  State of Louisiana, and Ranking Member, Subcommittee on Border 
  Security, Facilitation, and Operations:
  Excerpt, hearing held March 6, 2019............................    61
  Prepared statement, Honorable Kirstjen Nielsen.................    61
The Honorable Kathleen M. Rice, a Representative in Congress From 
  the State of New York, and Chairwoman, Subcommittee on Border 
  Security, Facilitation, and Operations:
  Letter, Amnesty International..................................    67

                                Appendix

Question From Ranking Member Clay Higgins for Julie M. Linton....    73
Questions From Ranking Member Clay Higgins for Tim Ballard.......    73

 
    THE DEPARTMENT OF HOMELAND SECURITY'S FAMILY SEPARATION POLICY: 
                      PERSPECTIVES FROM THE BORDER

                              ----------                              


                        Tuesday, March 26, 2019

             U.S. House of Representatives,
                    Committee on Homeland Security,
                          Subcommittee on Border Security, 
                              Facilitation, and Operations,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10:06 a.m., in 
room 310, Cannon House Office Building, Hon. Kathleen M. Rice 
[Chairwoman of the subcommittee] presiding.
    Present: Representatives Rice, Thompson, Correa, Torres 
Small, Higgins, Lesko, Joyce, and Guest.
    Also present: Representatives Underwood and Jackson Lee.
    Miss Rice. The Subcommittee on Border Security, 
Facilitation, and Operations will come to order. The 
subcommittee is meeting today to receive testimony on the 
Department of Homeland Security's family separation policy.
    Today we are continuing the oversight we began at the full 
committee's level earlier this month during our hearing with 
Secretary Nielsen.
    I thank our legal advocates and medical experts who have 
joined us this morning for their willingness to testify and 
share their first-hand knowledge of the current state of our 
Southern Border.
    Last summer, the Department of Homeland Security, under the 
leadership of Secretary Nielsen, implemented a zero tolerance 
policy which resulted in the separation of thousands of 
families.
    Despite knowing beforehand that this policy would 
immediately lead to family separations, DHS and specifically 
U.S. Customs and Border Protection, were completely unprepared 
and ill-equipped for the massive and delicate undertaking of 
sheltering thousands of separated children, with an unknown 
number of babies and toddlers.
    To make matters worse, within days of this policy's 
enactment, it became abundantly clear that none of the Federal 
agencies involved had any systems in place to effectively keep 
track of and reunite separated family members.
    The few systems that did exist were found to be severely 
deficient according to multiple reviews by the Government 
Accountability Office and the inspectors general of both DHS 
and the Department of Health and Human Services. This means 
that the reunification of family members was either an 
afterthought of this administration or simply not prioritized 
at all.
    Due to their lack of preparations and planning, DHS has 
still failed to fully account for the total number of migrant 
children that were separated from their families over the past 
2 years.
    Even more shocking is that DHS still has broad authority to 
separate families based on a set of vague criteria, which 
agents can apply at their own discretion.
    Like all of my colleagues, I am deeply committed to 
combatting human trafficking at our Southern Border. But the 
family separations that took place last summer had nothing to 
do with preventing human trafficking.
    In fact, multiple former administration officials have 
openly acknowledged the zero tolerance policy was, first and 
foremost, an effort to deter unlawful immigration.
    To me and to many of my colleagues on our committee, this 
means that any criteria or justification that this 
administration uses to separate families at the border today 
must be carefully scrutinized and subject to Congressional 
oversight.
    Congress has a responsibility to continue questioning DHS's 
implementation of zero tolerance, its handling of families and 
children in its custody, its compliance with reunification 
efforts, and the standards used to determine if a family should 
be separated.
    But DHS's family separation policy is just one element that 
we intend to examine today. Under the Trump administration, DHS 
has pursued increasingly restrictive immigration policies at 
our Southern Border that are having devastating humanitarian 
consequences. At various ports of entry, CBP has been 
regulating the number of asylum seekers, many of them families 
who can present themselves daily.
    This metering practice has led to long wait lists and 
backlogs that have driven some families to seek access to our 
asylum process through other and often more dangerous means, 
such as traveling through remote areas of the border to find 
Border Patrol agents. These parts of the border are often not 
well-prepared or appropriately-resourced to handle families and 
unaccompanied children.
    Meanwhile, other asylum seekers and families are being 
asked to remain in Mexico while their cases make their way 
through our immigration courts.
    Secretary Nielsen and others in this administration are 
choosing to unilaterally reshape our asylum process. These so-
called migrant protection protocols are putting already 
vulnerable people, including young, unaccompanied children, at 
greater risk.
    We have laws and procedures in place to protect migrant 
children and families seeking asylum. There is a reason why 
these laws exist, and we need to ensure that our immigration 
process operates squarely within those boundaries.
    Today's hearing is intended to give our Members an 
opportunity to hear from legal and medical experts who have 
been at the Southern Border for several years and who have seen 
first-hand how DHS screens and processes family units, manages 
detention facilities, and facilitates health care.
    I look forward to hearing from each of our expert witnesses 
about their experiences and what they took away from their 
visits to the border.
    Next week we are planning to visit the Texas-Mexico border, 
and your testimony today will help inform us of the various 
issues that we must explore while on the ground.
    [The statement of Chairwoman Rice follows:]
    
                 Statement of Chairwoman Kathleen Rice
                             March 26, 2019
    Today we are continuing the oversight we began at the full 
committee level earlier this month during our hearing with Secretary 
Nielsen.
    I thank our legal advocates and medical experts who have joined us 
this morning for their willingness to testify and share their first-
hand knowledge of the current state of our Southern Border.
    Last summer, the Department of Homeland Security, under the 
leadership of Secretary Nielsen, implemented a Zero-Tolerance policy, 
which resulted in the separation of thousands of families.
    Despite knowing beforehand that this policy would immediately lead 
to family separations, DHS, and specifically U.S. Customs and Border 
Protection, was completely unprepared and ill-equipped for the massive 
and delicate undertaking of sheltering thousands of separated children, 
with an unknown number of babies and toddlers.
    To make matters worse, within days of this policy's enactment, it 
became abundantly clear that none of the Federal agencies involved had 
any systems in place to effectively keep track of and reunite separated 
family members.
    And the few systems that did exist were found to be severely 
deficient, according to multiple reviews by the Government 
Accountability Office, and the Inspectors General of both DHS and the 
Department of Health and Human Services.
    This means that the reunification of family members was either an 
afterthought of this administration, or simply not prioritized at all.
    Due to their lack of preparations and planning, DHS has still 
failed to fully account for the total number of migrant children that 
were separated from their families over the past 2 years.
    Even more shocking is that DHS still has board authority to 
separate families based on a set of vague criteria, which agents can 
apply at their own discretion.
    Like all of my colleagues, I am deeply committed to combating human 
trafficking at our Southern Border.
    But the family separations that took place last summer had nothing 
to do with preventing human trafficking. In fact, multiple former 
administration officials have openly acknowledged the Zero Tolerance 
policy was first and foremost an effort to deter unlawful immigration.
    To me, and to many of my colleagues on our committee, this means 
that any criteria or justification that this administration uses to 
separate families at the border today must be carefully scrutinized and 
subject to Congressional oversight.
    Congress has a responsibility to continue questioning DHS's 
implementation of Zero Tolerance, its handling of families and children 
in its custody, its compliance with reunification efforts, and the 
standards used to determine if a family should be separated.
    But DHS's family separation policy is just one element that we 
intend to examine today.
    Under the Trump administration, DHS has pursued increasingly 
restrictive immigration policies at our Southern Border that are having 
devastating humanitarian consequences.
    At various ports of entry, CBP has been regulating the number of 
asylum seekers--many of them families--who can present themselves 
daily.
    This ``metering'' practice has led to long wait lists and backlogs 
that have driven some families to seek access to our asylum process 
through other and often more dangerous means, such as traveling through 
remote areas of the border to find Border Patrol agents.
    These parts of the border are often not well-prepared or 
appropriately resourced to handle families and unaccompanied children.
    Meanwhile, other asylum seekers and families are being asked to 
remain in Mexico while their cases make their way through our 
immigration courts.
    Secretary Nielsen and others in this administration are choosing to 
unilaterally reshape our asylum process. And these so-called ``Migrant 
Protection Protocols'' are putting already vulnerable people--including 
young, unaccompanied children--at greater risk.
    We have laws and procedures in place to protect migrant children 
and families seeking asylum. There is a reason why these laws exist, 
and we need to ensure that our immigration process operates squarely 
within those boundaries.
    Today's hearing is intended to give our Members an opportunity to 
hear from the legal and medical experts who have been at the Southern 
Border for several years and who have seen first-hand how DHS screens 
and processes family units, manages detention facilities and 
facilitates health care. I look forward to hearing from each of our 
expert witnesses about their experiences and what they took away from 
their visits to the border.
    Next week, we are planning to visit the Texas-Mexico border and 
your testimony today will help inform us of the various issues that we 
must explore while on the ground.
    I thank all of our witnesses for joining us this morning, and I now 
yield to the Ranking Member of the subcommittee, Mr. Higgins.

    Miss Rice. I now recognize the Ranking Member of the 
subcommittee, the gentleman from Louisiana, Mr. Higgins, for an 
opening statement.
    Mr. Higgins. I thank my colleague Chairwoman Rice, and I 
especially thank our witnesses for joining us today. My friends 
across the aisle will, perhaps, spend some time today 
criticizing strict enforcement of our immigration laws.
    I believe what we should discuss are the loopholes in our 
immigration laws that fuel criminal organizations and their 
propaganda, responsible for convincing hundreds of thousands of 
vulnerable people from Central America to make the treacherous 
journey to our Southwest Border.
    Human smuggling frequently can lead to sexual assault and 
sex trafficking, endangering the lives of thousands of women 
and children, because we have not invested enough resources in 
securing our Southwest Border.
    To criminal organizations, the benefits clearly outweigh 
the consequences. They extort money, cash, and smuggling fees 
from migrants, while expanding their control of areas in 
Central America.
    We know of the horrible conditions these families and 
children experience on their journey to our border, including 
the very real threat of separation, assault, sex trafficking, 
and labor trafficking that occurs at the hands of cartel 
smugglers and coyotes.
    I am grateful for all of our witnesses who are joining us 
today to share your particular area of expertise. We appreciate 
your passion, your love for America and, by extension, the 
children that are entering our country illegally. It is quite a 
crisis.
    I am grateful that Mr. Ballard could join us today as a 
witness to speak in more detail about human trafficking cases 
that exist due to a lack of security along our Southwest 
Border. We need enhanced security.
    I know he will provide case examples from his law 
enforcement experience in the CIA and working for Homeland 
Security Investigations Unit. This is exactly what America 
needs to hear.
    Our Nation is generous and compassionate. We accept over a 
million legal immigrants into our country every year. We are on 
track to shelter more persecuted individuals with asylum under 
this administration than the last. In fact, 5,638 people were 
granted asylum in 2018, compared to less than half that number 
in 2016.
    Due to loopholes in our immigration laws, people attempt 
and illegally enter our country with the intent to stay or 
create an extreme backlog in our process.
    These immigrants are told that once they step foot on U.S. 
soil, they can stay. This is what they are told by the cartels 
and the traffickers.
    The truth is that most asylum claims prove to be 
illegitimate, and of further concern is the fact that about 40 
percent of people requesting asylum in 2018 never filed an 
actual application.
    That is 14,072 people who passed the credible fear 
screening--they are trained on how to pass credible fear 
screening and then decided they did not actually need to apply 
for asylum and likely disappeared into the interior of our 
country.
    Criminal organizations tell migrants that children can be 
used as de facto visas, making them vulnerable targets for 
smugglers and human traffickers who know that after 20 days 
families and minors must be released into the interior.
    We have seen major spikes in unaccompanied minors and 
family units over the last 5 years, incredible increases. We 
are now seeing the greatest number of families attempting to 
illegally enter our country in our Nation's history, and those 
numbers are only expected to rise.
    Because my more liberal colleagues, many of whom I greatly 
respect and admire, continue to obstruct needed funding for 
enhanced border security, 84 percent of migrants are arriving 
between ports of entry and crossing illegally.
    The reality is, every single day women are sexually 
assaulted on the journey to our Southwest Border, children do 
not receive adequate food, water, and shelter, and sometimes 
people are forced into labor or sex trafficking.
    By failing to secure our border and fix legal loopholes, we 
are enriching the criminal cartels, making them more powerful 
in Central America and Mexico, and enabling them to exploit new 
victims. If Congress refuses to fix these loopholes and secure 
our border, we are complicit in this problem.
    I continue to support an all-of-the-above strategy to 
secure our borders, including enhanced physical barriers, 21st 
Century technology and additional manpower. Front-line 
defenders have repeatedly testified before this committee about 
how this multi-layered approach works.
    I encourage my colleagues to work together to ensure that 
more resources are provided to the Department of Homeland 
Security to secure our borders in a safe and humane, 
compassionate way.
    Thank you, Madam Chairwoman, and I yield back.
    [The statement of Ranking Member Higgins follows:]
                Statement of Ranking Member Clay Higgins
                             March 26, 2019
    Thank you, Chairwoman Rice and thank you to our witnesses for 
joining us.
    My friends on the left will spend much time today criticizing 
strict enforcement of our immigration laws. To be clear, that strict 
enforcement is no longer happening.
    What we don't hear about as much are the loopholes in our 
immigration laws that fuel criminal organizations' propaganda 
responsible for convincing hundreds of thousands of vulnerable people 
from Central America to make the treacherous journey to our Southwest 
Border. Smuggling can easily turn into sexual assault and trafficking, 
endangering the lives of women and children along the way. Because we 
have not invested enough resources in securing our Southwest Border, to 
transnational criminal organizations, the benefits clearly outweigh the 
consequences we can deliver to them for facilitating this travel.
    They extort thousands of dollars in smuggling fees from migrants, 
while expanding their control of areas in Central America. We don't 
hear about the horrible conditions these families and children 
experience on their journey to our border, including the very real 
threat of separation, assault, sex trafficking, and labor trafficking 
that occurs at the hands of cartels, smugglers, and coyotes.
    I am grateful that Mr. Ballard could join us today as a witness to 
speak in more detail about human trafficking cases that exist due to a 
lack of security along our Southwest Border.
    I know he will provide case examples from his law enforcement 
experience in the CIA and working for the Homeland Security 
Investigations unit within DHS. While these may be troubling to hear, 
they are exactly what America needs to hear.
    Our Nation is a generous one. We accept over 1 million legal 
immigrants into our country every year and we are on track to shelter 
more persecuted individuals with asylum under this administration than 
the last--in fact 5,638 people were granted asylum in 2018 compared to 
less than half that number in 2016.
    Due to loopholes in our immigration laws, people attempting to 
illegally enter our country for solely economic reasons are coming too, 
creating an extreme backlog in our process and causing those who 
truthfully need this aid to be in limbo for years. These migrants are 
told that once they step foot on U.S. soil, they can stay. The 
unfortunate truth is that most asylum claims prove illegitimate and of 
further concern is the fact that 40 percent of people requesting asylum 
in 2018, never filed an actual application. That's 14,072 people who 
passed a credible fear screening then decided they did not actually 
need asylum to remain in the United States, likely disappearing into 
our interior.
    Criminal organizations tell migrants that children can be used as 
de facto visas, making them vulnerable targets for smugglers and human 
traffickers who know that after 20 days, families and minors must be 
released into the interior. We have seen major spikes in unaccompanied 
minors and family units over the last 5 years, a shift that coincides 
with policies and court decisions made under the Obama administration, 
specifically the extension of the Flores Settlement to families. We are 
now seeing the greatest number of families attempting to illegally 
enter our country in our Nation's history and those numbers are only 
expected to rise.
    And, meaningfully, 84 percent of migrants are arriving between 
ports of entry and crossing illegally.
    Once these migrants are apprehended, the cost of not only holding, 
but processing, caring for, and monitoring them is an enormous sum, 
which is even more alarming when you realize that a large number of 
their immigration hearings end with deportation orders. Our border 
agencies have diverted millions from their operational budgets to 
address these surge concerns, decaying our readiness.
    The reality is every single day women are sexually assaulted on the 
way to our Southwest Border, children do not receive adequate food, 
water, and shelter, and sometimes people are tricked into being labor- 
or sex-trafficked. All because our border doesn't stop them from 
crossing illegally once they get here.
    Last year the Border Patrol rescued over 4,300 people who were left 
for dead by smugglers or who were victims of the rugged terrain that 
encompasses our Southwest Border. Agents unfortunately also find 
skeletal remains of others that did not make it across.
    Transnational criminal organizations control corridors where many 
smuggling routes pass through Mexico, making reaching our Southwest 
Border a question of ``how much?'' instead of ``how?'' Illegal 
immigration generates tens of millions of dollars for these criminal 
organizations every year.
    By failing to secure our border and fix legal loopholes, we are 
enriching the criminal cartels, making them more powerful in Central 
America and Mexico, and enabling them to exploit new victims.
    As a Congress that refuses to fix these loopholes and secure our 
border, we are complicit in this problem.
    I continue to support an ``all-of-the-above'' strategy to secure 
our borders including enhanced physical barriers, 21st Century 
technology, and additional manpower. Front-line defenders have 
repeatedly testified before this committee about how this multi-layered 
approach works. It's time we start believing them.
    I encourage my colleagues to work together to ensure that more 
resources are provided to the Department of Homeland Security to secure 
our borders in a safe and humane way.
    Thank you and I yield back.

    Miss Rice. Thank you, Mr. Higgins.
    I now recognize the Chairman of the Homeland Security 
Committee, the gentleman from Mississippi, Mr. Thompson, for an 
opening statement.
    Mr. Thompson. Thank you, Chairwoman Rice and Ranking Member 
Higgins for holding today's hearing.
    Today we are joined by a panel of experts who have 
witnessed first-hand, how the Department of Homeland Security 
has put in place and carried out policies directly affecting 
migrant families and children seeking asylum on our Southern 
Border.
    We must be clear. Though systematic challenges with 
detention conditions, due process and family screening 
protocols have been persistent over many years, the Trump 
administration is unique. No other administration has carried 
out a policy that deliberately separate migrant families, in 
some instances by default.
    When they reach the border at the scale we have seen over 
the past 2 years, this policy is seriously inconsistent with, 
if not a complete break from, the policy put in place by U.S. 
Customs and Border Protection in 2015 to maintain family unity 
to the great extent operationally feasible, absent a serious 
threat to the safety of the child.
    Last summer we saw the peak of these separations. I 
adamantly hope we do not see a repeat of this cruelty this 
summer. We now know that DHS put in place a family separation 
pilot program in 2017, prior to the rollout of its zero 
tolerance policy in 2018.
    However, three independent oversight entities within the 
Government, the Government Accountability Office and the 
inspector generals of both DHS and the Department of Health and 
Human Services, have since found that none of the Federal 
agencies involved were prepared to adequately monitor families 
throughout the intake process or handle the number of children 
suddenly in their custody once their parents were criminally 
charged.
    Whether this lack of preparation was incompetence or 
deliberate is what this committee intends to find out with 
certainty.
    Real oversight of this family separation policy and how DHS 
and CBP are currently treating asylum-seeking families and 
children is long overdue. Whether DHS and CBP began to change 
their processes will go a long way in demonstrating their 
intentions.
    Three of our witnesses here today can attest to the impacts 
of this lack of preparation, combined with other deterrent-only 
policies have had on migrant children and their families.
    There have been a steady increase in the number of families 
and unaccompanied children presenting themselves to Border 
Patrol agents, and at ports of entry for months now. 
Unfortunately, I understand that necessary family separations 
continue today.
    During my recent visit to the border, I saw at least one 
facility that is not at all appropriate for holding vulnerable 
populations, particularly small children, for extended periods 
of time.
    I find it truly unfortunate that it took the death of two 
young children in CBP custody last December for DHS to begin 
conducting more medical assessments and to request funding to 
more humanely handle families and children in their custody. 
There has to be a better way.
    What we will discuss today will help the committee hold DHS 
accountable for its part in the trauma inflicted on these 
children and families.
    I also look forward to hearing from our expert witnesses on 
how we can prevent any further harm from being carried out by 
the Federal Government on these families. The proposal and 
action carried out by DHS to date have proven inadequate, 
harmful, and deadly.
    Committee Democrats intend to advocate for smart, 
effective, and humane alternatives to handling the humanitarian 
challenge. I thank our witnesses for informing our efforts by 
joining us today.
    I yield back, Madam Chair.
    [The statement of Chairman Thompson follows:]
                Statement of Chairman Bennie G. Thompson
                             March 26, 2019
    Today we are joined by a panel of experts who have witnessed first-
hand how the Department of Homeland Security has put in place and 
carried out policies directly affecting migrant families and children 
seeking asylum on our Southern Border. We must be clear--though 
systemic challenges with detention conditions, due process, and family 
screening protocols have been persistent over many years, the Trump 
administration is unique.
    No other administration has carried out a policy that deliberately 
separates migrant families--in some instances by default--when they 
reach the border at the scale we have seen over the past 2 years. This 
policy is seriously inconsistent with, if not a complete break from, 
the policy put in place by U.S. Customs and Border Protection in 2015 
to ``maintain family unity to the great extent operationally feasible'' 
absent a serious threat to the safety of the child.
    Last summer we saw the peak of these separations, and I adamantly 
hope we do not see a repeat of this cruelty this summer. We now know 
that DHS put in place a family separation policy pilot program in 2017 
prior to the rollout of its zero-tolerance policy in 2018.
    However, three independent oversight entities within the 
Government--the Government Accountability Office and the inspector 
generals of both DHS and the Department of Health and Human Services--
have since found that none of the Federal agencies involved were 
prepared to adequately monitor families through the in-take process or 
handle the number of children suddenly in their custody once their 
parents were criminally charged.
    Whether this lack of preparation was incompetence or deliberate is 
what this committee intends to find out with certainty. Real oversight 
of this family separation policy and how DHS and CBP are currently 
treating asylum-seeking families and children is long overdue. Whether 
DHS and CBP begin to change their processes will go a long way in 
demonstrating their intentions.
    Three of our witnesses here today can attest to the impacts this 
lack of preparation combined with other deterrence-only policies have 
had on migrant children and their family members. There has been a 
steady increase in the number of families and unaccompanied children 
presenting themselves to Border Patrol agents and at ports of entry for 
months now. Unfortunately, I understand that unnecessary family 
separations continue today.
    During my recent visit to the border, I saw at least one facility 
that is not at all appropriate for holding vulnerable populations--
particularly small children--for extended periods of time. I find it 
truly unfortunate that it took the deaths of two young children in CBP 
custody last December for DHS to begin conducting more medical 
assessments and to request funding to more humanely handle families and 
children in their custody. There has to be a better way. What we will 
discuss today will help the committee hold DHS accountable for its part 
in the trauma inflicted on these children and families.
    I also look forward to hearing from our expert witnesses on how we 
can prevent any further harm from being carried out by the Federal 
Government on these families. The proposals and actions carried out by 
DHS to date have proven inadequate, harmful, and deadly. Committee 
Democrats intend to advocate for smart, effective, and humane 
alternatives to handling this humanitarian challenge, and I thank our 
witnesses for informing our efforts by joining us today.

    Miss Rice. Thank you, Mr. Chairman.
    Other Members of the committee are reminded that under the 
committee rules opening statements may be submitted for the 
record.
    Additionally, I ask unanimous consent that the Members of 
the full committee shall be permitted to sit and question the 
witnesses, as appropriate. Without objection, so ordered.
    I welcome our panel of witnesses. Our first witness, Ms. 
Jennifer Podkul, is the senior director of policy and advocacy 
at Kids in Need of Defense, or KIND.
    Ms. Podkul is an international human rights lawyer, an 
expert on issues affecting immigrant children. Prior to joining 
KIND, she was a senior program officer at the Women's Refugee 
Commission, where she researched issues facing vulnerable 
migrants and advocated for improved treatment.
    Next we have Ms. Michelle Brane, who is the director of the 
Migrant Rights and Justice Program at the Women's Refugee 
Commission. Ms. Brane is one of the Nation's foremost experts 
on U.S. asylum protections and detention policies for migrants.
    She has more than 25 years of experience working on 
immigration and human rights issues, including serving as an 
attorney adviser for the Department of Justice Board of 
Immigration Appeals, where she specialized in asylum cases.
    Next, we have Dr. Julie M. Linton, who is the co-chair of 
Immigrant Health Special Interest Group at the American Academy 
of Pediatrics.
    Dr. Linton holds a B.S. in psychology from Duke University, 
an M.D. from the Perelman School of Medicine at the University 
of Philadelphia and completed her residency in pediatrics at 
Children's Hospital of Philadelphia. She has authored numerous 
publications and testified before Congress once before on the 
Department's family separation policy.
    Finally, we have Mr. Tim Ballard, the founder and CEO of 
Operation Underground Railroad. Before founding OUR, Mr. 
Ballard worked as a special agent within the Department at 
Immigration and Customs Enforcement, Homeland Security 
Investigations.
    While there, he was assigned to the Internet Crimes Against 
Children Task Force Program and deployed as an undercover 
operative for the U.S. Child Sex Tourism Jump Team to combat 
child sex trafficking rings.
    He continues this work at OUR by supporting and training 
law enforcement agencies on best practices to liberate children 
from these trafficking rings.
    Without objection, the witnesses' full statements will be 
inserted in the record.
    I now ask each witness to summarize his or her statement 
for 5 minutes, beginning with Ms. Podkul.

STATEMENT OF JENNIFER PODKUL, DIRECTOR OF POLICY, KIDS IN NEED 
                           OF DEFENSE

    Ms. Podkul. Thank you Chairman Rice, Ranking Member 
Higgins, and Members of the subcommittee.
    I am here to represent Kids in Need of Defense, a National 
organization dedicated to promoting the rights of child 
migrants and ensuring that every child has access to high 
quality legal representation.
    I am grateful the subcommittee is holding today's hearing 
to look at the systematic and intentional attacks this 
administration has launched against some of the most vulnerable 
people in the world, migrant children.
    Before I begin recounting the ways in which recent policy 
changes have harmed children, I want to start by telling you a 
bit about some of our clients who, thanks to my dedicated 
colleagues, have legal status and are able to live safely in 
the United States.
    I think it is important for all of us to have an 
understanding of who these kids are and not just think of them 
as numbers or statistics.
    There is Jonathan, who came here from Guatemala, who is 
almost finished with high school and is planning on joining the 
Marines when he graduates.
    There is Alicia, who came to the United States as a 
teenager and learned English incredibly quickly and then also 
graduated high school early.
    Then there is Alejandra. She created a Nationally-
recognized anti-bullying campaign when she was in high school. 
Then she secured a full scholarship to a prestigious college.
    See, this is what happens when you give kids a fair chance. 
However, instead of dedicating resources to ensure that our 
system is able to efficiently process and fairly adjudicate the 
cases of children seeking protection, this administration has 
invested in malicious deterrence tactics.
    When a child has fled torture, is being persecuted by 
criminals that even the police are afraid of or witnesses the 
murder of her close family members, they can't be deterred from 
fleeing. Draconian policies will only serve to make their lives 
worse and waste taxpayer money.
    Family separation, one of the most high-profile methods of 
deterrence by this administration, has been condemned across 
the board. Yet separations are continuing to happen on a 
regular basis, and we don't know why.
    There is still no public guidance on when CBP can separate 
a child from their parent. There is no requirement a licensed 
child welfare professional screen the child, and there is no 
way for a parent to challenge the separation if it was done in 
error.
    KIND attorneys are still seeing cases which separations are 
not fully tracked, information about extended family members is 
not captured, and it is not clear the separation was truly in 
the best interest of the child.
    Another harmful policy that has been the information-
sharing agreement between DHS and ORR. The use of information 
obtained by ORR during the sponsor vetting process to conduct 
immigration enforcement against sponsors not only causes 
emotional distress to the children, but it has resulted in a 
ballooning population of children held in ORR custody.
    In violation of the spirit of the Flores Agreement, 
children are being held in unlicensed emergency facilities for 
months on end. Detention fatigue has resulted in many children 
giving up their valid claims for protection.
    Children should not be used as bait for immigration 
enforcement. Compliance with the Flores Settlement Agreement 
and minimum standards of detention must be a priority for every 
agency that holds children.
    Finally, in an attempt to deny any kind of access to our 
justice system, this administration has tried to slam the door 
completely on those arriving at our Southern Border. Children 
are being turned away and denied the right to ask for 
protection, both between ports of entry, as well as at the 
official ports. This is in violation of the law.
    I have interviewed children and families sleeping on 
bridges and living in extremely dangerous conditions in Mexico 
all along the border from San Diego to Brownsville. Some are 
waiting for months to be able to present themselves and ask for 
protection.
    If they are lucky enough to be processed, they are then put 
into freezing cold CBP facilities that are not appropriate for 
children and are not staffed with appropriate child welfare or 
medical professionals. This has resulted in children getting 
very sick and, as you know, some even dying.
    Our enforcement system has not modernized to catch up with 
what has been a reality for many years now, that children make 
up a large percentage of the population that DHS is 
encountering. Enforcement methods used for single adult males 
are not appropriate for children in search of safety.
    DHS must implement the directives set forth in their 
funding bill and stop using sponsor information for enforcement 
purposes. They must direct funding to ensure adequate medical 
treatment for children in DHS custody, and they must not 
continue to engage in efforts that preclude children's access 
to the United States.
    Because deterrence won't work, we must instead focus on 
addressing the root causes of their migration. We must ensure 
our justice system offers due process and fair adjudications 
and that decisions reflect the best interest of the child. We 
must stop hurting children who are coming to us asking for 
help.
    Thank you.
    [The prepared statement of Ms. Podkul follows:]
                 Prepared Statement of Jennifer Podkul
                             March 26, 2019
    Kids in Need of Defense (KIND) was founded by the Microsoft 
Corporation and the United Nations Refugee Agency (UNHCR) Special Envoy 
Angelina Jolie, and is the leading national organization that works to 
ensure that no refugee or immigrant child faces immigration court 
alone. We do this in partnership with over 600 law firms, corporate 
legal departments, law schools, and bar associations, which provide pro 
bono representation to unaccompanied children referred to KIND for 
assistance in their deportation proceedings. KIND has served more than 
18,000 children since 2009, and leveraged approximately $250 million in 
pro bono support from private-sector law firms, corporations, law 
schools, and bar associations. KIND also helps children who are 
returning to their home countries through deportation or voluntary 
departure to do so safely and to reintegrate into their home 
communities. Through our reintegration pilot project in Guatemala and 
Honduras, we place children with local nongovernmental organization 
partners, which provide vital social services, including family 
reunification, school enrollment, skills training, and counseling. KIND 
also engages in broader work in the region to address root causes of 
child migration, such as sexual- and gender-based violence. 
Additionally, KIND advocates to change law, policy, and practices to 
improve the protection of unaccompanied children in the United States, 
and is working to build a stronger regional protection framework 
throughout Central America and Mexico.
                              introduction
    Family unity is a fundamental human right and central principle of 
U.S. immigration policy and international law.\1\ The administration 
gutted this fundamental principle when it began separating families as 
a way to deter asylum seekers from seeking protection at the U.S./
Mexico border. Families like that of Luisa, a 7-year-old child who was 
separated from her father after they entered the United States last 
summer.\2\ The day after this separation, Luisa's mother and 10-year-
old brother entered the United States and passed a credible fear 
interview, which placed them into removal proceedings during which they 
may assert their claims for asylum. Although Luisa's brother and mother 
were released, Luisa stayed in a detention facility. On her own, she 
could not have made a case for asylum because she did not know why her 
family came to the United States. When KIND spoke with Luisa, it was 
impossible to even conduct a legal assessment with her because she 
could not stop crying--she was so distraught by the separation that she 
simply sobbed during most of the meeting with an attorney.\3\
---------------------------------------------------------------------------
    \1\ See U.N. International Covenant on Civil and Political Rights, 
art. 23, Dec. 16, 1966, 6 I.L.M. 368 (1967), 999 U.N.T.S. 171; U.N. 
Convention on the Rights of the Child, art. 9, Nov. 20, 1989, 1577 
U.N.T.S. 3. See also WILLIAM KANDEL, U.S. FAMILY-BASED IMMIGRATION 
POLICY, CONGRESSIONAL RESEARCH SERV. 2 (2014) (available at https://
trac.syr.edu/immigration/library/P9368.pdf).
    \2\ How You Can Help Separated Families and Ensure Protection for 
Children, KIND (June 28, 2018), https://supportkind.org/resources/how-
you-can-help-end-family-separation-and-ensure-protection-for-children/.
    \3\ Id.
---------------------------------------------------------------------------
    Additional policies of the administration have delayed the release 
of children in detention to their families--even children that had gone 
through the horror of having been separated from their parents. Two 
sisters KIND is working with remained in ORR custody for nearly 8 
months after being separated from their father, who was then deported. 
The girls' mother submitted all necessary paperwork for the girls' 
release, but officials insisted for months that one particular 
individual, who periodically resided in the home, but traveled 
frequently for work, also submit fingerprints. In December, ORR 
suddenly changed its policy and no longer required the missing 
fingerprints. The girls were finally released the week before Christmas 
and able to reunite with their mother. The children remain very 
concerned about their father, who was deported and faces on-going 
threats to his safety.
    These children belong with their families.
    KIND recommends the following: First, the Trump administration must 
end the ``Migrant Protection Protocol (Remain in Mexico)'' policy as 
well as metering at ports of entry that leave children in dangerous 
conditions in Mexico while waiting to ask for protection. Second, 
family separations should occur only when they are in the best interest 
of children using public standards created by child welfare experts. 
Third, the Government should document the reason for separations, and 
allow parents to challenge separation decisions when they occur. 
Fourth, the Government should track all separated family members and 
provide that information to the child and their attorney. Fifth 
Homeland Security should hire licensed child welfare professionals to 
screen and provide adequate care for children in DHS custody. Finally, 
DHS should never use information obtained from the Office of Refugee 
Resettlement to vet a sponsor to conduct enforcement.\4\
---------------------------------------------------------------------------
    \4\ This practice was limited in the 2019 DHS appropriations bill. 
See, https://appropriations.house.gov/sites/
democrats.appropriations.house.gov/files/documents/Summary%20of%20- 
Conference%20Report.pdf.
---------------------------------------------------------------------------
    We urge the committee to consider our recommendations and to hold 
the Trump administration accountable to do what Congress has mandated: 
Allow asylum seekers to apply for protection in the U.S. Border 
security policies should protect the integrity of our immigration 
system and our Nation's commitment to extending protection to those in 
need of safety--particularly children.
    the ``migration protection protocol'' policy must be eliminated
    In December 2018, DHS Secretary Kirstjen Nielsen announced the 
Migrant Protection Protocols (MPP)\5\--or the ``Remain in Mexico'' 
policy--under which certain asylum seekers are forced to stay in Mexico 
pending their immigration proceedings in the United States.\6\ 
Relatedly, in November 2018, DHS and the U.S. Department of Justice 
issued an interim final rule that, coupled with a Presidential 
Proclamation issued shortly after, would bar migrants from seeking 
asylum if they cross the border between official ports of entry.\7\ 
Both policies disregard Congress' express intent to allow asylum 
seekers to apply for protection, regardless of where they enter the 
country.\8\ They further violate international norms and treaties by 
which the United States is bound, including the 1951 Refugee 
Convention, which prohibits nations from expelling or returning 
refugees to a country where their lives would be threatened.\9\ In late 
January 2019, DHS formally implemented the Remain in Mexico policy 
turning back 240 migrants since that time.\10\
---------------------------------------------------------------------------
    \5\ See Secretary Kirstjen M. Nielsen Announces Historic Action to 
Confront Illegal Immigration, Dep't of Homeland Security (Dec. 20, 
2018), https://www.dhs.gov/news/2018/12/20/secretary-nielsen-announces-
historic-action-confront-illegal-immigration; see also Memorandum on 
MPP Guiding Principles (Jan. 28, 2019) (hereinafter MPP Memorandum), 
https://www.cbp.gov/sites/default/files/assets/documents/2019-Jan/
MPP%20Guiding%20Principles%201-28-19.pdf.
    \6\ MPP Memorandum, supra note 4, at 1-2.
    \7\ 83 Fed. Reg. 55934 (Nov. 9, 2018). The United States District 
Court of the Northern District of California issued an injunction 
against the measure. East Bay Sanctuary Covenant v. Trump, No. 3:18-cv-
06810-JST (N.D. Cal. Nov. 19, 2018) (Order Granting Temporary 
Restraining Order).
    \8\ See INA  208, 8 U.S.C.  1158(a)(1) (2008).
    \9\ Nations are prohibited from expelling or returning a refugee to 
a country where ``his or her life or freedom would be threatened on 
account of his or her race, religion, nationality, membership of a 
particular social group or political opinion.'' UNHCR, Advisory Opinion 
on the Extraterritorial Application of Non-Refoulement Obligations 
under the 1951 Convention Relating to the Status of Refugees and its 
1967 Protocol (Jan. 26, 2007), https://www.unhcr.org/4d9486929.pdf. The 
United States is bound to the 1951 Convention as a signatory to the 
1967 Protocol Relating to the Status of Refugees, Jan. 31, 1967, 19 
U.S.T. 6223.
    \10\ Julia Ainsley, Trump admin has turned back 240 asylum-seekers 
at border under `Remain in Mexico' policy, NBC News (Mar. 12, 2019), 
https://www.nbcnews.com/politics/immigration/trump-admin-has-turned-
back-240-asylum-seekers-border-under-n982246.
---------------------------------------------------------------------------
    While the administration has asserted that the Remain in Mexico 
policy would not apply to unaccompanied children,\11\ U.S. and Mexican 
officials are nonetheless preventing unaccompanied children from 
entering the United States to seek asylum. Moreover, at least 25 minors 
have been returned to Mexico under the new policy.\12\
---------------------------------------------------------------------------
    \11\ MPP Memorandum, supra note 4, at 1.
    \12\ Maria Verza, US sending Central American migrant minors back 
to Mexico, AP (Feb. 25, 2019), https://www.apnews.com/
8548e76bed794a9eb1f3b38d15e0601b.
---------------------------------------------------------------------------
    During a research mission to Mexico, KIND learned that CBP agents 
have turned back unaccompanied children to Mexico after telling them 
that they can no longer seek asylum in the United States.\13\ Mexican 
officials are similarly blocking unaccompanied children from presenting 
themselves at U.S. ports of entry, with some Mexican officials even 
requiring migrants to pay thousands of dollars before letting them 
apply for asylum.\14\ Mexican officials also frequently transfer 
unaccompanied children seeking asylum in the United States to the 
custody of Mexico's child welfare agency (DIF).\15\ Once in DIF 
custody, these children are informed that they may seek asylum in 
Mexico or be deported to their countries of origin.\16\ They are not 
informed of their right to seek protection in the United States.\17\ 
Fearful of deportation by Mexican officials, some unaccompanied 
children have chosen to hide from Mexican officials or to cross the 
border between ports of entry--circumstances that increase the dangers 
facing vulnerable youth.\18\
---------------------------------------------------------------------------
    \13\ See KIND, The Protection Gauntlet: How the United States is 
Blocking Access to Asylum Seekers and Endangering the Lives of Children 
at the U.S. Border (Dec. 21, 2018) (hereinafter The Protection 
Gauntlet), https://supportkind.org/resources/the-protection-gauntlet-
how-the-united-states-is-blocking-access-to-asylumseekers-and-
endangering-the-lives-of-children-at-the-u-s-border/.
    \14\ Emily Green, Exclusive: Mexican Officials are Extorting 
Thousands of Dollars from Migrants Applying for Asylum, Vice (Mar. 13, 
2019), https://news.vice.com/en_us/article/kzdy4e/exclusive-mexican-
officials-are-extorting-thousands-of-dollars-from-migrants-to-apply-
for-asylum.
    \15\ KIND, The Protection Gauntlet: How the United States is 
Blocking Access to Asylum Seekers and Endangering the Lives of Children 
at the U.S. Border 2-3, (Dec. 21, 2018) (hereinafter The Protection 
Gauntlet), https://supportkind.org/resources/the-protection-gauntlet-
how-the-united-states-is-blocking-access-to-asylumseekers-and-
endangering-the-lives-of-children-at-the-u-s-border/.
    \16\ Id.
    \17\ Id. at 3.
    \18\ Id.
---------------------------------------------------------------------------
    Due to severe restrictions on the number of available U.S. asylum 
interviews, migrants must wait months to present their asylum claim at 
the border.\19\ In several cities on Mexico's northern border, migrants 
place their name on a non-governmental wait list and wait to be called 
by U.S. officials to present themselves.\20\ Once called, the migrants 
can then present themselves for asylum at the U.S. border.\21\ 
Unaccompanied minors, however, are not permitted to place themselves on 
the wait list, impeding their ability to even make any asylum claim 
under the new Migrant Protection Protocol.\22\
---------------------------------------------------------------------------
    \19\ Fernanda Echavarri, Teens Fleeing Central American Gangs Are 
Stuck at the Border--and Fear for Their Lives, Mother Jones (Mar. 7, 
2019), https://www.motherjones.com/politics/2019/03/unaccompanied-
minors-asylum-seekers-central-america-tijuana/.
    \20\ Id.
    \21\ Id.
    \22\ Id.
---------------------------------------------------------------------------
    Unaccompanied children face grave danger in Mexican border towns, 
where they may be preyed upon by smugglers and human traffickers.\23\ 
Last December, two unaccompanied youth were tricked, abducted, 
tortured, and killed in Tijuana.\24\ A third child reported that he and 
his friends were kidnapped, tied to chairs, undressed, and tortured 
with scissors in an attempt to extort their relatives for money. Across 
our Southern Border there are children and babies sleeping in tents, on 
the streets, exposed to the elements and depending on volunteers for 
food. When they finally are allowed to present themselves to U.S. 
officials many are sick, dehydrated, and in need of medical attention. 
Despite horrendous incidences like this, Mexican officials continue to 
block unaccompanied children from accessing U.S. ports of entry.\25\
---------------------------------------------------------------------------
    \23\ Jack Herrera, Five Takeaways from the Lawsuit Over Trump's 
Plan to Keep Asylum Seekers in Mexico, Pacific Standard (Feb. 14, 
2019), https://psmag.com/news/five-takeaways-from-the-lawsuit-over-
trumps-plan-to-keep-asylum-seekers-in-mexico.
    \24\ Ed Vulliamy, Tricked, abducted and killed: the last day of two 
child migrants in Mexico, The Guardian (Feb. 16, 2019), https://
www.theguardian.com/world/2019/feb/16/tijuana-migrant-child-murders-
mexico-us-asylum.
    \25\ Herrera, supra note 23.
---------------------------------------------------------------------------
family separations should occur only when they are in the best interest 
                              of the child
    On May 7, 2018, Attorney General Jeff Sessions announced the 
administration's Zero Tolerance Policy (ZTP), under which families 
arriving at the border would be separated. Parents would be held in 
adult detention facilities and prosecuted for illegal entry--despite 
exercising their lawful right to seek asylum--while children would be 
reclassified as unaccompanied children and placed in the custody of the 
Office of Refugee Resettlement (ORR). From May to July 2018, at least 
2,700 immigrant and refugee children were separated from their parents 
after crossing into the United States seeking safety.
    The American Civil Liberties Union (ACLU) filed a lawsuit--the Ms. 
L v. Sessions case--which resulted in a court injunction mandating 
reunification of children with their parents by July 26, 2018. With 
other direct legal service providers,\26\ KIND formed a part of the 
Steering Committee ordered by the court, to provide legal expertise and 
input in the lawsuit and locate and interview the deported parents.
---------------------------------------------------------------------------
    \26\ The Steering Committee approved by the Court in the Ms. L 
litigation includes the law firm Paul, Weiss as well as three non-
governmental organizations: Justice in Motion, Kids in Need of Defense 
(KIND), and the Women's Refugee Commission (WRC).
---------------------------------------------------------------------------
    In response to the ZTP, KIND formed a dedicated Family Separation 
Response Team (FSRT). In addition to directly handling the legal cases 
of separated children and their families, the FSRT provides expert 
mentorship and training to pro bono attorneys and staff, collaborates 
in on-going coalition-building and litigation efforts, and works with 
partners across the United States to support families affected by the 
crisis. The team has also collaborated in the effort to locate deported 
parents in Central America. Additionally, KIND represented over 100 
detained children who had been separated as part of this policy. The 
average age of these children was 10 years old.
    In addition, KIND has now received approximately 280 additional 
referrals for released, separated children across our 10 field offices, 
including numerous children whose parents were deported. KIND is also 
assisting dozens of reunified family units.
    Parents and children face lasting trauma as a result of their 
forced separations. In 2017, the American Academy of Pediatrics 
explained that detention stunts child development and causes severe 
psychological trauma, like depression and post-traumatic stress 
disorder.\27\ Medical and mental health experts have concluded that the 
forced separation of migrant children who fled violence can have 
particularly harmful consequences, even if the separation is brief.\28\ 
At the Port Isabel detention center, a father articulated the pain he 
felt being separated from his 9-year-old son, saying, ``I haven't seen 
my son in over 2 months--I don't want anything from the United States 
other than my son.''\29\ A mother who was separated from her 6-year-old 
son said, ``I don't know how he's doing; I haven't spoken to him, I 
don't know where he is. We're here because we watched our family get 
murdered.''\30\
---------------------------------------------------------------------------
    \27\ JULIE M. LINTON ET AL., AM. ACAD. OF PEDIATRICS, DETENTION OF 
IMMIGRANT CHILDREN 6 (2017).
    \28\ BETRAYING FAMILY VALUES, supra note 41, at 12.
    \29\ SilencedVoices, KIND, https://supportkind.org/get-involved/
silencedvoices/.
    \30\ Id.
---------------------------------------------------------------------------
    Not only are family members physically separated, but their legal 
cases and experiences within the immigration enforcement system are 
also bifurcated. This raises serious due process concerns, and serious 
inefficiencies in a backlogged system, especially when individuals from 
the same family have the same claim for asylum. Children, in 
particular, may not know all the details or have important documents 
relating to their family's asylum claim. When this happens, disparate 
results and incomplete information are far more likely to affect 
important immigration proceedings.
    Children should not be separated from their parents barring 
instances in which separation legitimately protects the child and is in 
line with child welfare standards.
 reasons for separations must be documented and the government should 
                   track all separated family members
    The uptick in family separations came after the Department of 
Justice (DOJ) and the Department of Homeland Security (DHS) implemented 
a ``zero-tolerance'' immigration policy in the spring of 2018.\31\ The 
policy directed DHS border officials to refer every individual 
apprehended near the border who did not present at an official port of 
entry to DOJ for criminal prosecution, even when individuals were 
primary caregivers to children and exercised their lawful right to seek 
asylum.\32\ Adults were taken to Federal detention facilities, while 
children were transferred into the care of ORR, which operates within 
HHS.\33\ Once separated from their parents, DHS classified the kids as 
``unaccompanied.''\34\
---------------------------------------------------------------------------
    \31\ U.S. DEP'T OF HEALTH & HUM. SERV., OFFICE OF INSPECTOR 
GENERAL, OEI-BL18-00511, SEPARATED CHILDREN PLACED IN OFFICE OF REFUGEE 
RESETTLEMENT CARE (2019), 1 (hereinafter INSPECTOR GENERAL REPORT).
    \32\ Press Release, KIND & Women's Refugee Comm'n, Family 
Separation at the Border (May 30, 2018) (on file at https://
supportkind.org/media/family-separation-at-the-border/).
    \33\ INSPECTOR GENERAL REPORT, supra note 35, at 2.
    \34\ Press Release, supra note 36.
---------------------------------------------------------------------------
    Even before the ZTP, the New York Times reported that, from October 
2017 to April 2018, over 700 children were taken from their 
parents.\35\ The latest HHS Inspector General's report estimates that 
DHS separated thousands of children from 2017 to June 2018.\36\ After 
the administration officially acknowledged the ZTP, a Customs and 
Border Protection (CBP) official testified that 639 parents traveling 
with 658 children were processed for prosecution in the span of 13 days 
in May alone.\37\ As of December 2018, HHS had identified 2,737 
children who had been separated from their parents under the policy and 
were required to be reunified under a June 2018 Federal court 
order.\38\
---------------------------------------------------------------------------
    \35\ Caitlin Dickerson, Hundreds of Immigrant Children Have Been 
Taken From Parents at U.S. Border, NYTIMES (Apr. 20, 2018), https://
www.nytimes.com/2018/04/20/us/immigrant-children-separation-ice.html.
    \36\ INSPECTOR GENERAL REPORT, supra note 35, at 1, 13.
    \37\ TVPRA and Exploited Loopholes Affecting Unaccompanied Alien 
Children: Hearing Before the Subcomm. on Border Security & Immigration, 
105th Cong. (2018) (Statement of Richard Hudson, Deputy Chief of the 
Operations Program, Law Enforcement Operations Directorate, U.S. 
Customs & Border Protection).
    \38\ Miriam Jordan, Family Separation May Have Hit Thousands More 
Migrant Children Than Reported, NYTIMES (Jan. 17, 2019), https://
www.nytimes.com/2019/01/17/us/family-separation-trump-administration-
migrants.html.
---------------------------------------------------------------------------
    Alarmingly, the HHS Inspector General's report confirms what KIND 
has seen with its own caseload, which is that the Trump administration 
continues to separate families at the border. Even after President 
Trump announced an end to the ZTP, ORR received at least 118 newly-
separated children between July 1 and November 7, 2018.\39\ ORR often 
receives little or incomplete information about the reasons for such 
separations.
---------------------------------------------------------------------------
    \39\ Id. at 11.
---------------------------------------------------------------------------
   dhs must develop standard guidelines for the continued separations
    The HHS Inspector General's report notes that DHS only provides ORR 
with ``limited information'' about why a family has been separated.\40\ 
Under current policies and practices, these decisions are arbitrary. 
They require no justification or documentation and do not call for the 
screener to have any child welfare expertise.\41\ The HHS Inspector 
General's report emphasizes that ``[i]ncomplete or inaccurate 
information about the reasons for separation, and a parent's criminal 
history in particular, may impede ORR's ability to determine the 
appropriate placement for a child.''\42\ It also notes that DHS does 
not consistently respond to ORR's requests for follow-up information 
about the reasons for a child's separation.\43\ KIND continues to see 
cases in which neither ORR nor the attorney are notified that DHS 
separated a child from a parent. A parent can lose physical custody of 
their child without any judicial oversight and for reasons that are 
inconsistent with child welfare legal standards.\44\ For example, while 
a parent may have a prior deportation order or an arrest warrant in the 
home country, that history may actually be the basis of the parent's 
asylum claim for government persecution, such as in the case of a 
parent fleeing an oppressive government regime.
---------------------------------------------------------------------------
    \40\ INSPECTOR GENERAL REPORT, supra note 35, at 11.
    \41\ KIND, WOMEN'S REFUGEE COMM'N & LUTHERAN IMMIGRATION SERV., 
BETRAYING FAMILY VALUES: HOW IMMIGRATION POLICY AT THE UNITED STATES 
BORDER IS SEPARATING FAMILIES 4 (2017) (hereinafter BETRAYING FAMILY 
VALUES).
    \42\ INSPECTOR GENERAL REPORT, supra note 35, at 12.
    \43\ Id.
    \44\ BETRAYING FAMILY VALUES, supra note 45, at 7.
---------------------------------------------------------------------------
    KIND has seen several recent cases, post-ZTP, of children separated 
from their parents for unknown reasons. In one case, a father was 
separated from his teenage daughter and no information was given for 
the reasons for the separation. Moreover, KIND only found out this 
child had been separated from her father through interviews with the 
child. The separation was not noted in her file and no one from ORR 
flagged the separation for the attorney of record. Frequently in these 
cases, KIND attorneys have had to track down the location of the 
parents, and then begin the difficult task of communicating with them 
at an ICE detention facility, often several hundred miles away. Even 
when KIND attorneys are able to establish contact with the separated 
parent, the parent is typically given little to no information as to 
why they were forcibly deprived of their ability to remain with their 
child. There is currently no formal written document issued to parents 
outlining the reasons for the separation, and no vehicle for them to 
challenge any assertions being made against them. Moreover, even when 
the separations are recorded, it is taking almost a week for DHS to 
facilitate communication between the parent in their custody and the 
child.
    Many children are also separated from extended family members like 
siblings or grandparents, or when CBP questions the veracity of the 
relationship between the adult and child. These separations are not 
recorded in the new DHS system. Therefore, if CBP does not believe an 
adult is the true parent of a child, the separation will not be 
recorded and there is no way for that parent to find their child and 
challenge the separation later. Many children travel with extended 
family members like grandparents or other relatives who may have cared 
for the children their entire lives but never obtained legal 
guardianship in the home country. CBP must separate these family 
members but they should be tracking these separations for the same 
reasons it is important to track children separated from their parents. 
The separation from extended family members may be just as emotionally 
traumatic as being separated from a parent and that adult may have 
important information related to the child's legal claim for 
protection.
    dhs must ensure child welfare professionals screen and care for 
                       children in their custody
    KIND recommends the government hire child welfare professionals at 
the border to supervise the protection of children and families and the 
circumstances in which family separations occur.\45\ Further, 
immigration enforcement agents should be trained to consider family 
unity as a primary factor in charging and detention decisions.\46\ 
Written standards should be drafted, in consultation with child welfare 
experts, describing protocols and procedures for determining when 
separation may be in the best interest of a child. Immigration 
enforcement agents should also receive training on how to apply the 
``best interests of the child'' framework for when they believe a 
child's separation from their parent is warranted.\47\ These instances 
include when a parent has a conviction for a violent offense or child 
abuse or neglect offense. DHS should also consider ORR's best interest 
recommendation. Family separation should be recorded and justified in 
writing, with an opportunity provided to the parent or child to 
challenge the separation. ORR, family members, and attorneys should be 
able to easily access this information. In order to ensure that 
accurate information is available, ORR must demand that DHS input 
detailed information about any separations going forward into the ORR 
portal in a rigorous and systematic way.
---------------------------------------------------------------------------
    \45\ Id. at 2.
    \46\ Id. at 1.
    \47\ Id. at 7.
---------------------------------------------------------------------------
   dhs must conduct oversight of facilities holding migrant children
    At a time when children, both accompanied and unaccompanied, make 
up a significant portion of all migrants processed at the Southern 
Border, this administration has actively sought to roll back Flores 
protections, which set out National standards for the Government's 
treatment, detention, and release of children. In September 2018, it 
proposed regulations that would relax Flores standards for how kids in 
custody can be held and transported.\48\
---------------------------------------------------------------------------
    \48\ Apprehension, Processing, Care, and Custody of Alien Minors 
and Unaccompanied Alien Children, 83 Fed. Reg. 45486 (proposed Sept. 7, 
2018) (to be codified at 45 C.F.R. pt. 410).
---------------------------------------------------------------------------
    The proposed regulations would eliminate the vital third-party 
oversight and monitoring that is currently provided through judicial 
enforcement of Flores. As recently as July 2018, the supervising court 
found that the Government had breached the agreement in several ways, 
including by undertaking policies that ``unnecessarily delay'' the 
release of children to custodians.\49\ In January 2019, it was reported 
that Flores counsel discovered facilities holding unaccompanied 
children operating without licenses.\50\ Flores counsel recounted that 
ORR has failed to notify children and parents of their rights relating 
to securing children's release from facilities, discouraged parents 
from seeking their children's release by passing their information to 
ICE,\51\ and delayed background investigations of potential 
sponsors.\52\
---------------------------------------------------------------------------
    \49\ KIND, Comment Letter on Proposed Rule Relating to 
Apprehension, Processing, Care and Custody of Alien Minors and 
Unaccompanied Alien Children 29 (Nov. 6, 2018), https://
supportkind.org/wp-content/uploads/2018/11/KIND-Comments-DHS-Docket-
ICEB-2018-0002-11.6.18.pdf.
    \50\ Graham Kates, Migrant Children in U.S. Are Being Held in 
Unlicensed Shelters, Lawyers Say, CBS NEWS (Jan. 24, 2019, 2:17 PM), 
https://www.cbsnews.com/news/migrant-children-in-u-s-are-being-held-in-
unlicensed-shelters-lawyers-say/.
    \51\ A leaked internal DHS memo from December 2017 proposed a 
Memorandum of Understanding between ORR and ICE, under which the 
agencies would coordinate to place undocumented sponsors in removal 
proceedings. It anticipated that the policy would ``result in a 
deterrent impact on `sponsors' who may be involved with smuggling 
children into the United States'' and there would be ``a short-term 
impact on HHS where sponsors may not take custody of their children in 
HHS facilities, requiring HHS to keep the UACs in custody longer.'' 
Memorandum from Dep't of Homeland Security (Dec. 2017) (on file at 
https://www.documentcloud.org/documents/5688664-Merkleydocs2.html). 
This policy took effect 4 months later.
    \52\ Kates, supra note 56.
---------------------------------------------------------------------------
    ORR remains the appropriate entity to care for migrant children--it 
has experience resettling refugees and child welfare expertise. It is 
not an immigration enforcement agency. However, third-party monitoring 
of facilities must be retained and protected, particularly at a time 
when there is enormous strain on ORR's resources. Compliance with 
Flores must not be left to discretion, especially at a time when ORR 
policies result in higher and longer detention rates for children.
 dhs should never use information obtained from the office of refugee 
                  resettlement to conduct enforcement
    The Homeland Security Act requires the Office of Refugee 
Resettlement to ``coordinate and implement the care and placement of 
unaccompanied alien children who are in Federal custody by reason of 
their immigration status.''\53\ The TVPRA clarifies that ORR is to 
``promptly [place children] in the least restrictive setting that is in 
the best interest of the child.''\54\ This requirement derives from the 
longstanding Flores Settlement Agreement (FSA), which provides that 
children should be placed in the ``least restrictive setting'' in their 
best interests,\55\ and directs that parents and legal guardians 
receive priority among potential sponsors, who may also include other 
immediate relatives, distant relatives, or unrelated individuals.\56\
---------------------------------------------------------------------------
    \53\ The Homeland Security Act, Pub. L. No. 107-296, 116 Stat. 2135 
 462(b)(1)(A) (2002).
    \54\ 8 U.S.C.  1232(c)(2)(A) (2013).
    \55\ Stipulated Settlement Agreement, Flores v. Reno, No. CV 85-
4544-RJK(Px) (C.D. Cal. Jan. 17, 1997), available at https://
cliniclegal.org/sites/default/files/attachments/
flores_v._reno_settlement_agreement_1.pdf [hereinafter Flores 
Settlement Agreement]. The Flores Settlement Agreement is the result of 
a class action against the Government by a class consisting of all 
immigrant children detained in custody of the Government. Id. at 10. 
This binding agreement sets standards for the detention and release of 
immigrant children to sponsors. See id. at 9.
    \56\ Id. at 14; 8 U.S.C.  1232(c); Sponsors and Placement: 
Release of Unaccompanied Alien Children to Sponsors in the U.S., ORR, 
https://www.acf.hhs.gov/orr/about/ucs/sponsors (last visited Sept. 23, 
2018); U.S. Dep't of Health and Human Services, Office of Inspector 
General, HHS's Office of Refugee Resettlement Improved Coordination and 
Outreach to Promote the Safety and Well-Being of Unaccompanied Alien 
Children (July 2017) (``ORR releases most children to their parents or 
an immediate relative.'').
---------------------------------------------------------------------------
    Although ORR has received information about a potential sponsor's 
immigration status since 2005, it has not, until recently, shared 
immigration status information with other agencies for the explicit 
purpose of immigration enforcement, as immigration status typically is 
not relevant to evaluating whether the sponsor can adequately care for 
a child.\57\ Instead, ORR's policy has been to enable ``the release of 
unaccompanied alien children (UAC) to undocumented sponsors, in 
appropriate circumstances and subject to certain safeguards.''\58\ 
Rather than disqualifying potential sponsors, immigration status 
information has previously only been used ``to ensure the safety and 
well-being of the child by making sure that there is an adequate care 
plan in place that takes all relevant aspects of the sponsor's 
situation into consideration.''\59\
---------------------------------------------------------------------------
    \57\ Sponsors and Placement: Release of Unaccompanied Alien 
Children to Sponsors in the U.S., ORR, https://www.acf.hhs.gov/orr/
about/ucs/sponsors (last visited Feb. 25, 2018).
    \58\ Id.
    \59\ Id.
---------------------------------------------------------------------------
    In the summer of 2017, however, U.S. Immigration and Customs 
Enforcement (ICE) began using information gathered by ORR to initiate 
enforcement against sponsors--identifying individuals for enforcement 
based on their role as the designated or potential caretakers of 
unaccompanied children.\60\ ICE arrested more than 400 people in its 
initiative targeting sponsors for smuggling.\61\ However, news reports 
indicated that the majority of those arrested were not charged with 
Federal smuggling crimes, but instead charged with violations unrelated 
to smuggling.\62\ Many of those arrested were not the suspects ICE had 
targeted, but merely present in the home of the potential sponsors when 
the agency arrived.\63\ These actions stoked fear in immigrant 
communities and raised concerns among many about stepping forward to 
care for unaccompanied children in ORR custody. KIND issued a report in 
December 2017 documenting the stories of unaccompanied children and 
sponsors affected by DHS's enforcement actions and the detrimental 
impacts of enforcement against sponsors on the well-being of children 
and due process.\64\
---------------------------------------------------------------------------
    \60\ See KIND, Targeting Families 8 (Dec. 2017), https://
supportkind.org/wp-content/uploads/2017/12/TargetingFamilies_December-
2017_Final-v.2.pdf.
    \61\ John Burnett, ICE Has Arrested More Than 400 in Operation 
Targeting Parents Who Pay Smugglers, NPR (Aug. 18, 2017), https://
www.npr.org/2017/08/18/544523231/arrests-of-undocumented-parents-
sparks-debate-between-Federal-officials-and-immi; Hannah Dreier, 
Relatives of Undocumented Children Caught Up in ICE Dragnet, ProPublica 
(Sept. 11, 2017), https://www.propublica.org/article/relatives-of-
undocumented-children-caught-up-in-ice-dragnet; Uriel J. Garcia, ICE 
Arrests Young Immigrant's Sponsor Months After Feds Assured Him He'd Be 
Safe, THE NEW MEXICAN, Sept. 9, 2017, http://www.santafenewmexican.com/
news/local_news/ice-arrests-young-immigrant-s-sponsor-months-after-
feds-assured/article_428366f5-6d03-552c-a277-93b83d3005e2.html.
    \62\ Dreier, Relatives of Undocumented Children Caught Up in ICE 
Dragnet, supra note 13.
    \63\ See Garcia, ICE Arrests Young Immigrant's Sponsor Months After 
Feds Assured Him He'd Be Safe, supra note 13.
    \64\ KIND, Targeting Families 8 (Dec. 2017), https://
supportkind.org/wp-content/uploads/2017/12/TargetingFamilies_December-
2017_Final-v.2.pdf.
---------------------------------------------------------------------------
    In April 2018, information sharing between DHS and ORR was 
formalized through a Memorandum of Agreement (MOA) providing for the 
continuous sharing of information about unaccompanied children from the 
time of their apprehension through their release from custody, 
including information about potential sponsors and other adults in the 
home. Shortly after, DHS issued a notice in the Federal Register to 
modify its system of records to carry out the agreement.\65\ That 
notice stated that ICE will use information about sponsors obtained 
through ORR to ``identify and arrest those who may be subject to 
removal.''\66\ At the same time, HHS pursued modifications to forms 
related to its sponsorship process to implement the MOA.\67\ ORR's 
modified process included expanded fingerprinting and background check 
requirements, including for all potential sponsors and adult members of 
their households.
---------------------------------------------------------------------------
    \65\ 83 Fed. Reg. 20844 (May 8, 2018).
    \66\ Id.
    \67\ See, e.g., Administration for Children & Families, Sponsorship 
Review Procedures for Approval for Unaccompanied Alien Children, OMB 
No. 0970-0278, 83 Fed. Reg. 22490 (May 15, 2018); 83 Fed. Reg. 42895 
(Aug. 24, 2018); 83 Fed. Reg. 52221 (Oct. 16, 2018).
---------------------------------------------------------------------------
    The MOA has impeded ORR's ability to promptly place unaccompanied 
children in the least restrictive setting by deterring potential 
sponsors for unaccompanied children. Potential sponsors have expressed 
fear of engaging with the agency's sponsorship and family reunification 
process due to both the expanded scope of the information collected as 
well as ICE's intent to use information it receives from ORR for 
immigration enforcement.\68\ KIND has heard reports of individuals 
declining ORR's request to fill out necessary paperwork to serve as 
sponsors or withdrawing from the family reunification process after 
their applications have been submitted. Fear of enforcement has 
similarly compelled some potential sponsors and other household members 
to miss their fingerprinting appointments or to discontinue their 
applications. Moreover, the burdensome requirement that all adult 
household members submit information significantly delayed some 
reunifications.
---------------------------------------------------------------------------
    \68\ See 83 Fed. Reg. at 20846 (noting among the purposes of DHS's 
proposed system of records change ``[t]o screen individuals to verify 
or ascertain citizenship or immigration status and immigration history, 
and criminal history to inform determinations regarding sponsorship of 
unaccompanied alien children . . . and to identify and arrest those who 
may be subject to removal.'').
---------------------------------------------------------------------------
    Recent enforcement actions by ICE in the course of implementing the 
MOA have only compounded these fears. From July through November 2018, 
ICE arrested 170 potential sponsors of unaccompanied children in ORR 
custody.\69\ Nearly 64 percent (or 109) of the individuals arrested had 
no criminal record.\70\ Such actions have led to a decline in the 
number of individuals willing to sponsor unaccompanied children in ORR 
custody and delayed the release of children from ORR. Numbers of 
children in ORR custody have soared as children remain in care for 
longer, indefinite periods. In the fall and winter of 2018, the number 
of unaccompanied children in ORR's care reached historic levels--with 
nearly 15,000 children in care in mid-December 2018. The length of time 
in ORR care similarly ballooned as a result of the MOA and other 
policies--at one point with an average length of stay at longer than 70 
days.\71\
---------------------------------------------------------------------------
    \69\ Geneva Sands, CNN, ICE arrested 170 potential sponsors of 
unaccompanied migrant children (Dec. 10, 2018), https://www.cnn.com/
2018/12/10/politics/ice-potential-sponsors-arrests/index.html.
    \70\ Id.
    \71\ Jonathan Blitzer, To Free Detained Children, Immigrant 
Families Are Forced to Risk Everything, The New Yorker (Oct. 16, 2018), 
https://www.newyorker.com/news/dispatch/to-free-detained-children-
immigrant-families-are-forced-to-risk-everything (``Officially, the 
H.H.S. claims that the average time is 59 days, but according to one of 
the department's own officials, who agreed to speak with me on the 
condition of anonymity, detained children now spend an average of 74 
days in Federal custody, more than double what it was at the start of 
2016.'').
---------------------------------------------------------------------------
    Held indefinitely in ORR custody with no knowledge of when and to 
whom they may be released, unaccompanied children experience 
significant anxiety and distress. These impacts may be particularly 
significant for child survivors of trauma. In detention for months 
potentially without the emotional support of family members children 
may grow hopeless and decide to return to their countries of origin, 
even when they may have viable claims for humanitarian protection and 
face serious harm or death if deported. Detention fatigue not only 
affects children's physical and mental health, but it negatively 
impacts their ability to proceed with their legal cases.\72\
---------------------------------------------------------------------------
    \72\ See, e.g. Julie M. Linton, Marsha Griffin, Alan J. Shapiro, 
Am. Academy of Pediatrics, Detention of Immigrant Children (May 2017), 
https://pediatrics.aappublications.org/content/139/5/e20170483.short.
---------------------------------------------------------------------------
                               conclusion
    Children and families seeking asylum in the United States are often 
escaping dangerous and violent conditions in their countries of origin. 
The opportunity of asylum seekers to pursue protection from harm is the 
very foundation of our country's asylum laws, and efforts to restrict 
access to humanitarian protection like the Remain in Mexico policy do 
nothing to make our country safer. Instead of restricting access to 
protection for unaccompanied children and families, the administration 
should ensure that all are provided due process and an opportunity to 
have their claims fully and fairly considered. We look forward to 
working with Members to ensure our country's continued commitment to 
justice and to the protection of the most vulnerable.

    Miss Rice. Thank you, Ms. Podkul.
    I now recognize Ms. Brane to summarize her statement for 5 
minutes.

 STATEMENT OF MICHELLE BRANE, DIRECTOR FOR MIGRANT RIGHTS AND 
              JUSTICE, WOMEN'S REFUGEE COMMISSION

    Ms. Brane. Thank you, Chairwoman and Members of the 
committee for giving me the opportunity to testify today. The 
Women's Refugee Commission has been monitoring immigration 
enforcement and border screening policies for almost 20 years.
    Whether the policy we are discussing today was a zero 
tolerance policy with the primary focus of prosecution or an 
explicit family separation policy, the consequences are clear: 
Thousands of families seeking protection at our Southern Border 
were separated.
    One of the many shocking realities we must face is that 
even after making a decision to implement a policy that they 
knew would result in the separation of thousands of families, 
no one in this administration, not DHS, not CBP, not ICE, no 
one did anything to create a system for the actual separations, 
for identifying and tracking separated children or minimizing 
trauma or for tending to their basic needs.
    The actual process for separating families was chaotic, 
cruel, inefficient, and dangerous. In my opinion it was 
criminally negligent.
    In June 2018, at the height of family separations, I spent 
2 days at the border speaking with parents and children in CBP 
custody.
    It is impossible to overstate the impact of seeing 
Government officials, performing as part of their daily job 
functions what can only be described as cruelty. Families were 
separated before my eyes with no explanation, no opportunity 
for goodbyes, no humanity.
    In one case, I was speaking to a father and his 9-year-old 
daughter, when an officer interrupted to say, I have to take 
the girl. When I asked him why and where he was taking her, he 
said, I don't know, ma'am, to a shelter. I just have her on my 
list. The officer did not explain that this was a separation. 
In fact, he didn't even seem to be acknowledging it himself.
    But this was a separation happening before my eyes. It was 
described only as being about, ``taking her to the bus.'' The 
officer didn't even intend to give them an opportunity to say 
goodbye.
    At the Ursula processing center, there were over 500 
separated children in cages when I arrived. Several of the 
children were listed as being 1 or 2 or 0 years old, 0 years 
old. I asked to see some of these babies.
    The officer told me that he couldn't find them. He said 
that he had called their names and they had not answered. I was 
incredulous. Of course, they did not answer. They were babies. 
I asked who was caring for these babies, and he told me he did 
not know.
    Eventually, he brought me a toddler listed as being 2 years 
old. A 16-year-old girl was holding the child. She told me that 
she had found the child there in her cage.
    When the toddler cried, no guards or officials helped. This 
16-year-old girl, who had also been separated from her mother, 
found this toddler in a cage. When the toddler cried, she 
comforted her. She changed her diapers. She helped her get in 
line for food and gave her bottles.
    At night she sang the crying girl to sleep. She had been 
there for 3 days and she was worried about what would happen to 
this little girl when she was transferred away.
    I eventually discovered that this toddler had been 
separated from her aunt and that Border Patrol had incorrectly 
recorded her name and her age. We will never know what would 
have happened to this child if I had not been there that day or 
if a 16-year-old girl had not met or cared for her.
    What is worse is that we will never know what other cases 
like hers existed that day or on any other because DHS did not, 
and still does not, track separations.
    Another child I met with was a 5-year-old boy. He was 
sobbing and inconsolable. He was clutching a rolled-up 
photocopy of his mother's ID. Someone must have given it to him 
before they separated them.
    This piece of paper was the first indication I had seen in 
my 2 days in those facilities that indicated that anyone in 
Border Patrol cared at all about what was happening to these 
children.
    These outrageous and traumatizing separations did not just 
happen to these families. This was not a natural disaster. This 
was an affirmative decision and instruction given by and to 
Government actors, and it was done to these families. Even 
today, separations continue and there is still no system in 
place for tracking families.
    I thank the committee for holding this hearing, and for 
continuing to ask these critical questions. We must ask how 
this happened. Either the Government considered, but did not 
care, about the consequences of separation, or they did not 
even consider the consequences of their own policy, a 
conclusion that is just as shocking and disturbing in its 
negligence.
    Why were policies to receive, process, and manage arriving 
families humanely not even considered? There must be 
consequences. It is essential in order to ensure that this does 
not happen again.
    Thank you, again, and I am available later to answer 
questions about these stories and practices at the border.
    [The prepared statement of Ms. Brane follows:]
             Prepared Statement of Michelle Brane<greek-th>
                             March 26, 2019
    Thank you for this opportunity to testify about the Department of 
Homeland Security's Family Separation Policy, an extremely important 
matter that profoundly affects the lives of vulnerable migrant and 
refugee children and families seeking safety and our fundamental values 
as a Nation.
    The Women's Refugee Commission is a non-governmental, non-profit 
organization that works to identify gaps, research solutions, and 
advocate for change to improve the lives of crisis-affected women and 
children.\1\ The Women's Refugee Commission is a leading expert on the 
needs of refugee women and children, and the policies that can protect 
and empower them.\2\ For over 2 decades, the Women's Refugee Commission 
has monitored immigration detention facilities and migrant children's 
facilities operated under what is now the jurisdiction of Immigration 
and Customs Enforcement (ICE), Customs and Border Protection (CBP), and 
the Office of Refugee Resettlement (ORR), and interviewed facility 
staff, local service providers, asylum seekers, and migrant children 
about the policies, practices, and conditions of custody that relate to 
the ability to access to protection. We have been monitoring border 
screening policies, including family separation, for over 4 years.\3\ 
The testimony submitted here is based on my observations, personal 
experience, and the Women's Refugee Commission's expertise and 
accumulated knowledge (in addition to the specific sources cited).
---------------------------------------------------------------------------
    \1\ Women's Refugee Commission, https://
www.womensrefugeecommission.org/about.
    \2\ Women's Refugee Commission, Border Surge of Unaccompanied 
Children: Why They're Coming and What the Government Should Do (2014), 
available at https://www.womensrefugeecommission.org/news/press-
releases-and-statements/2080-an-administration-made-disaster-the-south-
texas-border-surge-of-unaccompanied-alien-minors.
    \3\ Women's Refugee Commission, Betraying Family Values; How 
Immigration Policy at the U.S. Border is Separating Families, March 
2017, https://www.womensrefugeecommission.org/rights/gbv/resources/
1450-betraying-family-values.
---------------------------------------------------------------------------
    The Trump administration has implemented various policies designed 
to deter migrants--particularly migrant families and children--from 
seeking protection in the United States. In March 2017, then-Secretary 
of Homeland Security John Kelly announced that the administration was 
considering a policy of separating families in order to deter them from 
seeking asylum at the U.S.-Mexico border.\4\ While he quickly changed 
course and announced that the policy was temporarily off the table, 
discussion of how to deter families through separation continued. 
Unfortunately, even by March 2017, the administration was already 
separating families and in fact, increased the practice. By summer 
2017, ORR and service providers noticed a marked increase in separated 
children arriving at shelters for unaccompanied children around the 
country.
---------------------------------------------------------------------------
    \4\ Daniella Diaz, ``Kelly: DHS is considering separating 
undocumented children from their parents at the border'', (March 7, 
2017); https://www.cnn.com/2017/03/06/politics/john-kelly-separating-
children-from-parents-immigration-border/index.html.
---------------------------------------------------------------------------
    In July 2017, the Department of Homeland Security (DHS) began a 
pilot \5\ of the now infamous ``zero tolerance'' policy that 
prioritized the criminal prosecution of immigration-related offenses in 
order to deter migrants. The pilot, which began in the El Paso area, 
continued until October or November 2017 before zero tolerance was 
expanded nationally in May 2018.\6\ Under zero tolerance, CBP was to 
refer any migrant attempting to cross into the United States without 
authorization, including asylum-seeking families and parents traveling 
with infant children, for criminal prosecution. Although then-Attorney 
General Sessions characterized the policy as applying to everyone, the 
policy was never applied universally. It was, however, applied to large 
numbers of parents. DHS authorities have said on many occasions that 
one of the objectives of the policy was to deter families from seeking 
protection at the U.S. border.\7\ CBP would select a parent for 
prosecution, and then generally transfer parents to U.S. Marshals 
custody and in doing so would separate them from their children. In 
most cases, CBP would then classify the children as unaccompanied and 
transfer them to ORR. For many months, WRC and many others had been 
warning the administration of the harm such a policy would cause to 
children, and of the complete lack of any systems in place to track 
separations, ensure follow-up, facilitate communications, and to 
reunify parents and their separated children.\8\
---------------------------------------------------------------------------
    \5\ Department of Homeland Security, Office of the Inspector 
General, HHS-OIG Issue Brief, January 2019 OEI-BL-18-00511, https://
oig.hhs.gov/oei/reports/oei-BL-18-00511.pdf.
    \6\ Ibid.
    \7\ Julia Ainsley, NBC News, Trump Administration Weighed Targeting 
Migrant Families, Speeding Up Deportation of Children, Jan. 17, 2019; 
https://www.nbcnews.com/politics/immigration/trump-admin-weighed-
targeting-migrant-families-speeding-deportation-children-n958811.
    \8\ Women's Refugee Commission, Betraying Family Values; How 
Immigration Policy at the U.S. Border is Separating Families, March 
2017, https://www.womensrefugeecommission.org/rights/gbv/resources/
1450-betraying-family values.
---------------------------------------------------------------------------
    It is well-established that even after making the decision to 
implement a policy that would clearly result in the separation of 
thousands of families, and specifically a policy that was intended to 
separate families as a form of deterrence, the administration--DHS, and 
CBP in particular--did nothing to address the fact that they had no 
system in place for identifying and tracking separated children or 
minimizing trauma, let alone protecting their Constitutional rights to 
due process and family unity. Even with the increased separations and 
the formal policy of zero tolerance--that the administration knew based 
on both common sense and on the pilot that they implemented--would lead 
to massive separations, and even after public outcry over separations, 
including an extensive complaint that my own organization and others 
filed with DHS's Office for Civil Rights and Civil Liberties (CRCL) and 
Office of Inspector General (OIG),\9\ no system was implemented to 
track separations. No system was implemented to identify children as 
having been separated when transferring them to ORR. No system was 
implemented to enable communication between parents and their separated 
children. No system was implemented for informing parents or children 
of what was happening and how they would ever find each other again. 
And no system was in place for reunifying families in any way, whether 
for deportation or release from criminal custody. This is undisputed in 
any serious way and was confirmed by the court in the case of Ms. L et 
al. v. ICE.\10\
---------------------------------------------------------------------------
    \9\ Women's Refugee Commission, et al, Joint Complaint on Forcible 
Separations of Families by Customs and Border Protection, https://
www.womensrefugeecommission.org/rights/resources/1540-joint-complaint-
on-forcible-separation-of-families-in-customs-and-border-protection-
custody.
    \10\ Ms. L. v. U.S. Immigration & Customs Enforcement (Ms. L. v. 
ICE), No. 18-0428 (S.D. Cal. June 26, 2018). GAO report, https://
www.gao.gov/assets/700/694918.pdf.
---------------------------------------------------------------------------
    Judges, prosecutors, and public defenders in criminal court were 
equally unaware of what was happening or what recourse was left to 
separated parents.\11\ Federal criminal courtrooms were filled with 
hundreds of parents who were desperate for their children. Reports 
indicate that many had been told by CBP officials that they would never 
see their children again. Some were told their children would be sent 
for adoption. Many were falsely told by court authorities or CBP 
officials that the best way to get their children back was to plead 
guilty in criminal court and accept voluntary departure.\12\ In 
numerous cases, parents were deported without their children. Although 
Secretary Nielsen recently testified before Congress that she believes 
all parents were given an opportunity to reunite with their children 
prior to deportation,\13\ the court in Ms. L created a steering 
committee to locate several hundred deported parents who had been 
separated from their children in order to determine their wishes. I 
also spoke to several of these parents who had been deported without 
their child even after begging to be reunited, pleading guilty, 
withdrawing their asylum claim, and accepting voluntary departure or 
agreeing to deportation.
---------------------------------------------------------------------------
    \11\ Debbie Nathan, Hidden Horrors of ``Zero Tolerance''--Mass 
Trials and Children Taken from their Parents, May 29, 2018, The 
Intercept. Available at: https://theintercept.com/2018/05/29/zero-
tolerance-border-policy-immigration-mass-trials-children/
    \12\ American Immigration Council (AIC) and American Immigration 
Lawyers Association (AILA), The Use of Coercion by U.S. Department of 
Homeland Security (DHS) Officials Against Parents Who Were Forcibly 
Separated From Their Children, (August, 2018), https://aila.org/advo-
media/press-releases/2018/complaint-re-coercive-tactics-on-separated-
parents/the-use-of-coercion-by-us-department-of-homeland; See also 
Declarations in Ms. L v ICE, ibid.
    \13\ ``DOJ Lawyers Contradicted Nielsen On Family Separations 
Within Hours Of Her Testimony,'' March 7, 2019, Talking Points Memo. 
Available at: https://talkingpointsmemo.com/news/doj-lawyers-
contradicted-kirstjen-nielsens-testimony-on-family-separation-within-
hours.
---------------------------------------------------------------------------
    Only in the spring of 2018, months after family separation had 
escalated and after direct intervention by advocates, did ICE post 
information for parents in detention on how to call a child from whom 
they had been separated. Even these efforts were deeply flawed. DHS's 
own Office of Inspector General found that information on how to call a 
separated child through the Department of Health and Human Services' 
(HHS) toll-free number was posted in one area of the Port Isabel 
Detention Center only after the June 20 Executive Order on family 
separation, and that fliers did not fully explain the instructions on 
how to place a call.\14\ Similarly, OIG found that CBP was inconsistent 
in providing parents who were referred for criminal prosecution with a 
DHS/HHS flier explaining how to obtain assistance in locating their 
child. In addition, those parents who were sent to U.S. Marshals 
custody during their criminal prosecution had no meaningful way to 
access any DHS/HHS hotlines as their facilities did not have the same 
phone capacities as an ICE facility might.
---------------------------------------------------------------------------
    \14\ OIG Report, at page 13, https://www.oig.dhs.gov/sites/default/
files/assets/2018-10/OIG-18-84-Sep18.pdf.
---------------------------------------------------------------------------
    For those parents who did manage to contact an ICE or ORR hotline, 
which many did not, the hurdles for actually speaking with or making 
contact with their child were often insurmountable. These hurdles 
included: (1) Not reaching an ORR official and having little or no 
opportunity to leave a message or receive a return call, (2) not 
receiving meaningful information about the location and well-being of 
their child given ORR's policies to confirm parentage, or (3) not being 
able to schedule time to speak with their child while in ICE detention. 
These calls were not always free of charge, and WRC has reason to 
believe that even today ICE might not facilitate free calls between 
parents separated from their children. It is important to note that it 
was not until ordered to do so by the judge in Ms. L v. ICE that DHS 
began to make a concerted effort to ensure that parents were able to 
have at least one telephonic contact with their child. Even then, 
separated children were limited to 2 calls of 10 to 20 minutes each 
week. Some children were too young or too traumatized to be able to 
speak on the phone. And in a few cases, parents reported being put on 
the phone with the wrong child.
    The numbers were not insignificant, but because DHS never tracked 
them, and is still not transparent about what they know, we have no 
accurate accounting of how many families were separated, nor do we know 
how many remain separated after all this time. What we have learned is: 
Between June and November 2017, at least 281 individuals in families 
were separated, with the children being transferred to ORR facilities; 
The New York Times reported that between October 2017 and April 20, 
2018, ORR identified over 700 children placed in their care after 
separation from a parent at the border;\15\ And by June 2018, ORR 
identified 2,654 children in their care who had been separated from 
their parents by CBP at the border,\16\ and more than 400 of those 
parents had been deported without their children. More recent 
investigations have revealed additional children ORR failed to identify 
in June, and that there were likely thousands of separated children who 
had been released from ORR prior to the June accounting.\17\ This means 
that between the summer of 2017 to the time of the court order in 2018, 
there were, at a minimum, over 3,000 children, and potentially 
thousands more, who had been separated from a parent and placed into 
ORR custody.
---------------------------------------------------------------------------
    \15\ ``Hundreds of Immigrant Children Have Been Taken From Parents 
at U.S. Border,'' The New York Times (Apr. 20, 2018), https://
www.nytimes.com/2018/04/20/us/immigrant-children-separation-
ice.html?module=inline.
    \16\ Ms. L v ICE, Supra.
    \17\ OIG Report, https://oig.hhs.gov/oei/reports/oei-BL-18-
00511.pdf.
---------------------------------------------------------------------------
    In April 2018, again, many months after separations had first 
become official policy through the El Paso pilot and well after 
separations had been happening at an alarming rate, CBP began assigning 
families that were apprehended together a Family Unit Number which 
allowed CBP to identify families who arrived together. This was the 
first indication that someone considered the urgent need to track 
family members. However, the interest and effort was short-sighted and 
ineffective. The family unit numbers did not transfer with the child to 
ORR nor with the parent when they were transferred to ICE custody. The 
Family Unit Number and related data was deleted at the point of 
transfer, rendering it effectively useless both in notifying an 
individual ICE or ORR official assigned to a separated parent or child 
to know about the separation and in facilitating Government-wide 
tracking of family separation. To WRC's knowledge, no other effort was 
made to effectively track family separations on a comprehensive and 
systemic scale.
    This policy had consequences far beyond what is evident on the face 
of it. Whether this was a policy intentionally designed to be as cruel 
as possible with the express purpose of traumatizing parents and 
children and separating them forever, or whether it constituted a 
criminally negligent failure to anticipate the consequences of the 
policy, the results were disastrous. Not only did the administration's 
policy to separate families cause lasting trauma and harm to thousands 
of children and their parents, these policies of separation and 
deterrence have not been effective in preventing parents from fleeing 
extreme danger to protect their children. The Trump administration has 
been intent on rolling back essential, long-established child welfare 
protections for children in an effort to deter the migration of 
families seeking protection. They have focused on family detention and 
family separation as two such policies, claiming that there is no other 
way to manage migrant families.\18\ However, both efforts have failed 
to deter migrants and in fact, have served only to traumatize and 
endanger children and harm families while also undermining pre-existing 
screening, management, and processing systems.
---------------------------------------------------------------------------
    \18\ Women's Refugee Commission, The Harm of Family Detention, 
https://www.womensrefugeecommission.org/images/zdocs/WRC-harm-of-
family-detention.pdf.
---------------------------------------------------------------------------
    It is important to note that around the same time the Trump 
administration first began to forcibly separate families at the border 
in order to deter them from seeking protection, the administration 
ended one of its most effective programs--the Family Case Management 
Program (FCMP)\19\--that had been designed specifically to manage the 
compliance of and support families seeking protection while in their 
immigration proceedings. In addition to costing a fraction of the cost 
of detaining a family together in ICE or separately in ICE/ORR custody, 
FCMP was an alternative to detention program that was more than 99 
percent effective in ensuring family appearances at ICE appointments 
and hearings, and also supported some parents during deportation. The 
program had been intended at minimum as a 5-year pilot but had only 
been in place for 1.5 years when the administration prematurely 
terminated FCMP in June 2017.
---------------------------------------------------------------------------
    \19\ Women's Refugee Commission, Family Case Management Program 
(FCMP) Backgrounder, available at: https://
www.womensrefugeecommission.org/images/zdocs/Backgrounder-FCMP.pdf.
---------------------------------------------------------------------------
    The crisis at the U.S. border is a crisis of political policies: 
Policies that are undermining border protection, and intentionally 
exposing children in Government custody to lasting and irreparable 
harm.
    In June 2018, at the height of the family separation policy crisis 
and 1 week before President Trump's Executive Order, I spent 2 days at 
the border speaking with parents and children in CBP custody under the 
Flores Settlement Agreement attorney access privilege. I spent 1 day at 
a Border Patrol station in McAllen, Texas where families are taken for 
initial processing, and another day at the Ursula Processing Center, 
also in McAllen. The Ursula Processing Center is a larger overflow 
center, also run by Border Patrol, where some children were taken for 
further processing as unaccompanied children after being separated from 
their parents, and where some families were taken for initial 
processing. Ursula was also sometimes used as a holding facility for 
children who are temporarily separated from their parent while the 
parent it sent for prosecution. What I witnessed at Ursula was as 
haunting as it was gut-wrenching, and is an experience that I will 
never forget.
    I witnessed several families being separated. I heard with my own 
ears the cries of children. I heard parents and children being given 
false or misleading information about what was happening to them. No 
consideration was given by any Government actor for the well-being or 
basic human emotions of frightened children being taken from their 
parents, nor the desperate parents distraught at having their child 
ripped away from them. It is impossible to overstate the impact of 
seeing Government officials performing, as part of their daily job 
functions, what can only be described as cruelty.
    The CBP station was cold, which is consistent with all my visits to 
CBP stations. Despite the over 100-degree temperatures outside, I wore 
a sweater and jacket inside the facility. Many of the children and 
parents I spoke to were still wearing wet clothes from having crossed 
the river or been caught in a rain storm the day before. Families were 
divided into male and female cells, and children over the age of 5 or 6 
were separated from their parents of the opposite sex. Some of the 
children were held with other children, while others were held with 
other non-relative adults of the same sex.
    I spoke to a mother and her 7-year-old son who had been placed in 
separate cells. They were reunified for the purpose of my interview 
with them. The child would not speak to me. He was almost catatonic--he 
just stared into space. When he occasionally answered his mother's 
questions, it was barely in a whisper. She was desperately worried 
about him and said that he had not eaten, not had anything to drink, or 
used the bathroom since they arrived 1\1/2\ days prior. He said that he 
was afraid to use the toilet in the cell where he was held with older 
boys and men. All of this was mumbled in whispers to his mother while 
laying limp in her arms. His clothes were still wet because they had 
been caught in a rainstorm when they were apprehended. He was shaking 
with cold. She begged me to ask the officers to let them be together. 
She said some mothers were allowed to be with their children and did 
not know why she and her son had been separated. She could talk of 
nothing else. Before I left, I was able to explain to the guards that 
the child seemed particularly traumatized and should at least be held 
in the same cell with his mother. He indicated that they would be 
separated eventually but when I left, I saw that they were together, at 
least temporarily.
    In another case, I was interviewing a father and his 9-year-old 
daughter (who was also in wet clothes and shaking), when an agent 
knocked on the door and told us he had to take the girl. The father and 
daughter looked at me stone-faced. I asked the agent where they were 
taking her to which he responded, ``I don't know, ma'am. To a shelter 
or processing center. I just have her on my list.'' I asked if he could 
wait a moment so that the father and his daughter could talk and say 
goodbye. They had been separated into separate cells since arriving at 
the station and had only had the brief time talking to me to be 
together. The officer simply responded by reiterating that he was just 
taking her to the bus to be processed. ``I am not separating them 
ma'am, I am just taking her to the bus, to a shelter,'' he said. I 
explained to him what we all knew to be happening--that this 9-year-old 
girl was about to be separated from her father and taken to ORR 
custody. I explained this to the father and daughter and asked the 
officer to give them a moment to say goodbye or quickly exchange any 
words, the last they would share for an uncertain but long amount of 
time. It was clear that the officer had no intention of permitting them 
to say goodbye without my intervention. After about a minute, the guard 
opened the door again. The girl walked out. She hugged me. Then, I went 
back into the interview room with her father. He burst into tears.
    No official took responsibility. No one admitted to what was 
happening in that facility. No one told the parents or the kids what 
was going to happen to them, but everyone detained there knew to be 
afraid. In some cases, children clung to their mothers or fathers but 
in many cases I saw them quietly and obediently follow instructions as 
they were led to separate cells. What struck me the most was the 
calmness--the stoic attitude of the children--until you were alone with 
them. The mothers wailed. Fathers tried to suppress tears. But most of 
the children who were over 5 just sat there. They did not cry. They 
barely moved.
    When we arrived at the Ursula Processing Center the next day, the 
officials gave us a list with hundreds of names on it. These were the 
children in custody we were authorized to speak to pursuant to the 
Flores Settlement Agreement. On the day we visited, the facility had 
1,200 people detained in it. It is a giant warehouse divided into what 
can only be referred to as cages. The adults were in the front--packed 
into chain-linked cages like sardines, lying side-by-side wrapped in 
mylar (foil) sheets. According to the lists, there were over 500 
children who had been separated from a parent who were being held in 
cages in the back section. In some cases, the parent was also detained 
at Ursula (but usually held in a separate cage), while in others, the 
parents had been sent away for criminal prosecution or to ICE adult 
custody. Children filled the cages--sleeping on thin mats on the floor 
and wrapped in mylar blankets. Some children sat on the floor, others 
on benches. There were no toys, no books, and generally nothing for the 
children to do. Some televisions hung from the fencing in some of the 
cages, but they were not on when I was there. Children were not 
permitted to run around or play, and in fact were scolded by guards if 
they tried. The lights were on 24 hours a day, as in all Border Patrol 
facilities. Despite the summer Texas heat outside, the warehouse was 
extremely cold. There were no windows. The children had access to 
porta-potties set up in a central station in the middle of a set of 
cages. There was no plumbing in this section of the warehouse. There 
were tanks of water for washing hands, but the children told me that 
the water usually ran out by mid-morning. Air was piped in through 
large, loud HVAC tubing. One of the younger children I met with pointed 
at the tubes and said they were monsters.
    Children in cages next to where we stood were looking at us through 
the fencing, curious as to who we were. I looked through the list we 
were given. I had to pick out which children I wanted to speak with. 
Several of the children were listed as being very young--1 or 2 years 
old. Others had their ages listed as zero. Zero. I asked who was caring 
for those babies and toddlers--the officers told me that they did not 
know. I asked to see some of these babies and speak to whoever was 
caring for them. They left with the list and came back a few minutes 
later. The officer told me they couldn't find them, that they had 
called their names, but they did not answer. I stared at him and told 
him that they were babies who, of course, would not answer when called. 
``I can't find them ma'am. I called their name, but they did not 
answer,'' he said. I insisted to the officer that there had to be 
someone caring for them who can respond on their behalf when called. 
``Who is taking care of these babies?'' I asked. Again, the officer 
told me, ``I don't know. They are probably with a relative or someone 
who is not responding when I call the name because it is not their 
name.'' I remained incredulous. I asked him to please bring a baby--any 
baby in custody--along with the person caring for them. But the officer 
insisted that I had to give him a name, so I picked several names and 
suggested that they approach adults caring for babies to see if they 
are the ones on the list. After a long wait, they brought me a child 
whose date of birth was listed as January 1, 2016, meaning the child 
would be 2 years old. This stood out because 1-1 is a DOB often used 
when the actual date is unknown. A 16-year-old girl was holding the 
child. When I asked her if she was the child's mother, she said ``no,'' 
and told me that she did not know the child. When she arrived, after 
having been separated from her own mother, she was in a cage with 
several other girls her age. This toddler was in the cage with them. 
She followed the girls around, indicating for her diaper to be changed, 
for a bottle, for food. No official took any responsibility for the 
toddler who had apparently been separated from an adult. The girl said 
that other girls in the cage told her that the toddler was just 2 years 
old, and that this seemed right to her. The toddler did not speak 
Spanish. She seemed to only know a few words that she repeated, but the 
girls did not understand them. They assumed it was the indigenous 
language Quiche. The toddler just pointed, grunted, and cried. After 
the other girls were transferred away from the cage, the 16-year-old 
girl had been the one the child clung to. She taught other kids how to 
change diapers so that she had help. When the toddler cried, no guard 
or officials helped. At bedtime, the teenager put the toddler girl to 
sleep. At mealtime, she helped her get in line to get her food. She had 
been there for at least 3 days, but she told me it was hard to know 
because the lights were always on and there were no clocks or 
calendars. She told me she was worried about what would happen to and 
who would care for the little girl when she was transferred away from 
her.
    After I brought this to the attention of the officials at the 
facility, they eventually looked into the toddler's case and discovered 
that the child had been separated from her aunt. Border Patrol had 
separated them 4 days earlier. The aunt was sent for prosecution and 
left the toddler behind--eventually transferring her to Ursula. Upon 
pressing, it was discovered that the aunt had also been transferred to 
Ursula. For 4 days this little girl's aunt had been asking what 
happened to the child. No one would tell her. In the mean time, she was 
being held in a cage just yards away from her niece. Seeing her aunt 
transformed the little girl, who until now had been lethargic and 
nearly asleep in the teenager's arms. The toddler lit up and her entire 
demeanor changed. I learned from the aunt that Border Patrol had not 
only incorrectly recorded her name, but also had a date of birth that 
was off by several years. Indeed, the toddler was actually almost 4 
years old. We will never know what would have happened to this child if 
I had not been there that day, or if a 16-year-old girl had never met 
nor cared for her. What's worse is that we will never know what other 
cases like hers--cases of incorrectly recorded biographical 
information, and of separation from a relative only a few cages or 
cells away--existed that day or on any other because DHS did not and 
still does not meaningfully track separations.
    Later, I spoke to another 9-year-old. She sobbed as soon as I 
explained to her who I was and that I was there to understand how she 
was doing and how she was being treated. She could hardly speak. She 
did not want to talk about who she was, or where she came from, or what 
had happened to her. All she wanted talk about was that she had to find 
her mother. She said to me, ``I have to hug her and tell her I love 
her. I need her to know I love her very, very much.'' She was obsessed 
with staying put at this facility. She was worried that she would be 
taken away to a shelter like other children who were being taken away, 
and she was concerned that if she moved from the place where we were--
the last place her mother saw her--that her mother would not be able to 
find her again. ``I don't want to be lost,'' she told me. Like so many 
children whose parents tell them that if they get lost or separated at 
a mall or fair to stay put because they will find them, this little 
girl was trying her best to do what she was supposed to do. But in this 
situation, no one knew how her mother would ever find her. Certainly, 
it appeared that the officials in charge had no plan for reunifying her 
with her mother. Based on what I had just observed, that 9-year-old 
little girl was right. She had every reason to think they might lose 
her.
    In front of the desk where I was interviewing children, there was a 
cage filled with very young boys. As I waited for the next child to be 
brought to me, I went to the cage and spoke to them. I asked them how 
old they were: ``5'', ``5'', ``10'', ``9'', ``5'', ``5'', ``5.'' I 
scanned my list of unaccompanied children, picked out a 5-year-old and 
asked to speak to him. The officer brought me a little boy, who grabbed 
my hand as soon as he saw me. We walked to the desk where I could talk 
to him and I lifted him onto the chair. He started to shake as the 
tears came. He just cried and cried, climbed onto my lap, hugged me, 
and cried for his mommy. He said there was a boy in the cage who was 
mean to him, that this boy was teasing him and saying he will never see 
his mother again. The boy was clutching a rolled-up piece of paper. It 
was a photocopy of the picture on his mother's ID. Someone must have 
made it and given it to him before they took her away. It was falling 
apart, and he was clutching it desperately. There was no way to expect 
this child to tell me about his situation, so I just comforted him as 
best I could. I could not tell him honestly that he would be with his 
mommy again--all I could say is that I thought they would take him to a 
place that was warmer than this warehouse with cages, where there would 
be people who would take care of him and help him find his mommy. When 
we finished, he walked back to his cage. The boy pointed to another boy 
in the cage to tell me he was the one who was mean to him. I told the 
guard and was told someone would look into it.
    Later, after the children were called into line to get their 
dinner, I noticed another one of the 5-year-olds sitting on a bench 
crying. No one paid attention to the crying boy. I went to talk to him. 
He was shaking and saying something I could not understand though his 
sobs. I put my fingers through the fence of the cage he was in. He 
stopped crying and held my hand. He asked me where his daddy was. I 
told him that I did not know, but that his daddy was probably at court. 
He cried some more. He asked if he was going to go to court too, and if 
he would be alone. I did not have answers for him. I did not know what 
would happen. If he went to a children's shelter with ORR, he would 
likely go to court, and like so many children, he would go alone. Only 
if he was one of the lucky ones would he go to court accompanied by a 
relative or attorney. I asked him if he knew where he was going next 
and whether he knew anyone here in the United States--he said he did 
not.
    Soon, several other boys gathered around the fence to talk to me. 
The boy repeated to me, ``My father is in court,'' as if asking me a 
question. One by one the other boys said, ``Mine too.''
    Each child and each parent in that facility, and all those who came 
before them and after them, had stories. They were all traumatized. The 
meaningless, confusing terms of who would go where, when, were 
dizzying. The response to almost any question was simply to refer to 
the matter as someone else's responsibility or a small step of a larger 
process. ``I am just taking their information.'' ``I don't know where 
they are taking her daughter--I just know she needs to get on the 
bus.'' ``I am not separating her from her father, I am just taking her 
to the processing center.'' ``I don't know why her 7-year-old son is 
being kept in a separate cell.''
    The outrageous and traumatizing separations I have described and 
that we heard about all spring and summer of 2018 did not just happen 
to these families. This was not a natural disaster that happened. This 
was an affirmative decision and instruction given by and to Government 
actors and was done to these families. This reality was being 
implemented through the affirmative actions of officers right there in 
front of me; agents of the U.S. Government, representing all taxpaying 
residents.
    And despite the public outrage, despite the Congressional efforts 
to monitor and conduct oversight, and despite a court injunction on 
separations and an order to reunify separated families, there is still 
no meaningful tracking or system to facilitate communication or 
reunification in place. Even today, ORR continues to receive 
traumatized children who have been separated without critical 
information \20\ about the separations or the reasons for the 
separation, there continue to be problems with communication between 
separated children and their parents, and WRC continues to have cases 
brought to our attention of families being separated without cause.
---------------------------------------------------------------------------
    \20\ OIG report.
---------------------------------------------------------------------------
    I thank the committee for holding this hearing and for asking 
critical questions.
    We must ask,
  <bullet> ``How did this happen?''
    Whether the policy is called a ``zero tolerance prosecution 
policy'' or a ``separation policy'' is only part of the issue. 
Regardless of the policy's name or even its official intent, there is 
no question that it resulted in the separation of thousands of children 
from their parents, and that it was clear from the start that this 
policy would result in these separations. It was clear that a physical 
separation would take place.
    Judge Sabraw in Matter of Ms. L stated:

``The government readily keeps track of personal property of detainees 
in criminal and in immigration proceedings. Money, important documents, 
and automobiles to name a few, are routinely catalogued, stored, 
tracked, and produced upon a detainees' release, at all levels--State, 
Federal, citizen, and alien. Yet the Government has no system in place 
to keep track of, provide effective communication with, and promptly 
produce children. The unfortunate reality is that under the present 
system migrant children are not accounted for with the same efficiency 
and accuracy as property.''\21\ ``A practice of this sort implemented 
in this way is likely to be ``so egregious, so outrageous, that it may 
fairly be said to shock the conscience.''\22\
---------------------------------------------------------------------------
    \21\ Ms. L. v. U.S. Immigration & Customs Enforcement (Ms. L. v. 
ICE), Supra.
    \22\ Ibid.

    We must ask,
  <bullet> ``When deciding on such a policy, and when actually 
        implementing such a policy, how is it possible that no 
        procedures were implemented?'' Either the Government considered 
        but did not care about the consequences of separation--a 
        shocking and disturbing conclusion--or, the Government did not 
        even consider the consequences of the implementation of their 
        policy--a conclusion that is just as shocking and disturbing in 
        its negligence.
    It appears that there was no plan. It appears that there were no 
guidelines for how to implement this policy. So, the question is then:
  <bullet> ``Why were no such plans made or guidance given, despite the 
        existence of a pilot that tested this very practice, and that 
        clearly resulted in a dramatic increase in family separations 
        due to prosecutions?''
  <bullet> ``What did the administration, the Secretary of Homeland 
        Security, the Commissioner of CBP, the Chief of Border Patrol, 
        the chief of each Border Patrol station, and all the others in 
        the chain of command, instruct their staff to do? How did they 
        envision the policy would be carried out? What did they think 
        would happen to these families?'' and,
  <bullet> ``Why did they not take appropriate steps to ensure even the 
        most basic due process and human considerations?''
  <bullet> ``Why, even after all the outrage and the difficulties in 
        reunifying children and parents, why after a court order, are 
        there still no policies in place to track separations?''
  <bullet> ``Why would DHS and the administration seek to replace the 
        harm and cruelty of family separation with the equally 
        inappropriate and wildly costly use of family detention, 
        especially when such detention has not been able to comply with 
        the most basic child protection standards set out in law, and 
        especially when the administration knows it has cost-effective 
        options proven to support families while ensuring their 
        compliance with immigration requirements?''
    We must ask these critical questions and take action. Policies that 
uphold our values while protecting our borders and up-holding our 
commitments to human rights and due process can be implemented. But in 
order to achieve this, we must address this crime against our values as 
Americans. There must be consequences. We cannot let DHS's actions and 
implementation of these and similarly harmful policies go unchecked. It 
is essential in order to ensure that this does not happen again.

    Miss Rice. Thank you, Ms. Brane.
    I now recognize Dr. Linton to summarize her statement for 5 
minutes.

   STATEMENT OF JULIE M. LINTON, CO-CHAIR, IMMIGRANT HEALTH 
     SPECIAL INTEREST GROUP, AMERICAN ACADEMY OF PEDIATRICS

    Dr. Linton. Chairwoman Rice, Ranking Member Higgins, and 
Members of the Homeland Security Committee, thank you for the 
opportunity to testify here today.
    I am Dr. Julie Linton, a practicing pediatrician in 
Greenville, South Carolina, where my work is focused on the 
care of children in immigrant families. I am the co-chair of 
the American Academy of Pediatrics Immigrant Health Special 
Interest Group and co-author of the 2017 AAP Policy Statement, 
Detention of Immigrant Children.
    On behalf of the American Academy of Pediatrics, or the 
AAP, and our 67,000 members, thank you for holding today's 
hearing. The AAP is nonpartisan and pro-children. Pediatricians 
care about the health and well-being of all children, no matter 
where they or their parents were born.
    As pediatricians, we know that children do best when they 
are together with their families. After reading media reports 
in March 2017 that the Department of Homeland Security was 
considering a policy that would separate mothers from their 
children upon arriving at the U.S. border, we immediately spoke 
out against this proposed policy.
    We subsequently wrote to DHS 6 times to urge the agency to 
reject such a policy. The AAP also issued roughly half a dozen 
statements about why family separation devastates the most 
basic relationship we know, the relationship between a child 
and a parent.
    We have said repeatedly that separating children from their 
parents contradicts everything we stand for as pediatricians 
protecting and promoting children's health.
    Today I will underscore the harmful effects of separation, 
processing, and detention based on what we know from the 
scientific literature and what I know from caring for patients.
    Prolonged exposure to serious stress, known as toxic 
stress, can disrupt a child's brain architecture and adversely 
impact short- and long-term health. When little bodies are in a 
constant fight or flight response, stress hormones, such as 
cortisol, remain elevated, continuously activating the nervous 
system and suppressing the immune response.
    A critical role of a parent or known caregiver is to buffer 
stress. Separation from a parent robs children of this buffer. 
Separated children can, thus, face immediate health problems, 
including physical symptoms like headaches and stomach pain, 
changes in body functions like, eating, sleeping, and 
toileting, behavior problems like, anger, irritability, and 
aggression, and difficulty with learning and memory.
    Children who have been separated may also experience 
feelings of mistrust, embarrassment, guilt, and shame.
    In the long term, children who have been separated may be 
susceptible to chronic diseases, such as depression, post-
traumatic stress disorder, diabetes, and heart disease.
    I have personally witnessed the impact of family 
separation. In June 2018, I cared for an 8-year-old boy who, 
with his pregnant mother, had fled violence and direct personal 
threats in Central America to seek safe haven in the United 
States.
    Since the zero tolerance policy was in effect at the time, 
I gently asked the boy and his mother if they had been 
separated at the border. With my question, a chilling silence 
arose. The boy began to breathe quickly and his mother 
tearfully whispered, 7 days.
    For 7 days this boy and his pregnant mother did not know 
about the other's location or safety. Their separation was 
shorter than many children harmed by the zero tolerance policy 
and he still suffered the consequences.
    That day in my office his mother reported he could no 
longer sleep through the night. He had trouble being away from 
her for even short periods of time. His mother shared that he 
was a shell of his previous self.
    Children are not little adults. To untrained eyes they can 
appear quite healthy, even when their systems begin to shut 
down. Tragically, this was the case for Jakelin Caal Maquin and 
Felipe Gomez Alonzo who died in the custody of Customs and 
Border Protection in December.
    The AAP, joined by 13 National medical and mental health 
provider organizations, wrote to Secretary Nielsen and 
Commissioner McAleenan, urging they take specific, meaningful 
steps to ensure that all children in CBP custody receive 
appropriate medical and mental health screening and necessary 
follow-up care by trained providers.
    We urge our Federal agencies to apply a child-focused lens 
when considering policies that could have an impact on child 
health.
    Additionally, children should not be placed in unlicensed 
facility whether run by HHS or DHS. The findings of the HHS 
Office of Inspector General about Tornio and family separation 
are alarming and should be addressed.
    As separations continue to occur we must compel all Federal 
agencies to put the best interest of the child ahead of any 
other priority. Child welfare experts, not law enforcement 
agents, are best-positioned to make the determination of what 
is in a child's best interest.
    It is critical that all reunified children receive 
appropriate medical and mental health care in the community to 
support healing from the traumatic experiences of family 
separation, processing, and detention.
    Thank you for the opportunity to testify today.
    [The prepared statement of Dr. Linton follows:]
                 Prepared Statement of Julie M. Linton
                             March 26, 2019
    Chairwoman Rice and Ranking Member Higgins, thank you for the 
opportunity to speak here today. I am Dr. Julie M. Linton, a practicing 
pediatrician in Greenville, South Carolina, and my clinical work is 
focused on the care of children in immigrant families. I am testifying 
today on behalf of the American Academy of Pediatrics (AAP) where I 
serve as co-chair of its Immigrant Health Special Interest Group (SIG) 
and as a member of the executive committee for the AAP Council on 
Community Pediatrics. I am also a co-author of the AAP's 2017 policy 
statement entitled Detention of Immigrant Children. The AAP is a non-
profit professional membership organization of 67,000 primary care 
pediatricians and medical and surgical pediatric subspecialists 
dedicated to the health and well-being of all infants, children, 
adolescents, and young adults.
    The AAP is non-partisan and pro-children. Pediatricians care about 
the health and well-being of all children--no matter where they or 
their parents were born. The AAP supports comprehensive health care in 
a medical home for all children in the United States. As pediatricians, 
we know that children do best when they are together with their 
families. When we read media reports in March 2017 that the Department 
of Homeland Security (DHS) was considering a policy that would separate 
immigrant mothers from their children when they arrived at the U.S. 
border, we were compelled to immediately speak out against this 
proposed policy. We urged Federal authorities to exercise caution to 
ensure that the emotional and physical stress children experience as 
they seek refuge in the United States is not exacerbated by the 
additional trauma of being separated from their siblings, parents, or 
other relatives and caregivers.
    We subsequently wrote to DHS 6 times to urge the agency to reject a 
policy that would separate immigrant children from their parents at the 
border. In addition to these letters, the AAP issued roughly half a 
dozen statements, and pediatricians across the country, myself 
included, penned countless op-eds about why family separation 
devastates the most basic human relationship we know--that of child and 
parent.
    The AAP has said repeatedly that separating children from their 
parents contradicts everything we stand for as pediatricians--
protecting and promoting children's health. In fact, highly stressful 
experiences, like family separation, can cause irreparable harm, 
disrupting a child's brain architecture and affecting his or her short- 
and long-term health. This type of prolonged exposure to serious 
stress--known as toxic stress--can carry lifelong consequences for 
children. Today I would like to speak more about the health effects of 
separation, both what we know from the scientific literature and what I 
know from caring for my patients. I will also emphasize the harmful 
impact of detention on the health and well-being of immigrant children 
and underscore the critical need to avoid retraumatizing children and 
families with detention or separation.
                     observations of pediatricians
    Writing about her experience visiting a ``tender age'' shelter run 
by the Department of Health and Human Services' Office of Refugee 
Resettlement (ORR) in April 2018, then-president of the AAP Dr. Colleen 
Kraft described a little girl:

``A toddler, her face splotched red from crying, her fists balled up in 
frustration, pounding on a play mat in the shelter for unaccompanied 
children run by the Department of Health and Human Services (HHS)' 
Office of Refugee Resettlement. No parent was there to scoop her up, no 
known and trusted adult to rub her back and soothe her sobs. The staff 
members at the center tried their best, and shared my heartbreak while 
watching this child writhe on the floor, alone.
``We knew what was wrong, but we were powerless to help. She wanted her 
mother. And the only reason she could not be with her mother was 
because immigration authorities had forcibly separated them when they 
crossed the border into the United States. The mother was detained, and 
the little girl was handed over to the shelter as an `unaccompanied' 
child.''\1\
---------------------------------------------------------------------------
    \1\ Kraft C. Separating parents from their kids at the border 
contradicts everything we know about children's welfare. LA Times. 
https://www.latimes.com/opinion/op-ed/la-oe-kraft-border-separation-
suit-20180503-story.html. Published May 3, 2018. Accessed February 1, 
2019.

    The co-chair of AAP's Immigrant Health, SIG Dr. Marsha Griffin, and 
SIG member Dr. Rita Agarwal, told the story of a child they encountered 
during a visit to an ORR shelter for unaccompanied children in the 
spring of 2018. This child had been separated from her mother. They 
---------------------------------------------------------------------------
wrote:

``In a walled-in courtyard, we saw a 5-year-old girl chasing iridescent 
bubbles blown by two adults. Staff said she tried to run away any time 
she played outside, so she was limited to the courtyard. She would bite 
anyone who approached her, so she was kept away from other children and 
distracted with bubbles. Biting and seeking to run are signs of acute 
distress in a child of this age--a normal reaction to extreme fear. 
This girl did not need bubbles and a walled courtyard but rather her 
mother or her father to calm her--someone who could hold her and make 
her world right again.''\2\
---------------------------------------------------------------------------
    \2\ Agarwal R, Griffin M. Taking immigrant kids from parents shows 
contempt for families. Houston Chronicle. https://
www.houstonchronicle.com/opinion/outlook/article/Taking-immigrant-kids-
from-parents-shows-contempt-12963039.php. Published June 3, 2018. 
Accessed February 1, 2019.
---------------------------------------------------------------------------
               evidence of the harms of family separation
    Studies overwhelmingly demonstrate the irreparable harm caused by 
breaking up families.\3\ We know that children who have been separated 
can have a host of health challenges, including developmental delays 
like those in gross and fine motor skills, regression in behaviors like 
toileting and speech, as well as constant stomach and headaches. 
Prolonged exposure to highly stressful situations--known as toxic 
stress--can disrupt a child's brain architecture and affect his or her 
short- and long-term health. A parent or a known caregiver's role is to 
mitigate these dangers. When robbed of that buffer, children are 
susceptible to a variety of adverse health impacts including learning 
deficits and chronic conditions such as depression, post-traumatic 
stress disorder, and even heart disease.
---------------------------------------------------------------------------
    \3\ Shonkoff JP, Garner AS. The Lifelong Effects of Early Childhood 
Adversity and Toxic Stress. Pediatrics. 2012;129(1):e232-46. Masten AS. 
Global perspectives on resilience in children and youth. Child Dev. 
2014;85(1):6-20. Bouza A, Camacho-Thompson DE, Carlo G, et al. Society 
for Research in Child Development. The Science Is Clear: Separating 
Families Has Long-Term Damaging Psychological and Health Consequences 
for Children, Families, and Communities. https://www.srcd.org/policy-
media/statements-evidence/separating-families. Published June 20, 2018. 
Accessed February 1, 2019.
---------------------------------------------------------------------------
    The Government's practice of separating children from their parents 
at the border counteracts every science-based recommendation I have 
ever made to families who seek to nurture and protect their children's 
physical, intellectual, and emotional development. Children, who have 
often experienced terror in their home countries and then additional 
trauma during the journey to the United States,\4\ are often re-
traumatized through processing and detention in Customs and Border 
Protection (CBP) facilities not designed for children. This trauma is 
profoundly worsened by forced separation from their parents. It can 
lead to long-term mental health effects such as developmental delays, 
learning problems, and chronic conditions such as hypertension, asthma, 
cancer, and depression. Children who have been separated may also be 
mistrusting, questioning why their parents were not able to prevent 
their separation and care for them. A child may show different 
behaviors in response to exposure to traumatic events like separation 
from parents depending on their age and stage of development. Some of 
these signs of distress are listed in the chart below:\5\
---------------------------------------------------------------------------
    \4\ Kadir A, Shenoda S, Goldhagen J, Pitterman S. The Effects of 
Armed Conflict on Children. Pediatrics. 2018;142(6).
    \5\ The National Child Traumatic Stress Network. Effects. https://
www.nctsn.org/what-is-child-trauma/trauma-types/refugee-trauma/effects. 
Published September 4, 2018. Accessed February 1, 2019.

------------------------------------------------------------------------
                                  Elementary School     Middle and High
       Preschool Children              Children        School-Aged Youth
------------------------------------------------------------------------
Bed wetting....................  Changes in their     A sense of
                                  behavior such as     responsibility or
                                  aggression, anger,   guilt for the bad
                                  irritability,        things that have
                                  withdrawal from      happened.
                                  others, and
                                  sadness.
Thumb sucking..................  Trouble at school..  Feelings of shame
                                                       or embarrassment.
Acting younger than their age..  Trouble with peers.  Feelings of
                                                       helplessness.
Trouble separating from their    Fear of separation   Changes in how
 parents.                         from parents.        they think about
                                                       the world.
Temper tantrums................  Fear of something    Loss of faith.
                                  bad happening.
Aggressive behavior like           .................  Problems in
 hitting, kicking, throwing                            relationships
 things, or biting.                                    including peers,
                                                       family, and
                                                       teachers.
Not playing with other kids        .................  Conduct problems.
 their age.
Repetitive playing out of
 events related to trauma
 exposure.
------------------------------------------------------------------------

         detention of children is not a solution to separation
    Some have suggested that an alternative to separating families is 
to increase the use of Immigration and Customs Enforcement (ICE) family 
detention. However, family detention is neither a safe nor effective 
solution to address the forced separation of children and parents at 
the border. I co-authored the AAP Policy Statement entitled Detention 
of Immigrant Children, which recommends that immigrant children seeking 
safe haven in the United States should never be placed in ICE detention 
facilities. There is no evidence that any amount of time in detention 
is safe for children.\6\ In fact, even short periods of detention can 
cause psychological trauma and long-term mental health risks for 
children.\7\ Studies of detained immigrants have shown that children 
and parents may suffer negative physical and emotional symptoms from 
detention, including anxiety, depression, and post-traumatic stress 
disorder.\8\ Detention itself undermines parental authority and the 
capacity to respond to their children's needs; this difficulty is 
complicated by parental mental health problems.\9\ Parents in detention 
centers have described regressive behavioral changes in their children, 
including decreased eating, sleep disturbances, clinginess, withdrawal, 
self-injurious behavior, and aggression.\10\
---------------------------------------------------------------------------
    \6\ Linton JM, Griffin M, Shapiro AJ. Detention of Immigrant 
Children. Pediatrics. 2017;139(5).
    \7\ Ibid.
    \8\ Ibid.
    \9\ Ibid.
    \10\ Ibid.
---------------------------------------------------------------------------
    Specifically, detention of youth is associated with physical and 
mental health symptoms that appear to be caused and/or worsened by 
detention. A study of children ages 3 months to 17 years in a British 
immigration detention center revealed physical symptoms that included 
somatic complaints (e.g., headaches, abdominal pain), weight loss, 
inability to manage chronic medical problems, and missed follow-up 
health appointments including those for vaccinations, developmental and 
educational problems, and mental health symptoms including anxiety, 
depression, and reemergence of post-traumatic stress disorder.\11\ In a 
systematic review that explored risk and protective factors for the 
psychological well-being of children and youth who were resettled in 
high-income countries, the authors indicate that adverse events during 
and after migration may be more consequential than pre-migration 
events. Specifically, the authors conclude that detention of immigrant 
children and youth is particularly detrimental to mental health and an 
example of trauma for which impact is cumulative.\12\
---------------------------------------------------------------------------
    \11\ Lorek A, Ehntholt K, Nesbitt A, et al. The Mental and Physical 
Health Difficulties of Children Held within A British Immigration 
Detention Center: A Pilot Study. Child Abuse Negl. 2009;33(9):573-85.
    \12\ Fazel M, Reed RV, Panter-Brick C, Stein A, Mental health of 
displaced and refugee children resettled in high-income countries: risk 
and protective factors, Lancet, 379(9812):266-282 (2012).
---------------------------------------------------------------------------
first-hand observations at cbp processing centers and from children in 
                             the community
    In November 2016, I toured the CBP's Ursula Central Processing 
Center in McAllen, Texas as part of a team of pediatricians from the 
AAP and the Texas Pediatric Society. The building, hidden behind a 
fence, was a warehouse-like facility identifiable only with a white 
placard stating that this was property of the U.S. Government. Our CBP 
tour guide demonstrated empathy toward the detainees and recognized 
that the setting was not designed for children.
    Upon entering the holding area, we saw rows of children lying on 
mats on the floor, wrapped in silvery Mylar blankets. We saw clusters 
of children huddled in cages created by chain-link fences that extended 
toward the ceiling. Within this 55,000-square-foot space, there were 
four giant cages holding boys, girls, and mothers with young children. 
There was one small area that held adult men. The children ranged from 
infants to older adolescents. Most of the detainees appeared to be 
exhausted and frightened. Extremely bright lights shone from the high 
ceilings, the smell of porta-potties infiltrated the air, and the 
chilling sound of crinkling Mylar blankets echoed through the 
warehouse. The windowless environment was particularly disorienting 
because the lights were kept on 24 hours a day, 7 days a week, which we 
were told was for ``safety reasons.''
    In the Ursula facility (as it is known), there are private toilets, 
showers, and a clean, dry change of clothes if detainees arrive before 
7 p.m.; the detainees who arrive late sit in wet clothes until the 
morning. Old clothes, shoes, and other belongings, like backpacks and 
stuffed animals, are sealed away in individual plastic bags. Our guide 
told us 3 meals were provided each day.
    The medical care we saw provided at Ursula was cursory at best and 
took place in the open, behind curtained screens. Detainees were 
checked for scabies, lice, and obvious signs of infectious disease, 
such as active chicken pox lesions. Vital signs (temperature, blood 
pressure, respiratory rate, heart rate) and height and weight were not 
routinely taken. Those who needed more detailed exams were taken to a 
small, cold ``medical room.'' There was a small cabinet with over-the-
counter medications, and pictures of infectious diseases adorned the 
walls. We were told that emergency responders were called for those who 
appeared ill or injured after presenting to CBP officials in the field.
    We were not permitted to speak with children during our tour of the 
Ursula facility. However, I can speak to my patients' experiences who 
were processed at Ursula and other CBP facilities. As a pediatrician in 
both North and South Carolina, I have learned through taking medical 
histories from dozens of children who have been processed at Ursula, 
that children and families have been held there for up to 8 days. 
Although they are offered food, the sandwiches have at times been kept 
so cold that they were frozen. Several families have shared that their 
belongings have been ``lost'' during processing, including vaccination 
records and medical documents that they have brought from their 
countries of origin. Families have also shared with me their gratitude 
when treated kindly by CBP officials, and this gratitude is 
particularly striking given the conditions to which they are exposed.
    Separation of children from siblings, parents, and caregivers are 
routine during processing. One set of siblings fled Central America 
with their mother after experiencing persecution in their community. 
When they presented to CBP officials to seek refuge and face 
processing, the younger child was held in one cage with her mother, and 
the older child, a teenager, was kept separately from her mother and 
sister for 3 days. After thousands of miles of travel with the 
proximity and support of her family, this child no longer had the 
buffering support of her family. When she recounted her story, she 
became tearful and withdrawn. She shared with me that she was 
incredibly frightened during the time in the processing center, unable 
to eat or sleep. Even this brief period of time in a CBP processing 
center was re-traumatizing for this child, placing her at risk for 
short- and long-term health effects.
                     children are not little adults
    As pediatricians, we know that children are not little adults. 
Children's vital signs (breathing rate, heart rate, blood pressure) 
have different normal parameters than adults, and these parameters vary 
by age. When children begin to get sick, they present with subtle 
findings, and they tend to get sick more quickly. For example, children 
can become dehydrated more quickly than adults. They require greater 
amounts of fluid per pound of body weight than adults, and high fevers 
and fast breathing can cause children to lose fluid quickly. Children 
also need encouragement to drink when they are ill, and this 
encouragement is exceedingly difficult to provide to frightened 
children.
    The flu can be particularly serious for children and can escalate 
quickly. Signs differentiating a child with mild illness from a child 
with severe illness are quite subtle. A child can be happily playing, 
even running around, while her body systems begin to shut down. When a 
child is having difficulty breathing, she may breathe more quickly or 
her ribs may pull in with each breath; these signs would often not be 
easily visible, especially not to an untrained eye. Additionally, 
children are more prone to muscle fatigue, including the breathing 
muscles, and are thus at greater risk for respiratory failure.\13\ Even 
the dosing of common medications is different in children than it is in 
adults; rather than standard dosing, children are dosed based on their 
weight.\14\
---------------------------------------------------------------------------
    \13\  Woollard M, Jewkes F. 5 Assessment and identification of 
paediatric primary survey positive patients. Emergency Medicine 
Journal. 2004;21:511-517.
    \14\ Palchuk MB, Seger DL, Recklet EG, Hanson C, Alexeyev A, Li Q. 
Weight-based pediatric prescribing in ambulatory setting. AMIA Annu 
Symp Proc. 2006;2006:1055.
---------------------------------------------------------------------------
    Sepsis, for example, must be treated early in children. According 
to the Society of Critical Care Medicine (SCCM), sepsis is a 
complicated disease causing the body to be compromised by serious 
systemic infection leading to multiple organ failure.\15\ The 
importance of recognizing and treating sepsis early in children cannot 
be underestimated; each hour of delay in treatment dramatically 
increases mortality. Because sepsis can be so serious and so difficult 
to recognize in children, the SCCM has a separate set of guidelines for 
recognizing and treating sepsis in children that are different than for 
adults.\16\ For these reasons, it is essential that the individuals who 
interact with children apprehended at the border are trained to 
recognize signs and symptoms of distress and know when to urgently 
refer children to additional care.
---------------------------------------------------------------------------
    \15\ Weiss SL. Five Important Things to Know about Pediatric 
Sepsis. Society of Critical Care Medicine. https://www.sccm.org/
Communications/Critical-Connections/Archives/2018/Five-Important-
Things-to-Know-About-Pediatric-Seps. Accessed March 4, 2019.
    \16\ Dellinger RP, Levy MM, Rhodes A, et al: Surviving Sepsis 
Campaign: International guidelines for management of severe sepsis and 
septic shock: 2012. Crit Care Med. 2013; 41:580-637.
---------------------------------------------------------------------------
                          aap recommendations
    We urge Federal agencies to apply a child-focused lens when 
considering policies that could have an impact on child health and 
well-being. The deaths of 7-year-old Jakelin Caal Maquin and 8-year-old 
Felipe Gomez Alonzo while in the custody of CBP are tragedies that 
demand systematic improvements. AAP remains committed to working with 
Federal agencies to offer its expertise as medical providers for 
children, in an effort to protect and promote child well-being. In that 
vein, we offer the following recommendations:
    1. Children should never be separated from their parents unless 
        there are concerns for the safety of the child at the hand of 
        the parent and a competent family court makes that 
        determination. Nowhere is that more important than in the case 
        of a child needing medical screening and treatment. Parents 
        know their child's medical history and are often better able to 
        share that history than the child him or herself. Separation 
        from a parent is traumatic to children, causes stress, and has 
        the potential to negatively impact the child's short- and long-
        term health.
    2. Family detention threatens the health of children and their 
        parents and is not a safe or effective solution to address the 
        forced separation of children and parents at the border. The 
        AAP has said that no amount of time in detention is safe for 
        children.\17\
---------------------------------------------------------------------------
    \17\ Ibid.
---------------------------------------------------------------------------
    3. Instead of detention, AAP recommends the use of community-based 
        alternatives for children in family units. Community-based case 
        management should be implemented for children and families, 
        thus ending both detention and the placement of electronic 
        tracking devices on parents. Community release with case 
        management has been shown to be cost-effective and can increase 
        the likelihood of compliance with Government requirements.\18\ 
        \19\ \20\ We urge Congress to provide funding to support case 
        management programs. AAP also advocates for expanded funding 
        for post-release services to promote the safety and well-being 
        of all previously-detained immigrant children and to facilitate 
        connection and access to comprehensive services, including 
        medical homes, in the community.
---------------------------------------------------------------------------
    \18\ Edwards, A. Measures of first resort: alternatives to 
immigration detention in comparative perspective. The Equal Rights 
Review. 2011;7:117-142.
    \19\ U.S. Immigration Customs and Enforcement. Report of the DHS 
Advisory Committee on Family Residential Centers. https://www.ice.gov/
sites/default/files/documents/Report/2016/ACFRC-sc-16093.pdf. Published 
September 30, 2016. Accessed February 1, 2019.
    \20\ Lutheran Immigration & Refugee Service, Women's Refugee 
Commission. Locking Up Family Values, Again. https://
www.womensrefugeecommission.org/resources/document/1085-locking-up-
family-values-again. Published October 28, 2014. Accessed February 1, 
2019.
---------------------------------------------------------------------------
    4. All immigrant children seeking safe haven in the United States 
        should have comprehensive health care and insurance coverage, 
        which includes access to qualified medical interpretation 
        covered by medical benefits, pending immigration proceedings. 
        Children and families should have access to legal counsel 
        throughout the immigration pathway. Unaccompanied children 
        should have free or pro bono legal counsel with them for all 
        appearances before an immigration judge. As such, the AAP 
        strongly supports the ``Fair Day in Court for Kids Act''.
    5. Because conditions at CBP processing centers are inconsistent 
        with AAP recommendations for appropriate care and treatment of 
        children, children should not be subjected to these 
        facilities.\21\ The processing of children and family units 
        should occur in a child-friendly manner, taking place outside 
        current CBP processing centers and conducted by child welfare 
        professionals, to provide conditions that emphasize the health 
        and well-being of children and families at this critical stage 
        of immigration proceedings.\22\
---------------------------------------------------------------------------
    \21\ Linton JM, Griffin M, Shapiro AJ. Detention of Immigrant 
Children. Pediatrics. 2017;139(5).
    \22\ Ibid.
---------------------------------------------------------------------------
    6. CBP agents, including those who are not trained as EMTs or 
        paramedics and those who work in remote areas along the border, 
        should be trained to know how to identify the signs of a child 
        who is in medical distress and needs immediate medical 
        attention. Ideally, such training would be both on-line and in-
        person. While it may not be possible to provide pediatric 
        medical training to all CBP agents, we can work to ensure that 
        they are better prepared to identify a sick child and to get 
        that child into appropriate care. We must also ensure that CBP 
        provides its agents with necessary basic supplies such as oral 
        hydration, food, first-aid kits, and other supplies that could 
        be life-saving should those agents encounter a sick child. The 
        AAP is pleased to support S. 412, the Remote, Emergency, 
        Medical, On-line Training, Telehealth, and EMT (REMOTE) Act, 
        which addresses many of these recommendations.
    7. The Academy is urging CBP to ensure that all children under 18 
        years of age receive evidenced-based medical screening and care 
        from professionals trained in pediatric care. We must have 
        medical professionals who are trained in the care of children 
        screening and treating vulnerable children who are in the 
        custody of our government. CBP recently released an Interim 
        Enhanced Medical Efforts Directive which states that all 
        children under 18 years of age will receive a health interview 
        and medical assessment. The success of the Interim Directive 
        will be in how it is implemented.
    Children who are identified as needing additional medical care 
        should be immediately referred for evaluation and treatment, at 
        a children's hospital if there is one available. Procedures 
        should be in place to ensure that when children need treatment, 
        they are quickly able to receive appropriate care and have 
        access to professionals trained in the care of critically ill 
        children during transport.
    8. Screening and treatment should occur in the child or parent's 
        preferred language so as to ensure the family is able to 
        understand what is happening and accurately answer questions. 
        This means that trained medical interpreters should be used in 
        all clinical encounters with children and their families.
    9. Sick children, children who have been hospitalized, or children 
        with special health care needs should never be returned to a 
        CBP processing facility. When a child is diagnosed with an 
        illness in a pediatrician's office or is discharged from an 
        emergency room or a hospital, he or she is sent home to recover 
        with plenty of rest and a parent to care for them. Parents of 
        children being detained in CBP processing centers do not have 
        that luxury; rather, the conditions in the centers themselves 
        exacerbate children's suffering, and without medical 
        professionals who understand the signs and symptoms to look for 
        to assess a child's condition, these children are at further 
        risk. A sick child should recover in the comfort of a home or 
        child-friendly setting under the care of a parent or caregiver, 
        not on a cold, concrete floor in Federal custody.
    10. Independent oversight of locations in which children are 
        temporarily housed, detained, or sheltered is critical. 
        Licensure of those locations is important to ensure appropriate 
        care and oversight. As these locations are selected, we 
        encourage DHS and HHS to consider their remoteness as that can 
        impact proximity and access to trained pediatric providers. The 
        AAP has called for a thorough, independent investigation of the 
        Government's detention practices, including the appointment of 
        an independent team comprised of pediatricians, pediatric 
        mental health providers, child welfare experts, and others to 
        conduct unannounced visits to Federal facilities including CBP 
        processing centers, ICE family detention centers, and ORR 
        shelters to assess their conditions for children, capacity to 
        respond to medical emergencies involving a child, and to ensure 
        that immigrant children receive optimal medical and mental 
        health care. These experts need unfettered access to sites 
        where children are held in Federal custody to ensure that they 
        receive suitable care while there.
    11. We must remember that immigrant children are, first and 
        foremost, children. Protections for children in law or by the 
        courts exist because children are uniquely vulnerable and are 
        at high risk for trauma, trafficking, and violence. The Flores 
        Settlement Agreement (FSA) and the William Wilberforce 
        Trafficking Victims Protection Reauthorization Act (TVPRA) 
        provide critically important and necessary protections for 
        children in the custody of the Federal Government. They are not 
        ``loopholes''. They are legal protections that account for the 
        fact that children are uniquely vulnerable and need to be 
        protected. The FSA set strict National standards for the 
        detention, treatment, and release of all minors detained in the 
        legal custody of the Federal Government. It requires that 
        children be held in the least restrictive setting appropriate 
        for a child's needs and that they be released without 
        unnecessary delay to a parent, designate of the parent, or 
        responsible adult as deemed appropriate.
    Pending regulations proposed by DHS and Health and Human Services 
        (HHS) are inconsistent with the FSA by allowing DHS to expand 
        family detention centers, increase the length of time children 
        spend in detention, and create an alternative licensure process 
        that undermines State child welfare laws and basic protections 
        for children. Proposals, such as the pending regulations that 
        would pave the way for the longer-term detention of children 
        with their parents or to weaken Federal child trafficking laws 
        like TVPRA, serve to strip children of protections designed for 
        their unique circumstances. We urge Congress to reject these 
        proposals.
                               conclusion
    As a pediatrician, my professional responsibility is to apply 
science to advocate for and support children's health. Evidence affirms 
that parental separation and family detention are dangerous for the 
short- and long-term health of children.
    It is critical that all children who have been reunited with their 
parents receive appropriate medical care to help them recover from the 
traumatic experience of separation from their families. As a 
pediatrician, I also know that children and families who have faced 
trauma, with trauma-informed approaches and community support, can 
begin to heal. As such, immigrant children seeking safety should have 
access to health care, education, legal representation, and other 
essential services that support their growth, development, and capacity 
to reach their full potential. We must continue to support all 
immigrant children and families seeking safe haven in the United States 
and treat them with dignity and respect.

    Miss Rice. Thank you, Dr. Linton.
    I now recognized Mr. Ballard to summarize his statement for 
5 minutes.

     STATEMENT OF TIM BALLARD, FOUNDER AND CEO, OPERATION 
                      UNDERGROUND RAILROAD

    Mr. Ballard. Thank you, Chairwoman Rice, Ranking Members 
Higgins, and Members of the subcommittee. My intention today is 
to focus on the millions of children who are caught in the 
horrific web of child trafficking. Many of these children are 
sexually exploited as subjects of child pornography and as 
victims of rape for money here in the United States.
    Any conclusions I offer are based on real child trafficking 
cases that I have worked directly on over the past 17 years. I 
started in the CIA and then for 12 years I worked as a special 
agent and undercover operator for Homeland Security 
Investigations.
    Ten of those years I worked combatting sex trafficking on 
the Southern Border. For the last 5 years I have served as the 
founder and CEO of the anti-trafficking organization Operation 
Underground Railroad.
    Working hand-in-hand with law enforcement agencies in 20 
countries and 22 States here, we have rescued over 2,000 
victims and assisted in the arrest of nearly 1,100 traffickers.
    Much of my work has been based on simple economics. The 
United States is one of the highest, if not the highest, 
consumers of child pornography in the world. We are the demand 
for child sex.
    As such, traffickers around the world seek to bring 
children to the United States where they can sell them for sex 
and make a lot of money. My No. 1 personal and professional 
goal has been to keep these children out of the sick hands of 
American pedophiles.
    I want to share one case in which we failed to do this. The 
victim was a foreign-born child around 12 years old, who we 
will call Lily. Lily was kidnapped south of our border.
    She was then taken, along with several other children her 
age, and smuggled into the United States. Not through a port of 
entry but rather through parts of the Southern Border without 
significant barriers.
    Lily's traffickers easily transported her to New York City 
where she and the other children were raped for money; Lily, 30 
to 40 times a day for 5 years. She believes that she was raped 
in New York City over 20,000 times.
    She eventually escaped and my foundation is now caring for 
her as she prepares to testify in Federal court against her 
captors. In accordance with U.S. laws as a survivor of sex 
trafficking in America, Lily has been granted legal status and 
we are helping her complete the process of becoming a U.S. 
citizen.
    The U.S. Attorney's Office has requested that we not 
publicly share any more information until this case is 
completed, the trial is completed, later this year.
    Recounting her experience, Lily has often asked me a simple 
yet profound question. Why was there no wall along the Southern 
Border for me? A wall would have saved me, she says. What is 
she talking about?
    It is very simple, really. During a time of crisis or 
emergency any of us knows to call 9-1-1 because that number 
bridges the gap between bad guys trying to hurt us and good 
guys, police officers, who can help us.
    Lily knows that strong barriers would have likely forced 
her captors to take their chances at a port of entry, thus 
placing her face-to-face with well-trained and well-equipped 
U.S. officers who are specifically looking for her, looking for 
victims of sex trafficking. I would have yelled out to one of 
them, Lily has told me regretfully. Instead, I was raped over 
20,000 times.
    Contrast that case with another case I worked. I was a lead 
agent on this case. The trafficker was an American named Earl 
Buchanan. He kept children, both little boys and girls, in San 
Bernardino, California where he lived and where he repeatedly 
raped them and filmed his rape of these children for his 
pornography collection.
    On the night of July 3, 2006, Buchanan was attempting to 
smuggle a 5-year-old Mexican boy through the Calexico, 
California port of entry. Fortunately for the boy, he was 
coming from the Mexicali, Mexico region which is blocked by 
miles and miles of significant border barriers.
    This compelled Buchanan to take his chances at the Calexico 
port of entry where a U.S. officer had the opportunity to look 
Buchanan in the eye, recognize that something was off, then 
liberate that child and arrest Buchanan.
    This led directly to the rescue of almost a dozen other 
children that were sex victims held by this American monster, 
who will now spend the rest of his life in jail.
    As I compare these two cases and dozens just like them that 
I have added to my written testimony and submitted to this 
committee, my conclusion is that we have a much greater chance 
of catching human traffickers and liberating their victims at a 
port of entry than we do where there is no barrier.
    I have been quite surprised of late to see politicians and 
others who are opposed to building barriers, hail the successes 
of drug seizures and rescues at the ports of entry and using 
those successes to say see? We don't need barriers. We have 
ports of entry. Bad guys come through ports of entries.
    In fact we don't have ports of entry without walls. The 
walls and the barriers are the thing that compelled Buchanan to 
take the child into the port of entry in the first place.
    From his vantage point on the night of July 3, 2006, with 
this poor child captive in his van, he only had one choice, the 
port of entry. That was thanks to barriers that existed where 
he happened to be working his evil works.
    Currently with hundreds of miles of open border, too many 
traffickers have a choice. Sadly, we as a Nation are providing 
them that choice.
    In the end, the boy was liberated and Buchanan was locked 
up. In Lily's case, the traffickers were liberated while she 
was locked up and raped thousands of times in our country. The 
difference? The boy had barriers to save him; Lily did not.
    Paola Felix is a former Mexican Congresswoman and current 
senior Mexican administration official working on anti-
trafficking policies directly from Mexican President Manuel 
Lopez Obrador. I work very closely with her to find children in 
Mexico who are en route to being smuggled into the United 
States.
    Responding to the debate over barriers in this country, 
Felix declared, ``It is very disappointing to me that people in 
the United States would ignore or downplay the many Hispanic 
children being smuggled into the United States outside of legal 
ports of entry and forced''----
    Miss Rice. Mr. Ballard.
    Mr. Ballard [continuing.] ``Into the hell of sex slavery.''
    Miss Rice. Mr. Ballard, I am sorry. You have to wrap up.
    Mr. Ballard. OK. I think my point has been made. I agree 
with all my colleagues on this panel. I just hope we give voice 
to all the other children who are being brought through 
barrier-less parts of the border. We need to focus on them as 
well and help them as well. Thank you.
    [The prepared statement of Mr. Ballard follows:]
                        Statement of Tim Ballard
                             March 26, 2019
    Chairwoman Rice, Ranking Member Higgins, and Members of the Border 
Security, Facilitation, and Operations Subcommittee, it's an honor to 
present this written statement. Human trafficking is real, it's tragic, 
and I am grateful this subcommittee is willing to learn more and to 
understand more about this horrific practice occurring along our 
Southern Border.
    The focus of my testimony will be on the children who are caught in 
this terrible web of human trafficking. Although I will discuss varying 
aspects of trafficking and border security, but I hope we will always 
bring the focus back to helping the rescuing the children who are the 
victims.
    To that end, I strongly desire not to sound political or partisan 
in my tone or my substance. Regardless of ideology or party label, I 
believe every Member of this committee, and good people everywhere, can 
agree that human trafficking is a plague and an evil that must be 
eradicated. Because this is such an important and tragic issue, it's 
not fair and it's not right for these modern-day slaves to be caught in 
the middle of a political battle.
    The conclusions I offer in this testimony are based on my 
professional experience as an anti-trafficking operator and based on 
actual cases that have occurred along our Southern Border. After 
starting my professional career with the CIA, I transferred to the 
Department of Homeland Security. At the DHS, I spent 12 years as a 
special agent and undercover operator for Homeland Security 
Investigations. For 10 of those years, I was combating sex trafficking 
on the Southern Border and became one of the country's foremost experts 
on the issue of trafficking through years of undercover work, research, 
and investigation.
    Since leaving the Federal Government, I have continued the fight 
against human trafficking as the founder and CEO of the anti-
trafficking organization Operation Underground Railroad, or O.U.R. 
Working hand-in-hand with law enforcement agencies around the world, 
Operation Underground Railroad has rescued 1,765 victims and assisted 
in the arrest of nearly 900 traffickers. O.U.R. continues the fight to 
end human trafficking with full-time operations in 20 countries and 22 
States.
    Through my experience as a Federal agent and as CEO of O.U.R., I 
have worked closely with the heads of every U.S. agency whose job it is 
to find and rescue children being trafficked across the Southern 
Border. These agencies under the jurisdiction of the Department of 
Homeland Security include Customs and Border Patrol, Immigration and 
Customs, and Homeland Security Investigations.
    Our Federal agents who work our Southern Border are women and men 
of the highest integrity and dedication. Their efforts protect us daily 
from the myriad of different dangers found coming into our country. Our 
agents exist to protect, not to judge, not to discriminate, and not 
carry out a political motive. They follow the laws they have sworn to 
uphold and they deserve a debt of gratitude from each of us as they 
help keep us safe.
    Part of the job of these Federal agents, as was my job for a 
decade, is to recognize and fight human trafficking. To understand just 
a little about the issue it important to understand that there are an 
estimated 40 million modern-day slaves world-wide with children making 
up an estimated 10 million of these victims.\1\ These children may be 
sexually exploited through prostitution and child pornography, many 
victims are being forced into involuntary servitude, and many are used 
for the heinous practice of organ harvesting.
---------------------------------------------------------------------------
    \1\ Guardian, Feb. 25, 2019.
---------------------------------------------------------------------------
    Traffickers use our Southern Border to bring slaves into our 
country for the sex industry because the United States is one of the 
highest consumers of child sex abuse content in the world.\2\ The 
United States is also one of the wealthiest nations in the world, 
creating fertile ground for child traffickers who are trying to get 
their product to this lucrative illicit market.
---------------------------------------------------------------------------
    \2\ THORN website, Accessed March 4, 2019.
---------------------------------------------------------------------------
    The State Department has reported that roughly 17,500 people are 
smuggled into the United States annually, many of which are women and 
children that are forced into the commercial sex trade.\3\ About 10,000 
children a year suffer the horrors of commercial sexual exploitation in 
the United States.\4\
---------------------------------------------------------------------------
    \3\ Trafficking in Persons Report, U.S. Department of State, June 
14, 2004.
    \4\ Indianapolis Star, Feb. 1, 2018.
---------------------------------------------------------------------------
    The most recent data from the Department of Homeland Security 
should also cause alarm:\5\
---------------------------------------------------------------------------
    \5\ U.S. Department of Homeland Security; DHS Press Release March 
6, 2019, ``Humanitarian and Security Crisis at Southern Border Reaches 
`Breaking Point'.''
---------------------------------------------------------------------------
  <bullet> In fiscal year 2018, ICE made more than 1,500 human 
        trafficking arrests with over 97 percent of those for sex 
        trafficking.
  <bullet> It's estimated that 20,000 children were illegally smuggled 
        in the the United States just during the month of December 
        2018.
  <bullet> Since 2017 there has been a 136 percent increase in illegal 
        immigrants bringing children into the United States illegally.
  <bullet> There has been a 314 percent increase in adults bringing 
        children across the border who are not part of their family 
        unit.
  <bullet> In December 2018 5,121 children were recovered being brought 
        into the United States illegally:
    <bullet> 4,766 of these children were recovered at barrier-less 
            sections of the border outside points of entry.
    <bullet> Only 355 of these children were recovered at points of 
            entry.
    For those of us who are fighting to save children from being 
victims, we should be alarmed. These statistics are staggering and 
paint a realistic and tragic picture of what is really happing along 
our Southern Border.
    Through my decade on the border as a human trafficking expert for 
the Federal Government, I participated in dozens of cases and 
operations that uncovered human trafficking rings and discovered human 
smuggling processes across the border. We were fortunate to rescue many 
victims and I'm proud that we put so many criminals behind bars.
    There are many stories of survivors, those who were rescued, that 
must be told. The experiences of these survivors are horrifying, but 
their stories must be heard to help understand the reality of the 
battle we are fighting and their testimony must be used to help us 
formulate how we will proceed forward to stop the tragedy that is human 
trafficking.
    To fight the human trafficking battle most effectively, we must put 
aside politics. Although critics reject the idea of a physical barrier 
along the Southern Border for a number of different reasons, my 
experience leads me to the conclusion that physical barriers are a tool 
that we must utilize in the fight against human trafficking. Walls, 
barriers, physical deterrents, it doesn't matter what they're called, 
they work. I know they work based on years of experience. Based on my 
professional career in this field, I know that we are more likely to 
effectively fight human trafficking if we close open border crossings 
and drive traffickers to points of entry.
    At our points of entry, trained law enforcement officials have the 
ability to look into the eyes of traffickers and victims. They have 
technology, training, and instinct on their side to identify victims 
and hopefully rescue them.
    One point-of-entry rescue I had the opportunity to be a part of 
took place at the Calexico port of entry. On July 3, 2006, my team and 
I rescued a 5-year-old boy who had been taken by American child 
pornographer Earl Buchanan. Buchanan sexually abused his victims, while 
filming his grotesque acts for distribution. Fortunately for this boy, 
and the 11 other children subsequently received justice from his 
torture, there is a significant border wall between Mexicali, Mexico 
and Calexico, California.
    Buchanan was compelled to take his chances at the Calexico port of 
entry because of a large wall that runs along the border in this 
geographic location. This port of entry is armed with high-tech 
monitoring equipment and well-trained officers. Not surprisingly, 
Buchanan was singled out, arrested, and charged with kidnapping and 
sexual exploitation of a child. He was later convicted of Sexual 
Exploitation of a Child and Criminal Forfeiture (Case 06CR1612-H). The 
boy is now breathing free with a loving family in America, thanks to 
the wall, which did its job by driving Buchanan to a point of entry.
    I compare this case and experience to a survivor who we will call 
``Liliana.'' Because Liliana's case is still pending, the U.S. 
Attorney's Office has requested that we not share too many details 
about this case until the trial is completed later this year, but we 
have been approved to share the following details regarding her 
experience.
    Liliana was kidnapped at age 11 from her village in Central 
America. After 2 years of grooming her for commercial sex, she was 
taken by her captors across the Southern Border at a location where no 
wall existed. This wasn't extremely difficult as approximately 80 
percent of the border is barrier-less.\6\ Lilian's traffickers easily 
transported her to New York City where she was sold and raped for money 
up to 30-40 times a day for 5 years. She eventually escaped this hell 
on earth and my foundation is now caring for her as she prepares to 
testify in Federal court against her captors. In accordance with U.S. 
laws, as a survivor of sex trafficking in America, Liliana has been 
granted legal status and will soon be a U.S. citizen.\7\
---------------------------------------------------------------------------
    \6\ Arizona Republic, Sept. 20, 2017.
    \7\ Victims of Human Trafficking: T Nonimmigrant Status, U.S. 
Citizenship and Immigration Services website, Accessed March 2, 2019.
---------------------------------------------------------------------------
    As we have Liliana and I have discussed her tragic plight and 
reflected on her horrific experience, she recently weighed in with her 
feelings on the current National debate surrounding physical barriers. 
``Had there been a wall for me,'' she declared, ``my captors would have 
been forced to take me to a port of entry. A U.S. officer might have 
seen my distress. I might have yelled out to them. I am currently 
working with Homeland Security agents on my case. I love them. I think 
they would have rescued me at the port of entry.''
    Liliana concluded, ``I know many girls who came in like me . . . we 
know a wall could have saved us . . . ''.
    Would Liliana have been rescued at a port of entry? In the spirit 
of complete honesty and complete transparency, we don't know. But, 
would Liliana have had a greater opportunity to be rescued by trained 
law enforcement had physical barriers pushed her captors to a point of 
entry? The honest answer is ``yes.'' She would have had greater chance 
of being rescued, much like the 5-year-old boy with Earl Buchanan.
    Several anti-trafficking cases I have personally worked along the 
border shine additional light on the issue of physical barriers. In 
March 2011, Homeland Security Investigations (HSI) obtained 
intelligence that U.S. resident Leonel Gonzalez was attempting to 
smuggle children into the United States from Mexicali, Mexico, for the 
purposes of selling them to Americans for sex. Information we received 
made it clear that because of the large wall separating Mexicali and 
the United States, Gonzalez was having a hard time figuring out a way 
to get the children in. HSI preempted his smuggling actions by sending 
undercover operators posing as American traffickers to negotiate for 
the purchase of the children. I personally led the undercover team on 
this operation. Thanks to the wall in place, it bought us time to 
coordinate with Mexican authorities, who arrested the Mexican 
traffickers and liberated the children who were being held in a house 
near the border. The U.S. Government arrested Gonzalez and charged him 
with 18 USC 1591(a) Sex Trafficking of Children (Case 11CR1192). He 
pleaded guilty to Foreign Travel in Aid of Racketeering Enterprise and 
went to jail.
    In May 2012, our team at HSI along with local authorities, rescued 
a 14-year-old girl who had been smuggled into Texas outside of a port 
of entry. The American trafficker who kidnapped her and sold her for 
sex was later arrested and convicted (Case 12CR2259). Unfortunately, 
there was no significant wall or barrier that might have pushed the 
child to be brought through a port of entry, where her chances of being 
rescued before being sex trafficked inside the United States would have 
increased exponentially.
    Based on my experience where there was a wall there was a greater 
chance of a successful outcome for good. With barriers in place, 
traffickers were either pushed to a port of entry or required to be 
stagnate as they planned for entry which created opportunities for us 
to execute operations that rescued children and put criminals behind 
bars.
    These are just a few examples from one operator. There are hundreds 
of agents working the border each day that could also share their 
examples and case studies that would show similar results and outcomes. 
I believe the majority of my former colleagues would agree and their 
assessment of the need for the need of physical barriers would be the 
same as mine.
    Please also note that these cases and examples I have provided span 
through the presidencies of George W. Bush and Barack Obama, hopefully 
illustrating this is not a partisan issue, but a human issue and a 
moral issue. For those of us who fight human trafficking, our desire 
for physical barriers is no stronger today than it was in 2006 or 2012 
or 2016. This isn't a political game to us. It's a matter of life and 
death.
    I'd also like to be clear on this important point. I know that 
smuggling takes place through our points of entry. I know that 
immigration laws are abused, that victims have fake passports and visas 
and airports are used as well for smuggling victims. I realize all of 
this. But, I also know based on my extensive experience along the 
Southern Border, working with every Federal agency that operates there, 
we are much more likely to slow the flow of trafficking into our 
country if it's through a port of entry compared to a barrier-less 
border. And I know that barriers push people to points of entry.
    Paola Felix backs up this claim regarding physical barriers. Paola 
Felix is a former Mexican congresswoman and current senior Mexican 
administration official working on anti-trafficking policies for 
President Andres Manuel Lopez Obrador. After studying what the so-
called experts have said about how a wall does little to stop child 
trafficking into the United States, Felix declared, ``It is very 
disappointing to me that people in the United States who claim to be 
anti-trafficking advocates would ignore or downplay the many Hispanic 
children being smuggled into the United States outside of legal ports 
of entry and forced into the hell of sex slavery. Mexican authorities 
have uncovered at least 19 different land-based smuggling routes where 
victims are taken and trafficked for sex in the United States. 
Downplaying the crisis with disinformation puts our children in grave 
danger. It discourages U.S. officials from employing every tactic 
available to rescue them during the small window of time that they 
can--that is, while they are being crossed into the United States. 
After that they are gone, maybe forever.''
    ``Every tactic available.'' I can't agree with Mrs. Felix more. Why 
wouldn't we use every tactic available to safe children from a life of 
slavery and sexual abuse?
    Another argument for physical barriers is the sexual violence along 
our border that occurs among those who illegally cross barrier-less 
points of entry not under the control of a trafficker, but under the 
direction of a smuggler. A smuggler they have paid to bring them across 
the border, someone these soon-to-be victims are trusting to get them 
into the United States. The New York Times recently reported about this 
issue in a brilliant yet heart-breaking article titled, `` `You Have to 
Pay With Your Body': The Hidden Nightmare of Sexual Violence on the 
Border.''
    The Times accurately reported how migrant women, both young girls 
and grown women, are victims of violent sexual assault along the 
Southern Border often during their journey across the barrier-less 
regions of the border, or when they are picked up after crossing the 
border by smugglers on this side of the border. These women are often 
enslaved, beaten and raped by they very people these women trusted to 
bring them across the border. The Times reports, `` . . . women making 
their way into American border towns have been beaten for disobeying 
smugglers, impregnated by strangers, coerced into prostitution, 
shackled to beds and trees and--in at least a handful of cases--bound 
with duct tape, rope, or handcuffs.''\8\
---------------------------------------------------------------------------
    \8\ New York Times, March 3, 2019.
---------------------------------------------------------------------------
    The stories of these women, who are just searching for a better 
life, are heart-wrenching. One woman by the name of Melvin was locked 
in a room on the U.S. side of the border for weeks where she was 
drugged and sexually abused. Melvin stated, ``I think that since they 
put me in that room, they killed me . . . They raped us so many times 
they didn't see us as human beings anymore.''\9\
---------------------------------------------------------------------------
    \9\ New York Times, March 3, 2019.
---------------------------------------------------------------------------
    Lucy, a 45-year Honduran told how she and other migrant women were 
led into a house in McAllen, Texas. There she was raped repeatedly over 
a series of days by multiple men. Lucy explains that, ``Because I 
didn't want to let them, they tied my feed together and my hands behind 
my back.''\10\
---------------------------------------------------------------------------
    \10\ New York Times, March 3, 2019.
---------------------------------------------------------------------------
    Another 45-year-old, a Guatemalan mother of 4, was kidnapped by 
armed smugglers after already crossing into the United States at 
barrier-less portion of the border. She tried to escape her captors by 
jumping from a car, however she was recaptured and held in a stash 
house for days. There she was raped by 6 men. The victim, Gladys, said 
``I thought it would be better if I died when I fell from the 
car.''\11\
---------------------------------------------------------------------------
    \11\ New York Times, March 3, 2019.
---------------------------------------------------------------------------
    No one should be forced into the hell of sexual slavery or human 
bondage. Nobody should go through what all of these victims have had to 
endure. And based on my extensive experience fighting human trafficking 
both as a Federal law enforcement official and with O.U.R, I believe 
barriers along our border will be able to save children from slavery 
and significantly decrease the horrific sexual assaults along our 
border.
    I believe barriers will be able to save thousands of lives. But 
just for a moment, I'd like to ask anyone reading this testimony to see 
the world through my eyes for a moment and focus on ``the one.''
    Let me explain: I realize that United States Senators who sit on 
this committee represent everyone that lives in their respective 
States. I realize that as Senators consider policy, they must view the 
needs of all 327 million Americans and the country at large.
    But my view to the world is focused on ``the one.''
    What I mean by this is, I know there are an estimated 40 million 
slaves throughout the world. I know that even though I have dedicated 
my life to saving as many as I can, we won't be able rescue all those 
who need rescuing. I know that we can't stop all the attacks and sexual 
assaults. That's the harsh reality.
    But, what keeps me going and what keeps me motivated to fight this 
fight, is this simple fact:
    To the one we do rescue, it means everything to them.
    And ``the ones'' add up quickly. ``Ones'' turn into hundreds and 
hundreds turn into thousands and those thousands can turn into tens of 
thousands of lives saved.
    So as a committee, as a United States Senator, and as a part of the 
human family, as you think about the human smuggling that occur at our 
Southern Border, I would ask you for a moment to please realize, we can 
save thousands, but also don't forget ``the one.'' And to the one we do 
rescue, it means everything to them.
    In conclusion, I would plead with the esteemed Members of this 
committee, especially for those critical and in opposition of physical 
barriers along our border, to honestly consider the years of work and 
the experiences behind my conclusions. I would ask you to consider the 
conclusions of all the anti-child trafficking experts who have worked 
the Southern Border and who support the construction of physical 
barriers based on their extensive experience.
    I will end this testimony as I started this testimony by 
reiterating that this should, in no circumstance, be a partisan issue. 
Human trafficking is a plague and an evil that must be eradicated. 
Because this is such an important and tragic issue, it's not fair and 
it's not right for these modern-day slaves to be caught in the middle 
of a political battle. Let us always keep our focus on victims and 
ultimately do what's right for them.

    Miss Rice. I thank all the witnesses for their testimony.
    I will remind each Member that he or she will have 5 
minutes to question the panel. I will now recognize myself for 
questions.
    Ms. Brane, I want to start with you. Secretary Nielsen 
testified before the full committee of this Homeland Security 
Committee, a couple of weeks ago. She testified that every 
single parent who had been separated from a child had been 
given the opportunity to take their child back with them before 
they were deported.
    She testified that actually they were given that 
opportunity, I believe she said almost an exact quote, on 
multiple occasions. Is that true?
    Ms. Brane. No. I mean, in my experience I have spoken 
directly to parents who actually begged to have their children 
returned with them when they were deported but did not have 
that opportunity. In some cases, parents even signed voluntary 
removals and agreed to leave the country after being told that 
was the only way they would get their children back, and yet, 
they were still deported without their child.
    Miss Rice. So that would not be an accurate, truthful 
statement?
    Ms. Brane. Correct.
    Miss Rice. OK. Now, can you tell me, briefly can you 
explain, I know briefly, but I only have 5 minutes. Can you 
explain the family case management program and can you explain 
what DHS's justification was for ending it?
    Ms. Brane. The program was an alternative to detention that 
involved case managers assigned to families who were seeking 
asylum generally. The case manager worked with the family to 
ensure that they had a place to live, that they knew when their 
appointments were, when their hearing were, maybe connected 
them to pro bono attorneys if they could.
    The program was by all accounts extremely successful. The 
Government itself found that it was 100 percent successful. 
Later studies have found that it was 99 percent successful in 
ensuring appearance to all hearings and appointments. It only 
costs about $35 a day as compared to many hundreds and hundreds 
of dollars for detaining or separating families.
    The administration terminated it early in June 2017 before 
it was intended to end. It had already been sort-of approved 
for many more years. They gave no reason as far as I know.
    Miss Rice. Dr. Linton, before zero tolerance was formally 
announced, what actions did the AAP take to warn the Department 
of Homeland Security about the dangers of family separation?
    Dr. Linton. Given the limited time I will refrain from 
going through the entire time line of contacts, but we, as I 
mentioned in my opening statement, communicated 6 times by 
letter regarding the concerns, as well as a number of 
statements that were made both in the press, as well as letters 
to the Department of Homeland Security specifically expressing 
our concerns beginning as early as March 2017.
    Miss Rice. Ms. Podkul, it is my understanding, and tell me 
if this is accurate, that DHS has not hired any social workers 
or child welfare experts. Is that true?
    Ms. Podkul. I have seen 1 or 2 child welfare workers who 
were hired on contract to work in the Ursula facility, for 
example, when they have a baby there. But it has not been 
consistent and those people are not responsible for any of the 
important screening that takes place.
    Miss Rice. Now, you also stated in your written testimony 
that ICE arrested more than 400 potential sponsors of 
unaccompanied minors. By the way, we know that that is the term 
given to kids who were taken away from their parents. They then 
became unaccompanied minors even though they weren't, for 
charges the agency claimed were related to Federal smuggling 
crimes.
    New subsequent news reports have stated that these charges 
were not, in fact, related to smuggling. Are you aware of what 
these individuals were charged with?
    Ms. Podkul. We are not. Once the potential sponsor was 
taken by ICE and then detained by ICE and put into removal 
proceedings we are not sure what happened to them. What we do 
know is it resulted in children languishing in detention and 
not having anyone to provide care for them, at no cost to the 
Government, while they went through their court process.
    Miss Rice. You also stated in your written testimony that 
migrants must wait months to present their asylum claims at the 
border. Has CBP or USCIS cut back, as far as you know, on the 
number of asylum claims they are processing at legal ports of 
entry? If they have, have they given any justification for 
that?
    Ms. Podkul. I don't know of any justification, but I can 
tell you just last week I was crossing the bridge in 
Brownsville, Texas and the agent who processed me, because I 
had a U.S. passport, said, you know, we used to just let them 
all come in and present themselves, you know? Right behind me 
was a huge encampment of 50 people sleeping in tents on the 
bridge.
    Miss Rice. Dr. Linton, I just want to go back to you 
quickly for the last question. You have observed families and 
children staying in CBP custody longer than the 72-hour limit. 
How long are most families and children reporting being kept in 
CBP holding facilities since October 2018?
    Can you just briefly give us some examples of the health 
implications of staying in those conditions for extended, and 
by the way, we are talking about cages with Mylar coverings, 
sometimes in wet clothing, separated from family members. Can 
you just give us a brief explanation?
    Dr. Linton. Yes, so the children that I care for in the 
community, previously in North Carolina and now South Carolina, 
report stays of anywhere between 2 days and 8 days in CBP 
processing facilities. That is in the past several months those 
are the numbers that I have heard from the families I take care 
of.
    The conditions place the same risks that I discussed in my 
opening statement regarding the risks of toxic stress in the 
short term from being in the conditions of lights being on 24/
7, which is incredibly disorienting, the cage-like fencing that 
extends from the floor to the ceiling and children lying on 
concrete floors with a mat and a Mylar blanket, include 
physical symptoms such as headaches and stomach aches, include 
changes in memory and learning and in the long run, place them 
at risk for complex medical problems such as depression, 
anxiety, heart disease, and diabetes.
    Miss Rice. Thank you.
    I now recognize the Ranking Member for his questions.
    Mr. Higgins. Thank you, Madam Chairwoman.
    America should be reminded that 20 years ago most 
individuals illegally crossing the border were single adult 
males from Mexico. They'd take temporary jobs in the United 
States and send their money home. They'd go back to Mexico.
    Today the majority of apprehensions at the Southwest Border 
are families and unaccompanied children arriving from Central 
America because of a current legal precedent that it is the job 
of this Congress to fix. Unaccompanied minors and members of a 
family unit must be released into the United States after 20 
days to await immigration proceedings.
    As a result, 98.9 percent of families and 98.2 percent of 
unaccompanied children apprehended in fiscal year 2017, who 
originated outside of Mexico, remain in the United States. 
Family apprehensions for the first five units of fiscal year 
2019 are 800 percent higher than the total number in 2013.
    We all concur that we have to take care of the children 
that end up on American soil. But we should agree in a 
bipartisan manner that this is a problem that begins with 
trafficking far south of our border with Mexico.
    Mr. Ballard, based on your experience do you think more 
children are separated in the process of attempting to reach 
our Southwest Border or by our Government once they get here? 
Are they separated from their families before they get here or 
when they get here?
    Mr. Ballard. I don't know exact numbers, but the separation 
of children before they get here is astronomical because we 
have policies that encourage cartels to take children and use 
them in the smuggling process because there is an incentive to 
have a child in your hand because of our current policies.
    So I worry tremendously about these children who are being 
used as pawns. Then you understand the cartels are the ones who 
are doing the smuggling and they are smuggling these children, 
80 percent to 90 percent of them are being recovered outside of 
our ports of entry. They are choosing to go outside.
    What about the ones that didn't get recovered?
    Mr. Higgins. Based on your professional experience, why are 
the children being brought across the Southwest Border between 
ports of entry instead of legally at ports of entry?
    Mr. Ballard. Because our ports of entry are armed with 
well-trained and well-equipped officers who are looking for 
children and looking for cases of abuse.
    Mr. Higgins. Do you concur that enhanced physical barriers 
and enhanced technology to detect attempted crossings along our 
Southwest Border would help victims of human trafficking?
    Mr. Ballard. Absolutely. It would drive them to the ports 
of entry where there are good guys there to help them.
    Mr. Higgins. I am a proponent of addressing this problem 
that we face with an all-of-the-above approach: Technology to 
detect an attempted illegal crossing, enhanced physical 
barriers to delay or deter an attempted illegal crossing, 
enhanced capacity to respond to that illegal crossing by 
increasing boots on the ground, all-weather roads and vehicles, 
and enhanced capacity to process these children of God that do 
end up on American soil after a treacherous and criminal 
journey, we need an enhanced capacity to process these human 
beings.
    It is an incredible challenge because of the change in the 
demographic of the folks that are trying to cross into America 
illegally.
    Ms. Linton, I respect your testimony, Madam, and I respect 
your passion and your love for children. But I would ask you, 
have you interviewed the children that have experienced trauma 
on the journey to our Southwest Border at the hands of criminal 
organizations, coyotes, and human traffickers?
    Dr. Linton. I believe you are referring to me?
    Mr. Higgins. Yes, ma'am.
    Dr. Linton. Correct. So thank you for the question, 
Congressman. I take care of children who have experienced 
trauma in countries of origin and during the journey. At the 
time they arrive on our border is when the trauma should stop.
    What I am witnessing in the kids that I take care of is 
that----
    Mr. Higgins. Do you concur? I have limited time----
    Dr. Linton. They are re-traumatized.
    Mr. Higgins. Do you believe that this Congress should 
provide the professional law enforcement men and women that are 
tasked with securing our Southern Border and protecting those 
who have illegally entered our country and processing these 
human beings, do you believe that this Congress should provide 
the necessary funding that has been requested by our border 
security professionals so that we can protect these children?
    Dr. Linton. As a pediatrician I have prioritized the health 
and well-being of every child in my care, and I believe that 
the trauma should only end when they arrive on our border and 
we should process every child with compassion, dignity, and 
respect.
    Mr. Higgins. I concur, Madam, and I believe that my 
colleagues and I are responsible for providing the needed 
funding for border security in all phases so that we can serve 
these children of God entering our country illegally.
    I think we should stop them before they get here by working 
closely together to provide the needed funding and enhanced 
technology and physical barriers that border security has 
requested.
    Madam Chairwoman, thank you for indulging me. I yield back.
    Miss Rice. Thank you, Mr. Ranking Member.
    I now recognize Mr. Thompson for his questions.
    Mr. Thompson. Thank you very much, Madam Chairman.
    As a father and grandfather I am very concerned with how we 
treat children when they get to our border. We should not 
separate them from their parents. We should not put them in 
cages. We should provide adequate medical and other care that 
they need.
    As Americans, we are a Nation of laws. Our value system 
says that we should take care of people. Our laws say if you 
get here and ask for asylum it is not a go to the end of the 
line or remain in Mexico until your number is called. We have 
to accept you.
    So part of what I hear from the witnesses, the majority of 
the witnesses, is that our system is not adequate. This hearing 
today is to talk about the separation policies and what 
perspectives we see from the border.
    So I think it is clear that we have to fix it. Now for the 
record, we have never provided any less money than the 
Department has ever requested for anything. So it has never 
been that we haven't provided the money. We have always 
provided the money.
    There are some 5,000 vacancies right now within CBP because 
Congress has been generous to fund them. We just have not been 
able to employ the people to do that.
    So I think we need to at least put on record that if the 
children of God get to this border we have to clearly take care 
of them. Children should not be used as anything other than who 
they are, human beings.
    So Dr. Linton, you have had experience with it. So is it 
your testimony before this committee that with the present 
policies in place children have a higher percentage of issues 
because the policies are inadequate and that those 67,000 
members of your organization have already been on record 
expressing their concern?
    Dr. Linton. The American Academy of Pediatrics has 
expressed concerns about the current policies at the border 
that include separation of children from their parents without 
clear recognition that that child is at risk at the hand of the 
parent and without determination by a family court that that is 
justified.
    We are on record with our concerns about detention and 
family detention centers. We are on record with concerns 
regarding the conditions in the current Customs and Border 
Protection processing centers.
    Mr. Thompson. So for the record, those 6 letters, did they 
get responded to?
    Dr. Linton. We have had no meaningful engagement with DHS 
regarding family separation.
    Mr. Thompson. Will you provide the committee with copies of 
those 6 letters that you sent to DHS?
    Dr. Linton. Thank you, Congressman. I would be happy to 
provide the committee with any record of the communications we 
have had with DHS.
    Mr. Thompson. Thank you very much.
    Ms. Brane, you have had experience working with migrants' 
rights and justice. What is your opinion of the present system 
with respect to family separation at the border?
    Ms. Brane. Well, I am extremely concerned that even after 
everything that we have described here today and all the public 
outcry, Congressional outcry and orders from a court, from 
Federal court, to my knowledge, there is still no system in 
place for tracking the separations of families.
    We still, as Ms. Podkul testified, have seen families who 
are separated without proper information being given about why 
or any plan for how to reunify if that ends up being the proper 
outcome.
    Mr. Thompson. Thank you.
    Madam Chair, I think at the hearing you referenced we asked 
the Secretary to provide us some data on how many children we 
had in custody and what have you. It is my understanding that 
we have yet to receive the formal reply.
    So I would like to go on record reaffirming the committee's 
interest in getting the information so if we have to do 
legislation we at least need to know from a statistical 
standpoint what we are addressing.
    Miss Rice. I agree, Mr. Chairman.
    Mr. Thompson. Thank you. I yield back.
    Miss Rice. Thank you.
    The Chair recognizes for 5 minutes the gentlewoman from 
Arizona, Mrs. Lesko.
    Mrs. Lesko. Thank you, Madam Chairwoman. First for the 
record, I want to say when Secretary Nielsen came here she 
testified that of the children that were separated from their 
families under the zero tolerance policy only 6 children 
remained in ORR custody and there were legitimate reasons for 
that.
    I do want to get to this, and I think all of you have 
compelling testimony. But I think what we are missing here is, 
what is the root of this problem? What is the cause of this 
problem?
    I contend the cause of this problem is our loose 
immigration laws. Laws that are asylum laws that actually 
incentivize migrants to travel thousands and thousands of miles 
to get here with their children.
    So my question actually, and I just want to add that 
Secretary Nielsen testified that these cartels are paid $6,000 
a person to come here. It is caused partially by our loose 
asylum laws that incentivize people to come here.
    So my question to Ms. Podkul, would you support legislation 
that would revise our asylum laws so that this incentivization 
of cartels to bring children and women here that are getting 
raped, would you agree with legislation to curtail that?
    Ms. Podkul. I think it is really important that we maintain 
the protections that we have in our system now. What I would 
support is increased refugee processing in home country. There 
are a lot of kids who might be able to ask for protection in 
their home country and we could revise their case and that 
would avoid them having to make the dangerous journey here.
    Mrs. Lesko. Thank you.
    Mr. Ballard, thank you for your testimony. I guess from 
your experience I would like to know if you could contrast the 
treatment of children by cartels and smugglers as they are 
traveling thousands of miles versus the treatment they get once 
they get to the border and they are in United States' hands?
    Mr. Ballard. Yes. Well, I will answer that by saying, 
again, I agree with this panel, with my colleagues here, and in 
no way would I want to, you know, distract or detract from the 
plight of these children and what they are going through that 
are recovered.
    However, from my experience talking to the children who 
didn't get recovered, who are largely, I think, are being 
ignored in this overall debate, I just gave you an example of 
one who was raped 20,000 times.
    So she----
    Mrs. Lesko. Awful.
    Mr. Ballard. They went through hunger and loneliness and 
all these horrible things outside of the care of CBP because 
they never got that opportunity. Instead, they were taken to 
the pedophiles of America and raped and abused in this way.
    We are working on several cases like this that our 
prosecutors are prosecuting these trafficking rings right now. 
You know, the cartels you have to go to a cartel to smuggle. So 
in some cases your best case, as bad as it is, your best case 
is you get recovered by CBP, and it can be bad because of our 
policies that need to be fixed.
    But much worse than that is the cartels flip them into a 
trafficking victim, which they do. We have reports of this. 
They abuse these children. They get them past the ports of 
entry and sell them for sex to our American pedophiles. We have 
to talk about this as well.
    Mrs. Lesko. Thank you.
    My next question is for Ms. Podkul. I believe you said in 
your testimony that you don't agree that our Government when 
they are vetting the sponsors of unaccompanied children, that 
if they find out that these sponsors are here illegally and 
that some of them may have committed crimes as well, that that 
should be turned over to ICE. Is that what you testified?
    Ms. Podkul. My point is when ORR does the vetting of 
sponsors what they are looking for is someone who is going to 
be safe and who is willing to care of that child while they go 
through our enforcement process. That is the priority.
    So when ORR is looking at information, that information 
should really focus on the child welfare. I think ICE has its 
own mission of immigration enforcement but using children as 
bait for immigration enforcement is what I am concerned about.
    I think ICE needs to figure out how they want to prioritize 
their limited resources and that ORR should stay in its lane 
and really focus on its mandate that Congress gave it, which is 
to prioritize child welfare and make sure----
    Mrs. Lesko. So excuse me.
    Ms. Podkul [continuing]. Kids go through the courts.
    Mrs. Lesko. So then that is a yes, that you don't want our 
Government, ORR, to basically if they find out that the sponsor 
is here illegally or has committed a crime to turn that over to 
authorities, correct?
    Ms. Podkul. I believe that information should not be used 
for immigration enforcement purposes. ORR should be making 
their decision based on what they think is in the best interest 
of the child. Then ICE has its own job to conduct and 
prioritize its own resources.
    Mrs. Lesko. Thank you.
    Miss Rice. So I just want to say, you know, I think it is 
important that we not conflate these two issues. Family 
separation is a completely separate issue from human 
trafficking.
    Everyone who is sitting up here wants to address the issue 
of human trafficking, and I would, with the Chairman's 
indulgence, maybe in the future we could do a panel on that. 
But I think it is disingenuous to conflate the two when they 
really have nothing to do with each other.
    Not every family unit that presents itself at a port of 
entry or in between a port of entry is a human trafficker. So I 
just think we need to make that clear.
    The Chair recognizes for 5 minutes the gentleman from 
California, Mr. Correa.
    Mr. Correa. Thank you, Madam Chair and I thank the Ranking 
Member as well for holding this most important hearing. I would 
concur with you, Ms. Rice, that family separation, let us not 
mix that with other issues.
    I think family separation is part of implementing a policy 
of keeping refugees away from this country. When we talk about 
loopholes that is really the law of the United States, which is 
our refugee law. You know, by separating families we are 
essentially saying don't come.
    I just got back from Tijuana where I spent a few days 
looking at the refugee camps. What I found, Mr. Ballard, what 
you said about those sex victims, those children, you haven't 
even started to scratch the surface.
    I saw girls as young as 4 years old being trafficked and in 
those brothels big, big business. Customers are the Americans 
coming across the border and doing whatever it is that they are 
paying to do. One young girl, 6 years old, for $100 a night, 
she was used at brothels as much as they could use her. 
Terrible. You see this story repeated over and over again.
    But let us not get caught up in the weeds here because a 
lot of refugees now in Tijuana, Mexico, a lot of non-
governmental organizations going in to help, the churches, not 
only Catholic but others, other NGO's. You have got refugees 
from all over the world, OK?
    You are not seeing this on the television sets anymore 
because a lot of them are essentially becoming very invisible, 
starting to get jobs in the area. But refugee crisis will 
continue to be the case.
    I will tell you how much our Government is not really not 
recognizing this issue. Do you know what happens? You can walk 
up to the border and say I want to claim refugee status. Do you 
know what happens? There is a book. There is a book.
    I walked up to them. I walked across the border, said, I 
want to come in. I want to see where that book is. I said, Who 
keeps this book? Nobody would answer the question.
    I asked the U.S. consulate. I asked the Mexicans. Who keeps 
this sacred book? Nobody could answer. When I asked the U.S. 
consular general there she said we have no jurisdiction in 
Mexico.
    Bottom line is a bunch of folks keep a book. If you walk up 
and say I want refugee status they will give you a number and a 
piece of paper and say come back when we call you.
    This is about a legal process, a U.S. legal process that 
starts with somebody that has been unappointed, somebody out of 
the blue that is keeping this book.
    I am running out of time, but Madam, I also, 2 weeks ago, 
went into Central America. I visited Guatemala, Honduras, El 
Salvador. The president of Honduras told me, Lou, the reason we 
have so many refugees is folks are looking for hope. They are 
looking for a job.
    Says, the U.S. exports three things to this area: Drug 
money, gangs, and weapons. When I went and I started to visit 
their centers of training their youth to get a job in the area 
so they could have hope, that is what it is about.
    I believe that contrary to my vote, contrary to my wishes, 
the President will build a wall between us and Mexico. I 
predict in 5 to 10 years we will be back debating the issue of 
drug smuggling and refugees. The bottom line is in Latin 
America today we have a refugee crisis.
    It is Central America right now. We haven't even begun to 
look at Venezuela. There are about 2 million to 3 million 
Venezuelans right now in South America under refugee status.
    Until we figure out in this country that for the last 200 
years under President Monroe's famous Monroe Doctrine, we told 
the world the Americas are our jurisdiction. Stay away. The 
problem is we didn't finish our job: 1823, Monroe Doctrine, 200 
years we forgot to administer. We forgot to work Central 
America on the economic side.
    Madam Chair, this is not going away. We will build a wall. 
We will address security in this country, but it is not going 
to stop Fentanyl from coming in from China, cocaine from 
Colombia, and heroin from Mexico because there is just too much 
money in the business that will corrupt Mexicans. It will 
corrupt Canadians the way it corrupts Americans.
    Finally, let me say when it comes to the issue of mixing 
refugees, drugs, cartels, it doesn't work. The president of 
Honduras told us that those big groups of folks coming over, 
OK, they are organized essentially by the same folks, because, 
like, one of our colleagues said, it is not $6,000. It is 
$6,000 to $10,000 per person that they will charge you to 
smuggle you to the United States.
    The way you get a discount is you all work together, you 
get together and you walk a few hundred miles to get to the 
United States. Then when they get here they find out that there 
is no line to come into the United States so they stay in 
Mexico. They stay in Tijuana.
    Madam Chair, I would love to talk to you about my journeys 
to Central America this last month, but that is in another 
story in another time. I yield the remainder of my time.
    Miss Rice. Thank you, Mr. Correa.
    The Chair recognizes for 5 minute the gentleman from 
Mississippi, Mr. Guest.
    Mr. Guest. Thank you, Madam Chairman.
    Mr. Ballard, first I want to thank you for your service to 
your country, both in CIA and working for the Department as it 
relates to the work you have performed across our border.
    Two weeks ago, Secretary Nielsen was here. During her 
testimony before this committee she classified the current 
conditions along our Southwest Border and she said that she 
believed that there was a human trafficking crisis. Do you 
agree with her assessment?
    Mr. Ballard. Yes, I do.
    Mr. Guest. She also testified that she believed that there 
was a drug trafficking crisis. Do you believe that her 
assessment that there is a drug trafficking crisis across our 
Southwest Border?
    Mr. Ballard. Yes, I do.
    Mr. Guest. Finally, she testified that she believed that 
there was an immigration crisis along our border. Do you 
believe that as well?
    Mr. Ballard. Yes, I do.
    Mr. Guest. Now, I want to focus, Mr. Ballard, and the other 
witnesses, just specifically here today on human trafficking. 
You in your report I believe you properly describe human 
trafficking. You say, human trafficking is a plague and an evil 
that must be eradicated.
    Because this is such an important and tragic issue it is 
not fair and not right for these modern-day slaves to be caught 
in the middle of a political battle. Then throughout your 
testimony you set forth what you believe is a method in which 
we can combat human trafficking.
    You say on page 7 of you report, you say that barriers 
along our border will be able to save children from slavery and 
significantly decrease the horrific sexual assaults along our 
border.
    You say on page 6 of your testimony, based on my extensive 
experience along the Southwest Border, working with every 
Federal agency that operates there, we are much more likely to 
slow the flow of trafficking into our country if it is through 
a port of entry compared to a borderless border. I know that 
barriers push people to points of entry.
    On page 5 you say, with borders in place traffickers are 
either pushed to a port of entry or required to be stagnant as 
they plan for entry which creates opportunities for us to 
execute operations that rescue children and put criminals 
behind bars.
    Then finally on page 4 you say, I know that we are more 
likely to effectively fight human trafficking if we close open 
border crossings and drive traffickers to ports of entry.
    Mr. Ballard, is it your testimony that if we close our 
borders and we funnel all traffic through the ports of entry 
that you, based upon your experience and the work that you have 
done, you believe that this will be an effective tool in 
fighting our battle against human trafficking? Is that correct?
    Mr. Ballard. That is correct.
    Mr. Guest. I want to ask the other witnesses on this panel, 
Dr. Linton, and again, we are talking just on the human 
trafficking portion of this hearing. Do you believe that if 
individuals are forced to enter the country through ports of 
entry that we will be more effective in our ability to identify 
and fight human trafficking?
    Dr. Linton. As a pediatrician I can only comment that we 
support the protections as outlined in the Trafficking Victims 
Protection Reauthorization Act or TVPRA, that would recommend 
screening all children for human trafficking. But I can't 
comment on border security, thank you.
    Mr. Guest. All right. Would we have a more effective 
approach of screening all children that are entering if they 
are entering through a port of entry versus entering across the 
unsecured portion of our border?
    Dr. Linton. The majority of children that I take care of in 
my clinic are presenting themselves and asking for asylum when 
they arrive at our border.
    Mr. Guest. Same question to you, Ms. Brane. Do you believe 
the same thing, that if we are able to have individuals come 
across through ports of entry versus the unsecured portion of 
the border that we will do a better job?
    Again, I am focusing only on human trafficking. So I just 
want to make sure that we are not clouding one issue with the 
other. Both are very important, but my questions are relating 
specifically to human trafficking. Do you believe that that 
would help us in our fight against human trafficking?
    Ms. Brane. Absolutely, and that is why I very strongly 
believe that we need to stop turning children away who present 
themselves at ports of entry. We currently have a system in 
which this administration is turning away people from ports of 
entry and telling them to wait or go away. That is resulting in 
driving them into much more dangerous situations and risk of 
trafficking.
    Mr. Guest. All right, but as far as what we are talking 
about or what specifically I am talking about, is where we have 
individuals who are bringing children into our country for the 
purpose of using them in the sex trafficking.
    This human trafficking I believe, and I agree with Mr. 
Ballard, and I think each of the three of you would agree that 
anytime that one child enters the country and is forced into 
prostitution that that is a tragedy. That is a crisis and that 
is something that we as a country should do everything within 
our power to stop.
    So I want to thank each of you for appearing before you 
today. I want to thank each of you for your testimony.
    Madam Chairwoman, I yield back.
    Miss Rice. OK. Thank you, Mr. Guest.
    The Chair now recognizes for 5 minutes the gentlewoman from 
Illinois, Ms. Underwood.
    Ms. Underwood. Thank you, Madam Chair. I am a nurse so when 
Secretary Nielsen testified 3 weeks ago I asked her about how 
family separation impacts children's health. When I asked her 
she claimed to be unaware of basic facts on the subject, like 
the concept of toxic stress.
    I found it totally unacceptable that she came to the 
hearing completely unprepared to answer basic questions like 
the number of children currently in detention. She couldn't 
even tell us a time line of the investigations into the deaths 
of Felipe and Jakelin, the 2 children who died in CBP 
custodies.
    So it has been almost 3 weeks and she looks all of us, the 
Members on the committee, in the eye and promised to provide us 
with all kinds of follow-up information, but I have yet to 
receive any word or follow-up from her office.
    From a medical perspective, if you wanted to purposely 
design a policy to be cruel to hurt children, you would design 
it to look a lot like this administration's family separation 
policy.
    So my questions are for you, Dr. Linton. Thank you for 
being here. You are here representing the American Academy of 
Pediatrics and so when Secretary Nielson was here she claimed, 
again, to be unaware of this toxic stress. But you are a 
pediatrician and so if you were on the panel with her how would 
you explain toxic stress?
    Dr. Linton. Thank you, Congresswoman. Toxic stress is 
serious, prolonged stress in the absence of a buffering support 
of a parent or loving caregiver. What we know about stress is 
that each of us responds to stress. I am stressed right now. My 
heart is racing.
    [Laughter.]
    Dr. Linton. I probably have goosebumps. That is what we 
call tolerable stress. So there is positive stress, which is a 
wedding, very stressful but exciting, wonderful. There is 
tolerable stress where I have the loving support of my family 
to cope with. And there is toxic stress.
    The family separation policy that was implemented by this 
administration was a form of toxic stress, which we know 
threatens the short- and long-term health of children.
    Ms. Underwood. Can you describe for us the impact of family 
separation on the child's physical health?
    Dr. Linton. Yes. So we know that toxic stress in the short 
term can cause changes in body function, so children may have 
changes in their eating. They may not be hungry. Children will 
frequently have difficulty sleeping. They may wet the bed or 
even soil themselves.
    They may have physical symptoms, headaches. They may have 
stomach aches. Their immune response is lowered when there is 
cortisol running through their bodies for such a long period of 
time so they would be maybe more susceptible to infection in 
that setting.
    They also in the long run are at serious risk for problems 
such as depression, heart disease, diabetes----
    Ms. Underwood. OK.
    Dr. Linton [continuing]. Post-traumatic stress disorder.
    Ms. Underwood. Yes. So some of those you described are 
emotional and mental health challenges. So can you explain how 
those can be both immediate and long-term?
    Dr. Linton. Yes, thank you. So in the short-term you can 
see mental health difficulties both in terms of behavior, so 
you may have children who are frightened. They startle easily. 
They are afraid to separate from a loved one or a caregiver. 
They may be withdrawn. They may be depressed. They may be 
anxious.
    Developmentally we see changes like developmental 
regression. So a child may not be able to speak in the same way 
that they could speak before. So I have seen children who have 
faced situations of toxic stress who lost their speech 
milestones.
    We may see children have difficulty with memory. We may 
have children that are not able to pay attention, what looks 
like attention deficit hyperactivity disorder is, in fact, 
toxic stress and then the ability to concentrate.
    In the long run with those kind of chronic responses we may 
see that children are at risk for depression, anxiety 
disorders, and post-traumatic stress disorders, to name a few.
    Ms. Underwood. Thank you. So as you mentioned in your 
testimony, the toxic stress can cause permanent changes in the 
child's brain. So you talked about some short-term, medium- and 
long-term impacts, but can you discuss the brain changes that 
we might expect to see?
    Dr. Linton. Absolutely. So what we know about toxic stress 
is that when you have hormones that are not supposed to be 
running through the body all of the time, like cortisol, we 
know that they can disrupt the architecture of the developing 
brain. I can provide you with our policy statements on toxic 
stress for the record if that would be helpful, to go through 
the neuroplasticity and the neurobiology of toxic stress.
    But what we see in behavior so that we see that children, 
as a result of those brain changes, have these behavioral 
symptoms, have these physical symptoms, have these emotional 
symptoms and over time are at very serious risk for chronic 
illness.
    Ms. Underwood. Well, thank you, ma'am, so much for your 
work in the community and for your work with these children, 
who I am sure appreciate the therapeutic interventions that you 
and your colleagues do provide.
    I also would like to thank the American Academy of 
Pediatrics for speaking out so boldly and with a clinical, 
evidence-based grounding in response to this National policy 
that has been rolled out that goes against American values in 
so many ways. Thank you for appearing here.
    Madam Chair, I yield back my time.
    Miss Rice. Thank you, Miss Underwood.
    The Chair recognizes for 5 minutes the gentlewoman from New 
Mexico, Ms. Torres Small.
    Ms. Torres Small. Thank you all for being here on this 
important issue. Family separation should never be a solution 
for our broken immigration system. It is immoral. We know it 
results in traumatic and lasting effects on families, 
particularly the children.
    Unfortunately, DHS continues to separate families at the 
border, even though the administration officially ended its 
family separation policy last June.
    Ms. Podkul, under what circumstances is DHS continuing to 
separate a child from their family?
    Ms. Podkul. We don't know. CBP does not always give 
information about why they conducted the separation, what 
standards they decided to use and oftentimes they are doing it 
with no justification at all.
    Ms. Torres Small. Dr. Linton, in your earlier remarks you 
discussed recommendations for what to do regarding narrow 
circumstances involving danger to a child. Does the DHS ever 
communicate specific guidelines on how they would make such a 
determination?
    Dr. Linton. To my knowledge those guidelines do not exist 
and we would recommend that there be strict policy guidance 
that separation should never occur unless the safety of that 
child is at risk at the hand of the parent and a competent 
family court makes the decision, just like we do with every 
other child when we have to consider whether they should be 
separated.
    Ms. Torres Small. How many children have been separated 
from their parents since the termination of the 
administration's zero tolerance policy?
    Dr. Linton. I know what we know from the reports from the 
OIG that we believe there were thousands more separated than 
the nearly 3,000 that we know about. But I am not able to 
comment beyond what has been reported publicly.
    Ms. Torres Small. Does anyone else have any better idea?
    Ms. Brane. Well, as I have said before, we don't know 
because they are still not keeping track.
    Ms. Torres Small. Dr. Linton, as a Member representing a 
border district I have seen first-hand that CBP facilities are 
not meant to handle the influx of children and families that we 
are currently seeing.
    You discussed previously some recommendations for screening 
and follow-up care. How do you suggest CBP change its policies 
to adapt to the rise of family units and to ensure that these 
families are provided with quality medical care?
    Dr. Linton. I believe that every child who presents to our 
border upon arriving, having fled conditions of trauma in their 
countries of origin, and as we have discussed, may have faced 
trauma during the journey, the trauma should stop.
    So we should have every child have access to being 
processed in child-friendly facilities, which is not the case 
of current CBP processing facilities. Children should have 
access to screening, comprehensive medical screening, mental 
health services, and should also have legal representation so 
that their cases can be fairly heard.
    Ms. Torres Small. Thank you. It is my understanding that 
when parents are separated from their child that they aren't 
being provided reasons for the separation. What is CBP's 
process for notifying parents that they will be separated?
    Dr. Brane.
    Ms. Brane. To my knowledge there is no process and there 
continues to be no process. So it would be great to hear if 
they are developing something, but I have not heard of any 
plans to do so.
    Ms. Torres Small. Thank you. Are you aware of whether 
parents are given an explanation or any information?
    Ms. Brane. Generally from the cases I have heard of they 
have not, but again, I think that is on an individual basis. 
There is no policy in place so it may be inconsistent.
    Ms. Torres Small. Do you know what process parents can use 
to appeal the separation, particularly to explain charges on 
their criminal record issued by the government from which they 
are fleeing?
    Ms. Brane. To my knowledge there is no process.
    Ms. Torres Small. Given what you have seen from separated 
families, do you have recommendations on how this process could 
be improved?
    Ms. Brane. Developing any process would be a step forward. 
We have made several recommendations to the administration on 
how they could develop better policies. One of the most 
important is putting child welfare professionals at Border 
Patrol stations and ports of entry to help with the screening 
and the care and the processing of these children.
    Ms. Podkul. If I may add, I mean, this sounds a little 
basic but even just keeping track of the separations and 
ensuring that the information goes to both the child and the 
parent so that they can maintain communication.
    What we see is a child can't oftentimes move forward with 
their legal case because it is the adult who has all the 
information about their case, has the documents that are 
necessary, has important information.
    Even when they have been able to keep track of the 
separations it is taking longer than a week to make sure that 
the child and the parent can speak again after the separation.
    Ms. Brane. If I could just add, I think what is really 
critical here is that there are some really basic common-sense 
steps that could be taken that have not been taken.
    Ms. Torres Small. Basic steps to save children and their 
families. Thank you. I yield the rest of my time.
    Miss Rice. Thank you, Ms. Torres Small.
    The Chair recognizes for 5 minutes the gentlewoman from 
Texas, Ms. Jackson Lee.
    Ms. Jackson Lee. Let me thank the Chair and the Ranking 
Member for their courtesies. I really do appreciate it. My 
commitment to this committee is such that allowing me to 
question is much appreciated. Thank you so very much.
    Let me thank all of the witnesses who are here. A little 
background, I am also on the Judiciary Committee and remember 
in desperate times the formulation of this policy to transfer 
the holding of children from the detention process of the 
immigration agencies in order to protect them.
    With that in mind, we had no vision of thousands of 
children being held in facilities separated from guardians, 
parents, and others. I had the non-privilege of being at the 
border in the first coming of children unaccompanied, literally 
holding babies coming off buses. That is how desperate parents 
were, 2-year-olds, and this was no humor for the parents or no 
opportunistic opportunity for them.
    Then I recently was in a very limited return of children to 
parents just in the last year during this recent thing. To each 
of you I am setting this precedent so you can see this 
landscape for you.
    As we were in the room there was not a dry eye, but here is 
why the eyes were not dry. Because if you are a parent you want 
nothing more than to protect your children and for your 
children to see you as a protector.
    So these children had come and they were playing with 
pretty, pretty toys and that mother would come in with a 
pillowcase of her belongings to come up to a 7-year-old, 8-
year-old and to stand there and watch them play, sort-of 
waiting for them to look up to acknowledge.
    As they looked up and acknowledged there was no reaction 
from the children. There was no breaking away and running 
toward this desperate mom who had come, had been through so 
much and had this pillowcase. I can see it right now. For those 
of us who are parents the worst thing you can imagine is the 
disassociation of your child from you, the break of the bond.
    So my question that I just came out of the Budget Committee 
to ask the deputy secretary of how many children there are 
right now? There are about 12,000 children being held. They are 
asking for $2 billion to deal with this.
    So I am going to Ms. Podkul and Ms. Brane and Dr. Linton, I 
come from Texas Children's Hospital territory and work a lot 
with pediatricians, but give me your sense of how this 
committee in its jurisdiction and all the other committees can 
be effective in trying to get children united with their 
parents, but more importantly, the effect?
    I only have 1.35, so I am just going to call on you and 
just make your quick points that you made, but I just need to 
hear it again.
    To Mr. Ballard, let me thank you. I have been a supporter. 
I don't know if you are talking about the underground railroad 
with Harriet Tubman, but in any event, certainly that was a 
historic moment in history.
    But I am just going to ask Dr. Linton and Brane and Podkul 
based upon what I have given you. Thank you. Now it is down to 
1.12, forgive me.
    Dr. Linton. Thank you, Congresswoman. I think the committee 
has an opportunity to ask for accountability in the processes 
that include family separation, ensuring that no child is 
separated without being at risk at the hand of a parent, as 
well as safe conditions in Border Patrol Protection processing 
centers, and not using detention as a solution.
    Ms. Jackson Lee. Health care at those facilities, would 
that be helpful?
    Dr. Linton. Health care should be available to every child 
who comes to our border and enters this country.
    Ms. Jackson Lee. On-site. Thank you, Doctor.
    Yes, Ms. Brane? I hope I am pronouncing your name right.
    Ms. Brane. In addition to what Dr. Linton stated, I would 
say child welfare professionals at ports of entry and Border 
Patrol stations, facilities that comply with child welfare 
standards and licensing standards and a system for tracking and 
sharing information.
    Ms. Jackson Lee. Thank you.
    Ms. Podkul.
    Ms. Podkul. You know, these are all changes that we have 
been recommending today that could be done today. They could be 
done by COB today, so I think this committee, you know, 
conducting oversight on the agencies to ensure that they are 
put into place is going to be very important in terms of making 
children safe.
    Ms. Jackson Lee. I have a second. Can someone comment on 
the separation factor that I just described when the children 
did not respond to that parent that came into the room?
    Ms. Linton.
    Dr. Linton. When children are separated from their parents 
it is profoundly traumatizing to them and sometimes takes them 
time to heal from the trauma that was imposed by our policy of 
systematically separating them. Every child should be with his 
or her loving and supportive parent unless that child is at 
risk at the hand of the parent and the family court determines 
that that child is not safe with that parent.
    Ms. Jackson Lee. Thank you.
    Madam Chair, thank you and I yield back. Thank you very 
much.
    Miss Rice. Thank you, Ms. Jackson Lee.
    I recognize the Ranking Member for 2 minutes.
    Mr. Higgins. Thank you, Madam Chairwoman. I would like to 
remind all concerned Americans that our law enforcement 
professionals on the border are dealing in many cases with 
families that are self-separating before they get to our 
Southwest Border.
    We also have quite a significant concern with fraudulent 
family units. It is very challenging for law enforcement to 
deal with. As Americans with love and compassion for their 
children, these guys are doing their best. We need to provide 
them the funding that they requested.
    My colleague stated earlier that family separation is 
immoral. Ms. Podkul, you stated in your submitted statement 
that family unity is a fundamental human right.
    Ms. Brane, you stated that family separation policy is an 
extremely important matter that profoundly affects the lives of 
vulnerable migrant and refugee children and families. I think 
we would all concur that this is a serious concern.
    I would ask you, Ms. Brane, have you interviewed any of the 
children, that 750,000 to 800,000 children, American children, 
that are separated from their parents that are incarcerated in 
American jails?
    Ms. Brane. I have not done so professionally, no.
    Mr. Higgins. So----
    Ms. Brane. Other than----
    Mr. Higgins. But you have interviewed many immigrant 
children?
    Ms. Brane. I have interviewed many immigrant children.
    Mr. Higgins. All right. I would remind America that there 
are approximately 750,000 to 800,000 American families 
separated because their----
    Miss Rice. With all due respect, Mr. Ranking Member----
    Mr. Higgins [continuing]. Parents have committed crimes.
    Miss Rice. I yielded the time because I thought it was 
gonna be on a relevant issue. It is not so we are going to end 
here.
    I thank the witnesses for their valuable testimony and the 
Members for their questions. The Members of the subcommittee 
may have additional questions for the witnesses and we ask that 
you respond expeditiously in writing to those questions.
    With that, I ask unanimous consent----
    Mr. Higgins. Madam Chairwoman, I have a unanimous consent 
request.
    Miss Rice. Yes.
    Mr. Higgins. I ask unanimous consent to enter into the 
record the remarks of Secretary Nielsen from our recent full 
committee hearing regarding the specific circumstances where 
family separations may occur, very narrow and specific. I ask 
unanimous consent it be entered into the record.
    Miss Rice. You want the entire statement?
    Mr. Higgins. Well, I believe it is appropriate to enter her 
written statement which includes the details I am referring to.
    Miss Rice. Oh, yes. Yes, because that will be taken also 
together with the testimony that she actually gave orally 
before this committee, which I think is just as relevant. So 
yes, that we will do.
    [The information referred to follows:]
         Excerpt Submitted for the Record by Hon. Clay Higgins
    [sic] may be connected with the Saudi government.
    Madam Secretary, is this really happening, No. 1? Will you commit 
to provide this committee any and all documentation of this program, 
including training materials being shared with the Saudis and who is 
being trained?
    Secretary Nielsen. We are happy to provide you materials, ma'am, 
and come brief you. I am happy to have the TSA administrator----
    Mrs. Watson Coleman. All right, how long would I have to wait to 
get this information?
    Secretary Nielsen. That I can't answer, but what I can do is get 
you an answer today as to when we could be able to provide that to you.
    Mrs. Watson Coleman. Thank you. I don't know if I asked this--I was 
talking so fast. Do you continue to separate parents from children as 
they are coming across the border?
    Secretary Nielsen. In three instances, when the child is at risk, 
the adult accompanying them is not a parent or guardian, and the third 
instance is when the parent needs to go to a custodial environment.
    Mrs. Watson Coleman. So are any of these coming at the port of 
entry, seeking asylum?
    Secretary Nielsen. Some of--sure. Some of them might be claiming 
asylum, yes, ma'am.
                                 ______
                                 
            Prepared Statement of Honorable Kirstjen Nielsen
                             March 6, 2019
    Chairman Thompson, Ranking Member Rogers, and distinguished Members 
of the committee: It is an honor to appear before you today.
    I want to start by thanking the men and women of the Department of 
Homeland Security (DHS) for their exceptional service to our Nation. 
Last week, we celebrated the Department's 16th anniversary, and we 
marked the extraordinary progress that has been made to protect our 
Nation against a vast array of threats and hazards. In the past year 
alone, DHS has made notable strides and reached new milestones. For 
example, we:
  <bullet> Responded decisively to record-breaking natural disasters 
        and helped Americans rebuild when they needed our help the 
        most;
  <bullet> Prevented the hacking of U.S. elections and guarded against 
        foreign interference in our democracy;
  <bullet> Hardened our digital defenses, organized ourselves for the 
        interconnected era with the Cybersecurity and Infrastructure 
        Security Agency, and pushed for tougher consequences against 
        cyber adversaries;
  <bullet> Created a new hub--the National Risk Management Center--to 
        identify and mitigate the most serious risks to our Nation's 
        critical infrastructure;
  <bullet> Thwarted terrorist plotting and helped bring dangerous 
        individuals to justice;
  <bullet> Launched new, sophisticated efforts to block terrorists and 
        criminals from reaching the United States, including through 
        our new National Vetting Center;
  <bullet> Ramped up security measures to protect Americans against 
        emerging threats--from weaponized drones to chemical and 
        biological weapons;
  <bullet> Reorganized our intelligence and science & technology 
        organizations to better meet the needs of front-line defenders;
  <bullet> Strengthened our campaigns against human trafficking and 
        smuggling, child exploitation, drugs, and transnational 
        criminal organizations;
  <bullet> Raised the baseline of aviation security across the board--
        and around the world;
  <bullet> Took decisive action to enhance school safety and security 
        Nation-wide in order to stop attacks before they happen;
  <bullet>  . . . and much, much more.
    We have also undertaken historic efforts to secure our borders and 
enforce our Nation's immigration laws. This is the subject of today's 
hearing, and this morning I want to outline for you the very real 
humanitarian and security crisis we face, how we are responding, and 
what's urgently needed from Congress to fix the situation.
    The men and women of my Department will tell you that it is no easy 
task to secure the more than 7,000 miles of America's shared border 
with Mexico and Canada while facilitating legal trade and travel. Each 
day, dedicated DHS officers and agents inspect hundreds of tons of 
cargo for illegal substances or explosives, process thousands of 
individuals for admission, and patrol many miles of remote border. They 
do this in order to answer a crucial question: Who and what is coming 
into the country? This mission--safeguarding our territory--is one of 
the most critical charges of our Department and one of the most 
fundamental responsibilities of any government.
      the humanitarian and security crisis at our southern border
    Let me start by saying, the United States leads the world in 
welcoming individuals fleeing persecution. In the 2017 calendar year, 
the United States granted asylum and refugee status to more individuals 
than any other country in the world. We welcome those who come to us 
legally, especially those who are truly fleeing persecution and who 
seek refuge in our country.
    Illegal and uncontrolled migration, however, poses a serious and 
growing risk to U.S. public safety, National security, and the rule of 
law. This cannot be a partisan issue. Every Secretary of this 
Department has sounded the alarm about our unsecured border and 
highlighted the associated threats and consequences to our National 
security. Today we are seeing the results of a failure to act and a 
broken system.
    Our Nation is facing a dire humanitarian and security crisis at our 
Southern Border. In the first 4 months of the fiscal year, we saw 
approximately 60,000 migrants each month cross illegally or present at 
ports of entry without documents. Moreover, the numbers are rising. In 
February, agents apprehended or encountered more than 76,000 aliens, a 
31 percent increase over January, and CBP is forecasting the problem 
will get even worse this spring. The agency is now on track to 
apprehend more migrants crossing illegally in the first 6 months of 
this fiscal year than the entirety of fiscal year 2017. Our capacity is 
already severely strained, but these increases will overwhelm it 
completely.
    What's different about the current migration flow is not just how 
many people are coming but who is arriving. For most of recent history, 
the majority of individuals arriving illegally or without documentation 
were single adults, who we could quickly detain and remove. This is how 
the immigration system is supposed to work. However, in recent years we 
have seen the proportion of vulnerable populations--children and 
families--skyrocket. Because of outdated laws and misguided court 
decisions, we are often forced to release these groups into the 
interior of the United States and we have virtually no hope of removing 
them.
    The details here are critically important. Historically, illegal 
aliens crossing into the United States were predominantly single adult 
males from Mexico, and they were generally removed within 48 hours if 
they had no legal right to stay. Now over 60 percent are family units 
and unaccompanied alien children, and 60 percent are non-Mexican. Many 
of these families are from the Northern Triangle countries (Guatemala, 
Honduras, El Salvador) and claim asylum, so they are released into the 
United States--as required by the Flores court decision--while they 
await a court date that can be years away. Only 1 in 10 individuals 
from the Northern Triangle are ultimately granted asylum by an 
immigration judge. Unfortunately, when it comes time to remove the 
other 90 percent--who have been determined by an immigration judge to 
have no legal right to stay in the United States--they have absconded 
from their last known location. And we do not have sufficient resources 
to find and remove them.
    Make no mistake: The problem is getting worse. The smugglers and 
traffickers have caught on, realizing this is a ``free ticket'' into 
America. As a result, the flow of families and children has become a 
flood. In the past 5 years, we have seen a 620 percent increase in 
families--or those posing as families--apprehended at the border. This 
last fiscal year was the highest on record. Children are being used as 
pawns to get into our country. We have even uncovered ``recycling 
rings'' where innocent young people are used multiple times to help 
aliens fraudulently gain entry. As a Nation, we cannot stand for this.
    The phenomenon of large groups (which is defined as a group of 100 
or more aliens apprehended together in a single event) of migrants 
organized into caravans arriving along our Southern Border provides a 
window into the wide-spread challenges faced everyday by DHS personnel. 
For example, in fiscal year 2017, CBP encountered only two large 
groups. By fiscal year 2018, this grew to 13 groups. And this fiscal 
year through February 28, CBP has experienced 68 groups in the U.S. 
Border Patrol's El Paso, Rio Grande Valley, Tucson, and Yuma Sectors. 
This is not a manufactured crisis. It is real, it is serious, and it is 
overwhelming our front-line personnel.
    Apprehending large groups places a tremendous strain on CBP's 
limited resources, pulling front-line personnel to conduct humanitarian 
efforts and drawing resources away from front-line enforcement, 
effectively placing border security at risk. Associated with the 
increase in large groups and caravans, we saw a 21 percent increase in 
the number of unaccompanied alien minors from the year prior, and a 40 
percent increase in number of family units in fiscal year 2018 compared 
to fiscal year 2017. To make matters worse, we know that transnational 
criminal organizations (TCOs) are taking advantage of these large 
groups as a distraction in order to conduct criminal activity elsewhere 
on the border, as they know CBP resources will be tied up.
    Today's migration flows have created a humanitarian catastrophe. 
Criminals are targeting vulnerable populations along the dangerous 
journey to our borders. In one study, more than 30 percent of women 
reported sexual assault along the way, and 70 percent of all migrants 
reported experiencing violence. Smugglers and traffickers are 
exploiting these migrants. They are forcing them into inhumane 
conditions, demanding large sums of money, and putting their lives in 
danger every day. Vulnerable populations--especially children--are 
coming into DHS custody sicker than ever before, arriving with 
illnesses and injuries. In recent weeks, an average of 56 aliens a day 
have required emergency medical care at the Southern Border.
    The care of those in DHS custody is paramount, and the United 
States Border Patrol is doing everything in its power to handle this 
crisis, but our facilities along the Southern Border were not designed 
to support such large vulnerable populations. These facilities are 
short-term processing facilities, designed to hold individuals for 72 
hours or less. I am grateful for the $415 million in humanitarian 
assistance Congress provided in the most recent DHS appropriations 
bill. The bottom line is that Border Patrol stations built decades ago 
are not designed to handle this crisis and are not the best facilities 
to house children with their parents for extended periods.
    This is also a public safety and National security crisis. TCOs are 
using this situation to line their pockets, fueling a rise in other 
illegal activity and the spread of violent crime into our country. The 
results are disturbing. Across the Nation, Immigration and Customs 
Enforcement (ICE) officers made approximately 266,000 arrests of aliens 
with various criminal charges or convictions in 2017 and 2018--which 
included roughly 100,000 charges or convictions for assault, 30,000 for 
sex crimes, and 4,000 for homicides. Many of these were individuals who 
came across illegally at our Southern Border.
    DHS personnel have also witnessed an increase in the trafficking of 
illegal drugs into our communities. Alarmingly, CBP has reported that 
fentanyl smuggling between ports of entry at the Southern Border has 
more than doubled over our last fiscal year, from fiscal year 2017 to 
fiscal year 2018. Although these seizures represent just a quarter of 
fentanyl seizures along the border, the rate at which they have 
increased is concerning. Fentanyl was responsible for more than 28,400 
overdose deaths of Americans in 2017. Just a few weeks ago, CBP made 
its largest fentanyl bust in U.S. history, seizing 254 pounds of 
fentanyl--enough for 115 million fatal doses--in a truck trailer 
compartment. These drugs are smuggled at and between ports of entry, 
but our officers and agents are not able to devote the full resources 
and attention they could to interdicting them because of the migration 
crisis that is taxing our resources.
    A tough border security posture is essential to keep other 
potential threat actors out of the United States. There are thousands 
of individuals on the terrorist watch list that traveled through our 
hemisphere last year alone, and we work very hard to keep these 
individuals from traveling on illicit pathways to our country. While 
most terror suspects attempting to reach the United States do so by 
air, terrorist groups are clearly interested in exploiting deficiencies 
along our borders to enter the United States. We must vigilantly guard 
against any such efforts.
    Moreover, last year alone, DHS encountered 3,000+ ``special 
interest aliens'' (SIAs)--individuals with suspicious travel patterns 
who could pose a National security risk--at our Southern Border. 
Foreign partners throughout the Western Hemisphere continue to share 
their concerns with me about the growing volume of SIAs. Often these 
partners lack the ability to determine the identities and intentions of 
such individuals before they cross international borders and make their 
way toward our own.
                        responding to the crisis
    DHS is grateful that Congress was finally able to pass a budget for 
the Department, but the crisis is getting worse and our current funding 
neither provides adequate resources nor the additional authorities that 
our DHS personnel need to gain full operational control of our border. 
Congress has repeatedly failed to give DHS the resources needed to 
confront this situation and to handle the influx of aliens, drugs, and 
other illicit traffic into our country. That is why I strongly support 
the President's decision to unlock additional funding for physical 
barriers, including resources from the Department of Treasury and the 
Department of Defense.
    Moreover, I applaud the President's decision to declare a National 
emergency. This is a crisis--pure and simple--and we need to respond 
accordingly. We cannot stand idly by as our border security is further 
compromised and our immigration laws are exploited. Now is the time to 
act and to uphold our fundamental responsibility to our citizens and 
our Nation to safeguard U.S. territory. Although we may disagree on 
solutions, I hope there can be a consensus that the current system 
requires immediate attention.
    Despite these challenges, DHS personnel have worked hard to keep 
our communities safe and have done their best to uphold our Nation's 
laws. Our agents, officers, and enlisted personnel--those from CBP, 
ICE, USCIS, USCG, and beyond--have done an extraordinary job of 
prioritizing the highest threats and risks in their operating areas and 
going after them. Whether they are apprehending illegal aliens, 
interdicting smugglers, conducting life-saving rescues of migrants, or 
arresting dangerous individuals sneaking between our ports of entry--
the work by our DHS personnel on the border is imperative to our 
continued security and prosperity as a Nation. DHS is taking an end-to-
end approach to the humanitarian and security crisis at our Southern 
Border. Below are examples of the actions we have been taking:
    Constructing Border Barriers and Leveraging Technology.--The United 
States has long built barriers along its Southern Border, first in 1909 
and regularly since then according to need. DHS is now constructing the 
first new border wall in nearly a decade, which will improve our 
ability to impede and deny illegal entry. Since the first barriers were 
constructed in San Diego in 1991, U.S. Border Patrol field commanders 
have continued to advocate for border wall and the enduring capability 
it creates to prevent illegal entry while allowing additional time for 
agents to respond. At the same time, we are aggressively pursuing the 
deployment of new technology at our borders to increase the situational 
awareness of our agents and officers and to detect illicit activity.
    Deploying the U.S. Military.--DHS is grateful for the robust 
involvement of Department of Defense (DOD) and National Guard personnel 
who have been deployed to support our border security mission. Every 
administration since President Ronald Reagan has sent troops to the 
border, and other Presidents before him, including President Woodrow 
Wilson who deployed 150,000 guardsmen to secure our Southern Border in 
1916. Our Nation's troops and enabling personnel are assisting with 
surveillance, force protection, logistics, medical response, and much 
more. Already these deployments have enabled thousands of drug 
interdictions and apprehensions of illegal aliens. We are continuing to 
work closely with DOD on expanding barrier protections, as well as 
exploring additional ways to collaborate to ensure CBP personnel are 
freed up to perform their border security mission effectively and 
supported in crisis conditions.
    Amplifying Regional Cooperation.--As Secretary, I engage almost 
weekly with my counterparts in Mexico and the Northern Triangle 
governments of Central America to work toward addressing the migration 
crisis at the source. Last month, I met with security ministers from 
the Northern Triangle in El Salvador to discuss an action plan to deal 
with the crisis. I am pleased to report we reached a breakthrough and 
agreed to negotiate a Memorandum of Cooperation (MOC) to address the 
smuggling, trafficking, irregular migration, and formation of caravans. 
These efforts will include a whole-of-Government approach to addressing 
the security-related drivers of migration and improving border security 
in the region. Our joint statement, which outlined a clear path toward 
increased collaboration between the United States and Northern 
Triangle, emphasized four areas of increased collaboration: Combatting 
Human Trafficking and Migrant Smuggling, Countering Organized Crime and 
Gangs, Expanding Information and Intelligence Sharing, and 
Strengthening Border Security. I look forward to reporting back to 
Congress on the signing of the final regional MOC.
    Instituting the Migrant Protection Protocols.--Late last year, we 
announced a major milestone--the Migrant Protection Protocols (MPP)--to 
address the urgent humanitarian and security crisis at the Southern 
Border. We have begun to implement MPP, which relies on long-standing 
statutory authority to allow us to return migrants to Mexico to await 
the conclusion of their U.S. immigration proceedings while ensuring 
they receive all appropriate humanitarian protections. Ultimately, MPP 
will allow us to focus more attention on individuals legitimately 
fleeing persecution, dissuade those who intend to file false claims, 
and bring order to a chaotic flow.
    Protecting Vulnerable Populations.--At my direction, DHS personnel 
have put in place new policies, procedures, and resources to protect 
children and families. This includes surging medical assistance to the 
Southern Border to deal with the arrival of large groups and sick 
individuals, as well as protocols to ensure that unaccompanied alien 
children are not held with individuals who could pose a danger to them 
while in DHS custody. We have also doubled-down on our efforts to crack 
down on human smuggling and trafficking, including the abuse of 
children. And every day the extraordinary men and women of CBP go above 
and beyond the call of duty to save lives of migrants in trouble, 
including women, children, and infants found abandoned in the desert by 
smugglers. These rescue missions, which take place between ports of 
entry in remote locations on our Southern Border, are extremely 
difficult but also demonstrate our commitment to upholding America's 
values and rescuing those who need our protection.
    Combating Transnational Criminals.--DHS is stepping up its efforts 
to dismantle TCOs. We have reached agreements with governments in the 
region to increase action against TCOs, including through greater 
intelligence sharing, integrated units of U.S. personnel and partner 
agencies, joint investigations, and more. Here at home, we have also 
worked with other departments and agencies to take a more holistic 
approach to combating TCOs, including improving interagency 
coordination structures to take down nefarious groups with greater 
precision and coordination.
    Countering Illegal Drug Smuggling.--DHS continues to seize 
thousands of pounds of illegal and dangerous drugs, including fentanyl, 
as they are smuggled into the United States. We are deploying 
additional technology and resources at the Southern Border both at and 
between ports of entry to help detect and disrupt drug-smuggling 
activity. This also includes deeper cooperation throughout the U.S. 
Government and with regional partners to find and bring drug smugglers 
to justice and dismantle cartels.
    Confronting Asylum Fraud.--DHS is putting in place important 
measures to reduce asylum fraud and frivolous filings. For example, we 
have implemented a ``Last In, First Out'' approach, which means we 
prioritize the most recently filed applications when scheduling 
affirmative asylum interviews. The aim is to deter individuals from 
using our Nation's large asylum backlogs solely to obtain employment. 
By cutting down on asylum fraud, we will be able to devote more 
attention to applicants who are legitimately fleeing persecution and 
require U.S. protection under our laws.
    Increased Local Cooperation.--DHS recognizes the inordinate impact 
that the surge of illegal migration has had on our border communities, 
and we have stepped up cooperation to enlist State and local officials 
in our border security efforts. For instance, DHS has doubled the 
number of 287(g) agreements with local law enforcement to enlist their 
voluntary cooperation on immigration enforcement. At the same time, we 
have increased available funds for Southwest Border localities to 
provide assistance on border protection through grant programs. DHS is 
also working with partner agencies in States, and especially with 
county, local, and Tribal agencies to share information, provide 
resources, and build communication capacity.
                        a comprehensive solution
    Despite all of our efforts, DHS cannot fix this crisis on its own. 
That is why I respectfully request, and will continue to ask, that 
Congress pass legislation to fix outdated laws and gaps in our 
authorities. These legal impediments hamper enforcement of the law, 
weaken border security, and endanger both the American public and the 
illegal aliens making the dangerous journey to the Southwest Border. 
They are also ``pull'' factors that drive illegal migration and 
undermine the territorial integrity of the United States. Only Congress 
has the Constitutional authority to enact immigration law. We are, 
therefore, completely dependent on Congress to change the outdated 
statutes that impede our ability to enforce the law and that handicap 
our ability to keep America safe.
    There are several key legislative reforms that we need to address 
this crisis. Among other actions, we ask Congress to do the following:
    Promote Family Unity.--One of the main challenges is the inability 
of DHS to keep families together during the immigration proceedings. In 
1997, the Immigration and Naturalization Service (INS) entered into the 
Flores settlement agreement relating to detention of minors and their 
release. Since that time, litigation on this agreement has continued, 
and multiple court decisions interpreting the agreement have impeded 
the United States Government's ability to maintain custody of minors 
and, now, based on the most recent interpretation, families. The 
provisions of the settlement agreement should be superseded by 
legislation. Legislation on this issue should be focused on allowing us 
to keep families together during their immigration proceedings and 
promoting a uniform standard of care and accommodation for minors in 
custody, while ensuring our laws are enforced.
    Ensure the Safe and Prompt Return of Unaccompanied Alien Children 
(UAC).--We must also update our laws to ensure that all UACs who are 
not victims of trafficking or persecution (regardless of their country 
of origin) can be returned home and reunited with their families. 
Current law has created a financial incentive for TCOs, smugglers, and 
traffickers to transport UACs to and across our border. The result is 
that children are exploited by criminals for their own gain, and are 
put in danger. We must stop this exploitation and ensure the safe and 
prompt removal of UACs. Government officials in Central America 
continue to express to me their urgent desire to have their children 
returned home, not harbored in the United States. This requires a 
legislative fix.
    Crack Down on Asylum Fraud and Protect Those Who Need It.--We have 
requested that Congress reform asylum standards to deter fraud and 
otherwise ensure that those truly eligible for protection have prompt 
access to the judicial system to adjudicate their claim. Specifically, 
Congress should legislate a standard that requires that it is more 
probable than not that the statements made by the alien in support of 
the alien's claims are true. Reforming this standard helps promote the 
adjudication of meritorious asylum claims by ensuring those who are 
statutorily ineligible for asylum are not found to have a credible fear 
of removal.
    Safeguard Americans from Dangerous, Criminal Aliens.--We also need 
Congressional assistance to update laws that allow criminal aliens to 
circumvent the removal process. Right now, the system is broken, and 
because of a series of misguided court decisions, DHS is forced to 
release dangerous criminal aliens from custody and is unable to remove 
others from the United States even when they have been convicted of 
serious criminal offenses. Specifically, we must clarify the definition 
of ``conviction'' in the Immigration and Nationality Act to address 
aliens who receive post-conviction relief or sentence modifications for 
the purpose of flouting immigration consequences. In addition, we must 
remedy U.S. Courts of Appeals and U.S. Supreme Court decisions, 
including Mathis v. United States, 136 S. Ct. 2243 (2016), that have 
made it increasingly difficult for ICE to remove convicted aliens on 
criminal grounds of removal.
    We must also urgently close loopholes created by the U.S. Supreme 
Court's decision in Zadvydas v. Davis, 533 U.S. 678 (2001). This 
decision generally requires that DHS release a criminal alien ordered 
removed who has been detained for 180 days after the period for removal 
began unless DHS can show that there is a significant likelihood that 
removal can be effectuated in the reasonably foreseeable future. The 
result is that we have been forced to release dangerous individuals--
including those responsible for terrible crimes--back into the 
population. We must close loopholes created by the Zadvydas decision to 
give DHS authority to keep dangerous criminal aliens who are subject to 
final orders of removal off our streets and keep our communities safe. 
Finally, for the safety and security of the American people, Congress 
should ensure that DHS has full authority to detain and remove alien 
criminal gang members, alien gang associates, and aliens who 
participate in gang-related activities. We must be able to safeguard 
Americans from aliens associated with criminal gangs, including 
detaining and removing violent gang members such as MS-13.
                               conclusion
    Make no mistake: Despite the challenges DHS faces, we welcome those 
who come to us legally--including those who are truly fleeing 
persecution. America is a beacon of hope and freedom to the entire 
world, and we welcome more immigrants every year than any other nation 
on earth. Nevertheless, we must be able to uphold our values and the 
rule of law while also maintaining our security.
    That is why I call for common-sense solutions--including physical 
barriers, fixes to outdated laws, and the resources needed to bring 
order to the chaos. Today, I implore Congress to listen to the 
solutions offered by those who see this security crisis up close. The 
humanitarian crisis can no longer be ignored. The security crisis 
cannot be wished away. We must change the status quo now. It will 
require bold action to address gaps in our border security that are 
being taken advantage of every day.
    I thank this committee again for its leadership on this issue, and 
I look forward to your questions.

    Mr. Higgins. Thank you, Madam Chairwoman.
    Miss Rice. With that, I ask unanimous consent to insert 
materials from Amnesty International into the hearing record.
    [The information referred to follows:]
                   Letter From Amnesty International
                                    March 25, 2019.
Rep. Kathleen Rice, Chair,
Rep. Clay Higgins, Ranking Member,
Committee on Homeland Security, Subcommittee on Border Security, 
        Facilitation, and Operations.
Re: Amnesty International Statement for March 26 Hearing on ``The 
Department of Homeland Security's Family Separation Policy: 
Perspectives from the Border''

    Dear Chairwoman Rice, Ranking Member Higgins, and Members of the 
Committee: On behalf of Amnesty International \1\ and our more than 2 
million members and supporters in the United States, we hereby submit 
this statement for the record.
---------------------------------------------------------------------------
    \1\ Amnesty International was awarded the Nobel Peace Prize in 
1977.
---------------------------------------------------------------------------
    Amnesty International is an international human rights organization 
with national and regional offices in more than 70 countries, including 
in the U.S. and Mexico. One of Amnesty International's top global 
priorities for the past several years has been the protection of the 
human rights of refugees and asylum seekers.
    Amnesty International welcomes the on-going oversight efforts by 
Congress, including efforts to publicly investigate and establish an 
exhaustive record of the administration's separation of families and 
children in 2017 and 2018. We hope Congress follows these efforts with 
concrete measures to pass legislation prohibiting the separation and 
indefinite detention of children and families.
  i. in october 2018, amnesty international found that dhs separated 
           thousands more families than previously disclosed
Undercounting of Families Separated
    Based on over a year of in-depth research on the U.S.-Mexico 
border, Amnesty International published a report in October 2018 titled 
``You Don't Have Any Rights Here'': Illegal Pushbacks, Arbitrary 
Detention, and Ill-Treatment of Asylum Seekers in the United States. 
This was the first publication to report on how the U.S. Department of 
Homeland Security (DHS) apparently undercounted by thousands the true 
number of family separations conducted in 2017 and 2018, before, 
during, and after the announcement of its so-called ``zero-tolerance'' 
policy.
    Alongside its October 2018 report, Amnesty International released a 
Facts & Figures overview of new U.S. Customs and Border Protection 
(CBP) statistics it obtained, which appeared to demonstrate a mass 
undercounting of family separations. Also in October 2018, Amnesty 
International responded in an open letter to DHS Secretary Nielsen to 
false claims made by a DHS spokesperson that all family separations had 
been reported in the Government's submissions in the Ms. L. class 
action lawsuit in 2018.
    In January 2019, the Office of the Inspector General (OIG) of the 
Department of Health and Human Services (HHS) issued a report 
confirming Amnesty International's earlier findings: HHS's Office of 
Refugee Resettlement (ORR) apparently took custody of thousands more 
separated children than previously disclosed, who were never included 
in the Ms. L. class action lawsuit because they were released from ORR 
custody before the injunction in Ms. L. was issued. In March 2019, the 
Ms. L. class definition was expanded to include the potential 
``thousands'' of children released from ORR custody prior to the 
court's initial order, though, as of this writing, the remedy for this 
class is yet to be ordered.
Separations Justified on Vague and Spurious Grounds
    Amnesty International's report further demonstrated that DHS did 
not include in its official statistics thousands of additional families 
separated for reasons of so-called ``fraud,'' safety, security, or 
medical considerations. Moreover, DHS appeared to apply arbitrarily and 
en masse those vague grounds for family separations, including to 
separate immediate family members who had full documentation of their 
family relationships and who had requested asylum at official ports of 
entry, even prior to the zero-tolerance policy.
    The Intergovernmental Public Liaison in the CBP Commissioner's 
office informed Amnesty International that the U.S. Border Patrol had 
separated at least 6,022 ``family units''\2\ between April 19, 2018 
(prior to which it claimed not to have been recording family 
separations) and August 15, 2018. In contrast, CBP informed Amnesty 
International that it had only separated 36 families at official Ports 
of Entry from October 2017 through July 2018.
---------------------------------------------------------------------------
    \2\ DHS agencies use several conflicting definitions of the term 
``family units.'' Yet even adopting a conservative interpretation that 
this figure refers to individual family members and not groups of 
family members, CBP still appears to have separated thousands more 
children from their families than initially included in the Ms. L. 
lawsuit, as was confirmed in HHS's January 2019 report. For instance, 
the DHS and HHS draft regulations titled ``Apprehension, Processing, 
Care, and Custody of Alien Minors and Unaccompanied Alien Children'' 
define ``family units'' as the whole family group: `` `Family unit' 
means a group of two or more aliens consisting of a minor or minors 
accompanied by his/her/their adult parent(s) or legal guardian(s).'' 
Id. (7 Sept. 2018), available at: https://www.gpo.gov/fdsys/pkg/FR-
2018-09-07/pdf/2018-19052.pdf. Likewise, CBP's ``National Standards on 
Transport, Escort, Detention, and Search'' also define ``family units'' 
as whole family groups: ``Family Unit: A group of detainees that 
includes one or more non-United States citizen juvenile(s) accompanied 
by his/her/their parent(s) or legal guardian(s), whom the agency will 
evaluate for safety purposes to protect juveniles from sexual abuse and 
violence.'' Id., available at: https://www.cbp.gov/sites/default/files/
assets/documents/2017-Sep/CBP%20TEDS%20Policy%20Oct2015.pdf. In 
contrast, CBP uses the term differently in its periodically updated 
public Southwest Border Migration statistics, in which it defines 
``family units'' as the total number of individuals in families, rather 
than the whole family group: ``Family Unit represents the number of 
individuals (either a child under 18 years old, parent or legal 
guardian) apprehended with a family member by the U.S. Border Patrol.'' 
See ``Southwest Border Migration fiscal year 2019,'' available at: 
https://www.cbp.gov/newsroom/stats/sw-border-migration.) The use of 
``family units'' to mean each individual arriving in a family, rather 
than their whole family group, conflicts with the definition of the 
term under DHS policies, and may be intended to inflate the apparent 
number of families seeking to cross the U.S.-Mexico border for 
political purposes. According to Internet Archive, CBP added this 
definition to its statistics on September 20, 2018.
---------------------------------------------------------------------------
    CBP informed Amnesty International those numbers entirely excluded 
the apparently thousands of other families separated for fraud or other 
arbitrary designations--separations which, in a statement issued the 
day after the June 20 Executive Order supposedly ending the family 
separation policy, CBP suggested it would continue to conduct.\3\ News 
media reported in late November 2018 that the frequency of family 
separations by CBP for ``fraud'' or other reasons has increased 
dramatically since the termination of the zero-tolerance policy.
---------------------------------------------------------------------------
    \3\ ``[A]s was the case prior to implementation of the zero-
tolerance policy on May 5, family units may be separated due to 
humanitarian, health and safety, or criminal history in addition to 
illegally crossing the border.'' CBP's Statement on Implementing the 
President's Executive Order Affording Congress the Opportunity to 
Address Family Separation'' (21 June 2018), available at: https://
www.cbp.gov/newsroom/speeches-and-statements/cbps-statement-
implementing-presidents-executive-order-affording.
---------------------------------------------------------------------------
    Despite repeated requests, CBP has declined to clarify how many of 
the ``family units'' separated were children versus adults, and in what 
months those separations occurred (including since some appeared to 
have been separated after President Trump's Executive Order). When 
Amnesty International expressed alarm that the figures provided by CBP 
appear to conflict with previous numbers that CBP's Legislative Affairs 
Office had shared with the Congressional Research Service for its July 
2018 report, CBP suggested that its previous statistical accounts were 
flawed and that its ``data team'' had updated its statistics 
considerably.
    This suggests that the numbers CBP provided previously to the DHS 
OIG may also have been flawed and have still not been updated. This 
would be consistent with the OIG's findings in its damning October 2018 
report about family separations that ``the data DHS eventually supplied 
was incomplete and inconsistent, raising questions about its 
reliability.''
    Despite its supposedly improved data, in August and September 2018, 
CBP informed Amnesty International that it still did not have accurate 
numbers of family separations conducted by U.S. authorities. For the 
period prior to 19 April 2018, CBP claimed it did not yet have ``an 
official count'' of family separations. For the period after 19 April 
2018, CBP also claimed it had not yet been able ``to reconcile a 
complete and accurate list for separations that may have occurred 
during the zero-tolerance prosecution period.'' In September 2018, CBP 
informed Amnesty International that it did not have ``a full tally'' of 
families it separated for reasons of so-called ``fraud'' (including 
non-parental relationships, such as grandparents; or subjective doubts 
about the validity of the relationship).
    On October 10, the day before Amnesty International released its 
report, the chief of staff of CBP's Intergovernmental Public Liaison 
informed its author: ``Perhaps after your report comes out, we may be 
able to release additional statistics.'' The implication was that more 
statistics would only be forthcoming if there was adequate public 
pressure to release them. On November 20, CBP again declined to provide 
further data, instead stating that any new data would be posted on 
CBP's website.
    Until now, DHS has weathered the scandalous fallout of its family 
separations policy--including irreparable harm caused to thousands of 
children and their families--without a full accounting or a proper 
reckoning of the full scale of abuses under the zero-tolerance policy.
    DHS must reveal to Congress its full statistics on family 
separations and expose them to public scrutiny to ensure that all those 
families are reunited and to guarantee this never happens again.
 ii. the policy and practice of family separations constituted torture 
    in some cases, imposing extreme anguish on members of separated 
             families--many of whom continue to be detained
    In 2018, Amnesty International interviewed 15 adults whom DHS 
agencies separated from their children both before and after the 
introduction of the so-called zero-tolerance policy. The separations 
happened in all four U.S. States along the U.S.-Mexico border 
(California, Arizona, New Mexico, and Texas), at the hands of both CBP 
and Immigration and Customs Enforcement (ICE) personnel. In all of 
those cases, prior to being separated, the families had requested 
asylum and expressed their fear of return to their countries of origin. 
According to the adults, in none of these cases did DHS personnel 
explain to the families the reasons for the separations at the time 
that they happened or allow them to defend their custodial right to 
family unity. DHS personnel simply separated the families--in some 
cases through the use or threat of physical force.
    Based on its research in 2018, Amnesty International found that the 
Trump administration's deliberate and punitive practice of forced 
family separations in some cases constituted torture under both U.S. 
and international law. To meet the definition of torture, an act must 
be: (1) Intentional; (2) carried out or condoned by a Government 
official; (3) inflicting severe pain or suffering, whether physical or 
mental; and (4) carried out for a specific purpose such as punishment, 
coercion, intimidation, or for a discriminatory reason.
    The Trump administration's deliberate policy and practice of 
forcible family separations satisfies all of these criteria. Based on 
public statements and internal memoranda by U.S. Government officials, 
both the policy and practice of family separations were indisputably 
intended to deter asylum seekers from requesting protection in the 
United States as well as to punish and compel those who did seek 
protection to give up their asylum claims. Amnesty International 
researchers witnessed the extreme mental anguish these family 
separations caused and documented instances of family separation being 
leveraged to compel a family to abandon their asylum claim.
    In January 2019, an internal DHS memo from December 2017 that was 
published by a Member of Congress showed that DHS deliberately imposed 
the family separations policy as a means to deter and deport children 
and their families. Contrary to U.S. and international legal 
obligations, DHS never considered the best interests of the children in 
its cruel and unlawful family separation policy.
    More than a year after being forcibly separated by DHS, several 
families informed Amnesty International that they remain in dire need 
of psychological support to address the deep and lasting scars and 
extreme trauma of the forced family separations perpetrated against 
them.

``I believe that because of all of this I'm going through--the fear of 
going back to Brazil, the fear of being separated from my grandchild, 
all of this together, I can't stop thinking about it--that it's making 
me really sick,'' said 55-year-old Maria, who was separated from her 
17-year-old grandson with disabilities, Matheus, after they requested 
asylum in New Mexico in August 2017. ``I might need to go look for a 
psychologist. I don't remember things and can't sleep . . . I start to 
talk about something and forget what I was saying. I am crying a lot 
also because I am still separated from Matheus.''

    The title of the Amnesty International report, ``You Don't Have Any 
Rights Here,'' directly quotes the words of CBP officials as spoken to 
a Salvadoran father in California in November 2017 and to a Brazilian 
mother in Texas in March 2018 as they summarily separated the two 
parents from their children.
    Both of those parents had presented themselves lawfully at official 
ports of entry and were in possession of documentation proving their 
relationships to their children. In neither case did the CBP officers 
give the parents any reason for the separations or a chance to defend 
their custody of their children. Amnesty International visited and 
interviewed each of the parents in detention about 6 weeks after they 
were separated from their respective children. In both interviews, the 
parents broke down into tears, revealing the extreme aguish and 
suffering they experienced because of the lawless conduct of DHS 
authorities.
    Amnesty International interviewed a Brazilian mother, Valquiria, 
while she was in detention on May 10, 2018, 3 days before Mother's Day. 
Ten months later, she remains in detention at the El Paso Processing 
Center. March 17 marked 1 year since Valquiria was separated from her 
8-year-old son, Abel (pseudonym). Abel has stared blankly for months at 
the door where he lives, waiting for his mother to return.

``They told me, `You don't have any rights here, and you don't have any 
rights to stay with your son.' '' Valquiria described to Amnesty 
International. ``For me I died at that moment. They ripped my heart out 
of me . . . For me, it would have been better if I had dropped dead. 
For me, the world ended at that point . . . How can a mother not have 
the right to be with her son?''

    Valquiria should never have been detained at an adult detention 
center; rather, DHS should have followed its own binding internal 
policies and maintained her family's unity. Valquiria's case is also 
emblematic of DHS's use of family separations to penalize individuals 
seeking asylum: She was one of countless families separated by 
authorities after requesting asylum at official ports of entry.
    The trauma of detention has impacted separated families and 
children in another way: Government submissions in on-going litigation 
have revealed that some of the children separated from their families 
by DHS under the zero-tolerance policy turned 18 while in ORR custody 
and were thus transferred to adult Immigration and Customs Enforcement 
(ICE) detention facilities. They have yet to be reunited with their 
families and remain in detention--where they never would have been in 
the first place had DHS not unlawfully separated their families. The 
practice of transfers of 18-year-olds to to adult facilities has been 
described by children and advocates alike as traumatic, and is likely 
doubly so for children and youth previously who have already been 
subjected to the irreversible pain of family separation.
          iii. amnesty international's policy recommendations
    To Congress:
  <bullet> Pass legislation banning the separation and detention of 
        families with children.
  <bullet> Continue to demand full and unimpeded access to the 
        following data to allow scrutiny of the true numbers of family 
        separations prior to, during, and following the announcement of 
        the zero-tolerance policy in 2018:
    <bullet> Numbers of families separated by DHS agencies (including 
            CBP-OFO, Border Patrol, and ICE respectively), and the 
            numbers of children and parents among those disaggregated 
            and total numbers of separated families.
    <bullet> Numbers of supposedly ``unaccompanied children'' (UACs) 
            who were separated from adults with whom they arrived at 
            ports of entry, or who were apprehended between ports of 
            entry, including based on alleged ``fraud,'' safety, 
            security, and/or medical reasons--as those numbers have not 
            been included to date in official statistics provided by 
            DHS.
    <bullet> Information contained in any DHS-HHS interdepartmental 
            information-sharing platforms related to separated families 
            and children.
  <bullet> Require DHS to elaborate upon how and in what circumstances 
        officials: (1) Request and approve the separation of children 
        from the adults with whom they arrive at ports of entry or are 
        apprehended; (2) record such separations; (3) ensure any such 
        family separations are conducted only in the best interests of 
        the child; and (4) facilitate reunifications of those families 
        and accountability for officials, in any cases found to have 
        not been in the best interests of the child.
    To the Department of Homeland Security:
  <bullet> Immediately account for all asylum seekers whom DHS agencies 
        separated from their family members from January 2017 to 
        present, at a minimum.
  <bullet> Reunify, unconditionally, as quickly as possible and sparing 
        no costs, any and all children who remain separated from their 
        parents or guardians.
  <bullet> Release all separated parents and guardians from U.S. 
        immigration detention facilities who have still not yet been 
        reunited with their children.
  <bullet> Halt family separations in all circumstances, except 
        following a rigorous determination of best interests of the 
        child, which DHS officials must articulate to family members, 
        providing them an effective opportunity to contest and 
        recording that contestation in the case files of those 
        affected.
  <bullet> Strengthen mechanisms and procedures to ensure that the 
        separation of children of asylum seekers and migrants occurs 
        only when it is in their best interest, including improved 
        safeguards for the determination of those best interests.
  <bullet> Identify all individuals who were separated from their 
        families as children, but who have since ``aged out'' of ORR 
        shelters and who are now in the custody of ICE detention 
        facilities.
    For more information, please contact Charanya Krishnaswami[.]
            Sincerely,
                                     Charanya Krishnaswami,
        Advocacy Director, The Americas, Amnesty International USA.
                                             Brian Griffey,
    Regional Researcher/Advisor, Americas Regional Office, Amnesty 
                                                     International.

    Miss Rice. Without objection, the subcommittee record shall 
be kept open for 10 days.
    Hearing no further business, the subcommittee stands 
adjourned.
    [Whereupon, at 11:38 a.m., the subcommittee was adjourned.]



                            A P P E N D I X

                              ----------                              

     Question From Ranking Member Clay Higgins for Julie M. Linton
    Question. Dr. Linton, currently, CBP has a National set of 
guidelines for detainment that explicitly mentions family unity, 
entitled the National Standards on Transport, Escort, Detention, and 
Search (TEDS) that we released in 2015. You were asked about CBP's 
explicit guidelines for separation. In your oral testimony, you 
responded that to your knowledge, ``those guidelines do not exist, and 
we would recommend that there be strict policy guidance that separation 
should never occur unless the safety of that child is at risk.''
    Were you aware of these guidelines?
    Answer. The AAP has said repeatedly that separating children from 
their parents contradicts everything we stand for as pediatricians--
protecting and promoting children's health. In fact, highly stressful 
experiences, like family separation, can cause irreparable harm, 
disrupting a child's brain architecture and affecting his or her short- 
and long-term health. This type of prolonged exposure to serious 
stress--known as toxic stress--can carry life-long consequences for 
children. Children should never be separated from their parents unless 
there are concerns for the safety of the child at the hand of the 
parent and a competent family court makes that determination. As such, 
the AAP strongly supports S. 292, the Keep Families Together Act (and 
its House counterpart H.R. 541) which prohibits separation of families 
at the border without good cause, as determined by a State official or 
a child welfare expert. This legislation is critically important for 
ensuring that a decision as consequential as separating a child from 
his or her parent or family members is made with the best interests of 
the child in mind and by a trained and qualified expert in child 
welfare.
       Questions From Ranking Member Clay Higgins for Tim Ballard
    Question 1. Mr. Ballard, do you agree with the Chairwoman of the 
subcommittee that ``family separation is a completely separate issue 
from human trafficking'' and that ``they really have nothing to do with 
each other''?
  <bullet> Do you think the two issues are mutually exclusive?
  <bullet> From what you've seen in the field, how common is it for 
        human traffickers to use the guise of a ``family unit'' to 
        bring children into the United States?
  <bullet> Are human traffickers more or less likely to pose as a 
        family unit if detained between ports of entry? What about at 
        ports of entry?
    Answer. Response was not received at the time of publication.
    Question 2. Mr. Ballard, U.S. Customs and Border Protection (CBP) 
recently shared with Congress that they have discovered more than 3,100 
fraudulent family units attempting unlawful entry along our Southwest 
Border since April 2018. They interview the members of the family unit, 
check for fraudulent documents, and run fingerprints on the migrants 
they process, but there doesn't seem to be enough checks in place to 
make sure the adults are biological parents or the legal guardians of 
the children. This poses a major child safety risk.
  <bullet> Based off your experience, what do you think CBP can be 
        doing to enhance their ability to ensure that migrants who 
        present themselves as a family unit are actually a legitimate 
        family unit?
    Answer. Response was not received at the time of publication.

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
